<html>
<title> - THE EVOLVING NATURE OF TERRORISM: NINE YEARS AFTER THE 9/11 ATTACKS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
  THE EVOLVING NATURE OF TERRORISM: NINE YEARS AFTER THE 9/11 ATTACKS

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 15, 2010

                               __________

                           Serial No. 111-79

                               __________

       Printed for the use of the Committee on Homeland Security

                                     

[GRAPHIC] [TIFF OMITTED] TONGRESS.#13


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
66-029                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3f584f507f5c4a4c4b575a534f115c505211">[email&#160;protected]</a>  

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Loretta Sanchez, California          Peter T. King, New York
Jane Harman, California              Lamar Smith, Texas
Peter A. DeFazio, Oregon             Daniel E. Lungren, California
Eleanor Holmes Norton, District of   Mike Rogers, Alabama
    Columbia                         Michael T. McCaul, Texas
Zoe Lofgren, California              Charles W. Dent, Pennsylvania
Sheila Jackson Lee, Texas            Gus M. Bilirakis, Florida
Henry Cuellar, Texas                 Paul C. Broun, Georgia
Christopher P. Carney, Pennsylvania  Candice S. Miller, Michigan
Yvette D. Clarke, New York           Pete Olson, Texas
Laura Richardson, California         Anh ``Joseph'' Cao, Louisiana
Ann Kirkpatrick, Arizona             Steve Austria, Ohio
Bill Pascrell, Jr., New Jersey       Tom Graves, Georgia
Emanuel Cleaver, Missouri
Al Green, Texas
James A. Himes, Connecticut
Mary Jo Kilroy, Ohio
Dina Titus, Nevada
William L. Owens, New York
Vacancy
Vacancy
                    I. Lanier Avant, Staff Director
                     Rosaline Cohen, Chief Counsel
                     Michael Twinchek, Chief Clerk
                Robert O'Connor, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security..............................................     1
The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Ranking Member, Committee on 
  Homeland Security..............................................     2
The Honorable Yvette D. Clarke, a Representative in Congress From 
  the State of New York:
  Prepared Statement.............................................     4
The Honorable Laura Richardson, a Representative in Congress From 
  the State of California:
  Prepared Statement.............................................     4

                               Witnesses

Mr. Peter Bergen, Senior Fellow, New America Foundation:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8
Dr. Bruce Hoffman, Professor, Edmund A. Walsh School of Foreign 
  Service, Georgetown University:
  Oral Statement.................................................    19
  Prepared Statement.............................................    21
Dr. Stephen E. Flynn, President, Center for National Policy:
  Oral Statement.................................................    28
  Prepared Statement.............................................    29

                                Appendix

Questions From Chairman Bennie G. Thompson for Peter Bergen......    59
Questions From Hon. Yvette D. Clarke for Peter Bergen............    60
Questions From Chairman Bennie G. Thompson for Bruce Hoffman.....    60
Questions From Hon. Yvette D. Clarke for Bruce Hoffman...........    62
Questions From Chairman Bennie G. Thompson for Stephen E. Flynn..    62
Questions From Hon. Yvette D. Clarke for Stephen E. Flynn........    63
Questions From Hon. William L. Owens for Stephen E. Flynn........    63


  THE EVOLVING NATURE OF TERRORISM: NINE YEARS AFTER THE 9/11 ATTACKS

                              ----------                              


                     Wednesday, September 15, 2010

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:08 a.m., in Room 
311, Cannon House Office Building, Hon. Bennie G. Thompson 
[Chairman of the committee] presiding.
    Present: Representatives Thompson, Harman, Norton, Jackson 
Lee, Cuellar, Carney, Cleaver, Green, Himes, Titus, Owens, 
King, Smith, Lungren, Dent, Bilirakis, Cao, and Austria.
    Chairman Thompson [presiding]. The committee will come to 
order. The committee is meeting today to receive testimony on 
``The Evolving Nature of Terrorism: 9 Years After the 9/11 
Attack.''
    September 11, 2001 was a day that changed America. Three 
thousand innocent people lost their lives in the most horrific 
attack on American soil. The attack was perpetrated by al-
Qaeda, a group that most Americans at the time did not know 
existed.
    On those early days that followed the shock and pain of the 
attack we, as Americans, came together in an unprecedented 
fashion and made vows to our country, our neighbors, and the 
victims of the heinous attack. We vowed that we would remain 
resilient; we vowed to do what it takes to prevent an attack of 
this magnitude from happening again. We recommitted ourselves 
to respecting religious freedom.
    Nine years later, we have honored some of those vows with 
high regard. We honored our vow to be resilient. A great 
example came this past May when the people of Manhattan 
illustrated great vigilance and strength by preventing a 
terrorist attack in Times Square and then, in short order, 
getting back to work.
    We have honored our vow to take steps to help prevent an 
attack of this magnitude from happening again by reorganizing 
much of the Federal homeland security and intelligence 
bureaucracy. We created the Department of Homeland Security. We 
established the director of National intelligence and reformed 
the intelligence community. I am not by any means saying that 
those endeavors were a complete success, but they were done in 
the spirit of honoring that vow.
    Regrettably, one vow that some have shamefully and very 
publicly broken over the past few weeks is our vow to maintain 
respect for religious freedom. Just as we must stand vigilant 
against the threat of terrorism, so too must we stay vigilant 
against those who would seek to sow hate and divide us along 
religious or ethnic lines.
    I am reminded of the words of then-President Bush, just 6 
days after the 9/11 attack, who, standing before religious 
leaders at the Islamic Center of Washington, stated, ``The face 
of terror is not the true face of Islam.'' Those words were 
echoed this past weekend by President Obama at an event 
commemorating the ninth anniversary of the attacks when he 
said, ``As Americans we are not at war with Islam.'' Reports of 
Americans being harmed just because they practice Islam are not 
only shameful but distract from the real threats of this 
Nation.
    Al-Qaeda has a stake in a divided America. Propaganda is 
the lifeblood of al-Qaeda. They need outrageous conduct and 
statements of the sort that we have seen in recent days to fuel 
their recruitment efforts.
    Importantly, the assessment produced by our witnesses 
challenges the lies that some have tried to spread about the 
people of certain ethnicities of religions being terrorists. It 
reveals that the face of homegrown terrorism is a diverse one. 
In 2009 alone they report that 21 percent were Caucasian, 9 
percent were Black, and 4 percent were Hispanic. The report 
also finds that homegrown terrorists were just as likely to be 
educated and prosperous as illiterate and poor.
    Another noteworthy observation is that in the 9 years since 
9/11 al-Qaeda and its affiliates have been able to infiltrate 
our culture. In fact, the assessment finds that more and more 
of their leaders and followers are Americans and that an 
embryonic terrorist recruitment, radicalization, and 
operational infrastructure has taken root within our borders.
    Al-Qaeda has been able to do so by using one of America's 
strengths--the melting pot of values, ideas, and backgrounds--
to their advantage. The fruits of this effort have been the 
radicalization of recruits who know American culture because 
they have lived it.
    The magnitude of the homegrown threat must be given due 
consideration at all levels. One question for our witnesses and 
for our Nation is: What can we do to counter this insidious 
terrorist threat? Hopefully our witnesses can give us some 
answers to this growing problem.
    One thing for sure, stereotyping and fear-mongering are 
certainly not the answers.
    Thank you again for being here.
    I now recognize the Ranking Member of the full committee, 
the gentleman from New York, Mr. King, for an opening 
statement.
    Mr. King. Thank you, Mr. Chairman.
    I want to thank the witnesses for being here today, and I 
regret the fact that I will have to be leaving the meeting 
after my opening statement. There is a series of meetings this 
morning on the 9/11 health care bill, which I have to be 
present at with the mayor of New York and others. But I want to 
thank the witnesses for being here today.
    I believe that this is a particularly significant aspect of 
homeland security we brought up today. There is no doubt that 
al-Qaeda has morphed; the threat of Islamic terrorism has 
adjusted, it has changed. We have scored great successes over 
the last 9 years, but in response to that al-Qaeda has also 
adjusted itself.
    While I doubt that another 9/11 attack would be possible--
certainly very unlikely--the fact is, we have seen a number of 
other attacks which have either worked or come close to 
working, and it is primarily--I see, and I agree with the 
general thrust of your report--that al-Qaeda is using people 
living within this country, using people under the radar 
screen, people such as Zazi, who was raised in the United 
States, went to schools in New York City, who was going to take 
part in the subway bombing on 9/11 last year. We also find with 
Shahzad, who had actually become an American citizen, who 
carried out the almost-successful attack in Times Square.
    These were two individuals who were under the radar screen. 
Perhaps they should have been found, but the reality is it 
would be very, very difficult to locate them, especially Zazi, 
who, my understanding is, we only learned about him because his 
name came up in the electronic surveillance of two other people 
who were carrying on a conversation. So it shows that we have 
to be so alert to this new threat within our society.
    Here is where I believe I at least have a nuanced 
difference with the Chairman in that I believe more should be 
done by the Muslim community in this country to be cooperating 
with law enforcement. I know from speaking to law enforcement 
at various levels they do not feel they receive enough 
cooperation from the leadership of the Muslim communities.
    I know, for instance, of Vinas, who was a terrorist who was 
captured in Afghanistan, who actually came from the district 
adjoining mine on Long Island. Prior to going to Afghanistan to 
fight he had gone to a number of mosques on Long Island, said 
he wanted to take part in jihad. He was told by those mosques 
they didn't do jihad but they never made any attempt to contact 
the police or the FBI regarding that. I use that as an example.
    Also, while the report notes that the homegrown terrorists 
come from a variety of races and ethnic groups the fact is they 
were all Muslim, and that is the reality. I think we make a 
mistake when we somehow don't truly identify enemies. The 
reality is the overwhelming majority of Muslims are outstanding 
people, great Americans, but I think we don't do either the 
Muslim community or ourselves any justice by ignoring the 
reality that this is an Islamist threat, and to me it makes 
much more sense to focus on that rather than try to be 
politically correct.
    Also, I don't think we should be exaggerating the number 
of--we talk about anti-Islamic incidents in this country. Every 
one of them is terrible; every one of them is wrong and should 
be denounced. But even in the worst years there are still five 
to 10 times more anti-Semitic incidents in this country than 
there are anti-Muslim.
    So I think we could end up giving it more credit than it 
deserves and giving more notoriety than it deserves, including 
the whole debate over the mosque in Lower Manhattan. The fact 
is there are real issues to be discussed there. No one denies 
the right of the mosque to be there, but I think in an open 
society people have the right to discuss what is appropriate 
and what is not, what is sensitive and what is insensitive, and 
I think sensitivity is a--it goes both ways and it shouldn't 
just be going in the one direction. I think if we can have a 
more open debate, a free debate, I believe we can do much more 
toward resolving these issues.
    Having said that, I want to thank the Chairman for the 
hearing. I want to thank the witnesses for being here. I really 
regret not being able to stay.
    We have some hearings that are good, some hearings, you 
know, we have to sit through. This is one I would love to be at 
from beginning to end because I can assure you that I would be 
learning a lot more from you than you would from me.
    Chairman, I want to thank you for having it, and I 
understand that Congressman Lungren is going to be filling in 
for me, and he will be more than adequate at the task, and that 
I know. With that I yield back the balance of my time.
    Chairman Thompson. Thank you very much. We do appreciate 
your participation and we will understand that you do have to 
go and we understand the reason why, but you do have an able 
filler-in.
    [The statement of Hon. Clarke and Hon. Richardson follow:]

                Statement of Honorable Yvette D. Clarke

    Thank you Mr. Chairman for holding this important hearing.
    On September 11, 2001, we witnessed the worst terrorist attack on 
U.S. soil. As a New York City Councilwoman, I worked with my colleagues 
in the weeks and months following those horrific attacks to address the 
unique security threats facing New York City.
    As the only Member of the House Homeland Security Committee from 
New York City, I've continued to work in Congress to ensure that we as 
a Nation bolster the counterterrorim tools and resources to mitigate 
any potential attacks on our homeland.
    In combating terrorism we must understand that those who wish to do 
Americans harm and jeopardize our National interests are developing new 
ways to attack our country every day. This means that as terrorist 
tactics evolve, so must our preventative measures and responses.
    The threat that state-sponsors of terror, non-state actors such as 
al-Qaeda and nuclear proliferation must be part of our comprehensive 
anti-terror strategy.
    During the 111th Congress, I have introduced H.R. 2070, the 
Radiological Materials Security Act, which would enhance domestic 
preparedness for, and assess our vulnerability to, a terrorist 
radiological dispersion device.
    I've also introduced H.R. 4842, the Homeland Security Science and 
Technology Authorization Act of 2010, which would provide funds to 
review and enhance our Nation's security measures.
    With anti-Western rhetoric coming from some of the most dangerous 
parts of the world, rogue states seeking nuclear weapons and our 
military stretched thin across the globe, understanding and combating 
the evolving threat our Nation faces is critical to protecting the 
American people.
    For this reason, I look forward to hearing from our distinguished 
panel on the Bipartisan Policy Center's National Preparedness Group's 
the report entitled ``Assessing the Terrorist Threat.''
    It is through a comprehensive understanding of this report that our 
committee, as well as the rest of the Nation can adequately address the 
forever evolving threat of terrorism.
    Again, I thank the Chairman for holding this important hearing and 
look forward to the witness testimony.
                                 ______
                                 
                Statement of Honorable Laura Richardson

    Mr. Chairman, thank you for convening this hearing today focusing 
on the ever-evolving threat of terrorist attacks against the homeland 
and the current state of America's efforts to counter these threats.
    On Sept. 11, 2001, America and the world was changed. Nineteen 
terrorists hijacked four commercial passenger jet airlines and 
intentionally crashed two of them into the World Trade Center and one 
into the Pentagon. These attacks resulted in a death toll of nearly 
3,000 people and were the deadliest attacks on American soil since 
Pearl Harbor.
    One year after these attacks, President Bush and Congress 
established the ``9/11 Commission'' to prepare a complete report 
describing the circumstances that gave rise to the 9/11 attacks and 
recommendations that could be adopted by our Nation's security agencies 
to make sure a tragedy like this never happened again. In 2007, 
Chairman Thompson introduced the ``9/11 Act'', which codifies and 
mandates a number of the recommendations stated in the 9/11 
Commission's report to Congress. This sweeping legislation created and 
implemented the initiatives and funding needed to drastically improve 
our homeland security preparedness against terrorist threats home and 
abroad.
    Despite the significant steps the Congress and Federal agencies 
have taken to deter and combat terrorist groups from attacking the 
United States, recent events have shown that the terrorist threats are 
still occurring and are more complex than many have previously thought.
    According to the Department of Homeland Security, the number of 
attacks and attempted attacks against the homeland between August 2009 
and May 2010 surpassed the number during any previous year in our 
history. Moreover, the Bipartisan Policy Center's report identifies a 
disturbing trend by al-Qaeda in recruiting persons born or raised in 
America to carry out its evil ends.
    The 37th Congressional district is home to numerous potential 
targets because of the large concentration of critical infrastructure. 
That is why I am especially committed to ensuring our Nation has the 
tools and resources to keep our people safe!
    I am pleased that Chairman Thompson convened this hearing because 
it provides an opportunity for committee Members to not only reflect on 
the steps the Government has made with regard to homeland security, but 
to also understand the continuing challenges we face in eliminating 
terrorist threats. I would also like to thank our distinguished panel 
of witnesses for appearing before the committee today to discuss what 
progress has been made in this area and what else needs to be done. I 
especially want to commend the Bipartisan Policy Center for its 
outstanding report, ``Assessing the Terrorist Threat.'' The Bipartisan 
Policy Center has performed a valuable service to our Nation in 
documenting the nature and extent of the terrorist threat still facing 
our country. This goes to show what can be accomplished when people of 
good will work across party lines for the common good. I very much look 
forward to hearing from our distinguished panel of witnesses on these 
issues. Thank you again, Mr. Chairman, for convening this hearing. I 
yield back my time.

    Chairman Thompson. I welcome our distinguished witnesses of 
this bipartisan committee today, the Bipartisan Policy Center 
of National Preparedness Group, Mr. Peter Bergen, Dr. Bruce 
Hoffman, and Dr. Stephen Flynn.
    Mr. Bergen is a senior fellow at the New America Foundation 
where he co-directs the counterterrorism strategy initiatives. 
Mr. Bergen also serves as a research fellow at New York 
University's Center on Law and Security and as National 
security analyst with CNN. Born in Minneapolis and raised in 
London, Mr. Bergen has the distinction of producing Osama bin 
Laden's first TV interview in 1997 for CNN.
    Professor Bruce Hoffman has been studying terrorism and 
insurgency for more than 30 years. He is currently a tenured 
professor in the security studies program at Georgetown 
University's Law School of Foreign Service, Washington, DC. 
Among Dr. Hoffman's many distinctions is his role as a founding 
director of the Centre for the Study of Terrorism and Political 
Violence at the University of St. Andrews in Scotland.
    Stephen Flynn is the president of the Center for National 
Policy. Prior to being selected as president of the center Dr. 
Flynn spent a decade as senior fellow for the National security 
studies at the Council on Foreign Relations. A 1982 graduate of 
the U.S. Coast Guard Academy, Dr. Flynn served in the Coast 
Guard on active duty for 20 years.
    Thank you for your service.
    Without objection, the witnesses' full statements will be 
inserted in the record. I now ask the witnesses to summarize 
their statements.
    Since there are three witnesses testifying jointly I have 
conferred in advance with the other Ranking Member and the 
witnesses, and the approach we will be taking is to allot Dr. 
Hoffman and Mr. Bergen 6 minutes each and allot Dr. Flynn the 
remaining 3. But I can assure you that if you go over there is 
no penalty.
    I thank the witnesses, and we will start with Mr. Bergen.

     STATEMENT OF PETER BERGEN, SENIOR FELLOW, NEW AMERICA 
                           FOUNDATION

    Mr. Bergen. Thank you very much, Chairman Thompson. Thank 
you to the committee for the invitation. It is really a 
privilege to testify here.
    I think there is some good news before moving to the bad 
news. You know, I completely agree with Representative King--
the likelihood of a 9/11 from al-Qaeda is vanishingly small.
    The last time al-Qaeda tried to mount such an operation was 
in the summer of 2006 when they had a plan to bring down seven 
American, Canadian, and British airliners over the Atlantic. 
But the plot was interrupted by excellent cooperation between 
the British, American, and Pakistani services--really good 
news. That is the last time we have seen al-Qaeda attempt to 
reach such a large, mass casualty-type attack.
    The other piece of good news is, if you look at the 
terrorism cases in the United States since 9/11 there are--we 
cooperated with Maxwell School of Syracuse and we looked at the 
172 jihadist terrorist cases in the United States since 9/11. 
None of them involved chemical, biological, radiological, or 
nuclear weapons, and al-Qaeda's experiments in this area have 
been pretty either amateur, effectless, or both.
    A third piece of good news is, since 9/11 only 14 Americans 
have died in jihadist terrorist attacks. Of course, every death 
was a tragedy but I don't think that would have been 
predictable in the years after 9/11. If we had had this 
conversation in 2003 I don't think we would have said, well, 
almost a decade after 9/11 al-Qaeda or people inspired by its 
ideas would only be able to kill such a relatively small number 
of Americans.
    The fourth part of good news is, of course, the Muslim-
American community has as a--you know, overwhelmingly rejected 
the al-Qaeda ideological virus, but there are some changes in 
that area, which I will move to next.
    One point, of course, al-Qaeda does retain residual 
capacity. If Zazi had gone through dozens of people would have 
died in Manhattan. If the Nigerian, Umar Farouk Abdulmutallab, 
had succeeded on Christmas day hundreds of our Americans would 
have died. But that is sort of limited to that capacity right 
now.
    I think one worrisome trend is the--well, what we call in 
the report the Americanization of the leadership of some of 
these groups. I mean, Shukrijumah, who grew up in Brooklyn and 
Florida, is now--it looks like he is the al-Qaeda's leader of 
external operations. Omar Hammami, a Baptist convert from 
Alabama, is playing a leadership role in al-Shabab. David 
Headley played an absolutely instrumental role in scoping the 
targets in Mumbai in 2008, a native--a Chicago resident. Then, 
of course, there is al-Awlaki, which I don't need to give him 
much more detail since he is so well known.
    Another worrisome trend is we have seen more terrorism 
cases--more jihadist terrorism cases--in 2009 than we had seen 
previously, by our count 43. We have had 20 this year.
    I am sure Dr. Hoffman will amplify this point, but we have 
seen a diversification of the kinds of groups that are 
recruiting American citizens or residents and also the 
diversification of the kinds of Americans how are joining, as 
Chairman Thompson pointed out, that don't fit any ethnic 
profile. The cases that we looked at in the last 2 years you 
can't really say there is any ethnic profile. There is a 
disproportionate number of Somali-Americans because there have 
been a lot of Somali-American cases in the recent--in the last 
couple of years.
    In terms of targets and tactics, these groups will continue 
with commercial aviation. It remains a total preoccupation. 
Smaller-scale attacks--we will see more of those. Western brand 
name businesses around the Muslim world, particularly hotels, 
have been a constant target of these groups. Recent examples, 
the Ritz Carlton and Marriott attacks in Jakarta in 2009.
    I think the possibility of American suicide attackers 
cannot be dismissed. We have seen American citizens conduct 
suicide attacks overseas and we know from the British 
experience that once that happens overseas it can come home.
    Attacks on U.S. military targets here, of course, if you 
are fired up by these ideas, soldiers fighting in two Muslim 
countries are a target, whether the Major Nidal Hassan case or 
Dix case, the allegations against the North Carolina Cluster 
regarding the Quantico plot, and other cases.
    Assassinations of people who are perceived to have insulted 
Islam I think is something we should be seriously concerned 
about. We have had two American citizens engage and allegedly 
plan to kill Danish and/or Swedish cartoonists who painted 
cartoons of the prophet Mohammed deemed to be offensive just in 
the last couple of years.
    I think a very serious concern that we should all be 
collectively worried about is the possibility of a Mumbai II 
attack. This would change every strategic calculation in the 
region. I think the Indians showed great restraint after the 
last Mumbai attack, but their populations are going to demand 
some kind of retribution if a large-scale attack happens on 
Indian soil by a Pakistani militant group, which I think is one 
of the more foreseeable foreign policy challenges we have going 
forward.
    The, just quickly, some factors that are working for al-
Qaeda and against al-Qaeda: Al-Qaeda has infected other groups 
in South Asia with its ideas. Pakistani Taliban sent, as you 
know, a bomber to Times Square. Vashkar Itibur is acting in a 
more al-Qaeda-like manner.
    Al-Qaeda's regional affiliates are showing some are weak. 
Al-Qaeda in the Islamic Maghreb is weaker; al-Qaeda in the 
Arabian Peninsula is stronger. Al-Qaeda in Iraq is predictably 
back in a way that was--a lot of people were pronouncing its 
obituary, I think, prematurely.
    Osama bin Laden and Ayman al-Zawahiri are still out there. 
In fact, Ayman al-Zawahiri just today released a new video 
tape--audio tape--indicating that he is still alive, trying to 
influence things.
    Finally, our overreactions can play into the terrorist 
groups' hands. They understand that even near misses, as the 
Christmas day incident, can produce a very aggressive reaction 
both in the media and politically.
    Just a final thought, there are five items working against 
these groups. The drone attacks are interfering with them to 
some degree. Pakistani government, military, and public have 
turned against these groups to a large degree. That hostility 
is also true in the Muslim world at large.
    Certain key bin Laden allies have turned against him, 
people that he looked for for religious advice or former 
military allies. These groups have killed a lot of Muslim 
civilians, which is a huge Achilles heel for them.
    This is a good way of introducing Dr. Hoffman, because even 
though there is declining support for these groups--declining 
public support doesn't help them, but at the end of the day 
these are small groups of people and they can continue to 
operate with little public support.
    [The statement of Mr. Bergen follows:]

                   Prepared Statement of Peter Bergen
                           September 15, 2010

    My testimony will consider four broad questions: A. What kind of 
the threat does al-Qaeda and its allies now pose to the United States? 
B. Who are the American recruits to these groups over the past couple 
of years? C. What kinds of targets are these groups likely to attack in 
the future, and what kinds of new tactics might they use? D. What 
factors are helping or hindering these groups?
    A. What is the threat? 1. Al-Qaeda and allied groups and those 
inspired by its ideas continue to pose a real but not catastrophic 
threat to the United States. Such groups might successfully carry out 
bombings against symbolic targets that would kill dozens, such as 
against subways in Manhattan, as was the plan in September 2009 of 
Najibullah Zazi, an Afghan-American al-Qaeda recruit, or they might 
blow up an American passenger jet, as was the intention 3 months later 
of the Nigerian Umar Farouq Abdulmutallab, who had been recruited by 
``Al-Qaeda in the Arabian Peninsula.'' Had that bombing attempt 
succeeded, it would have killed hundreds. This level of threat is 
likely to persist for years to come, however, al-Qaeda no longer poses 
a National security threat to the American homeland of the type that 
could launch a mass-casualty attack sufficiently deadly in scope to 
reorient completely the country's foreign policy, as the 9/11 attacks 
did.
    2. Al-Qaeda and likeminded groups have had minimal success in 
manufacturing, buying, stealing, or being given viable chemical, 
biological, radiological, or nuclear (CBRN) weapons. Despite al-Qaeda's 
long interest in acquiring chemical, biological, radiological, and 
nuclear (CBRN) weapons, on the infrequent occasions that such groups 
have tried to deploy crude versions of these weapons their efforts have 
fizzled, as was evident in the largely ineffectual campaign of chlorine 
bomb attacks by ``Al-Qaeda in Iraq'' in 2007. Militant jihadist groups 
will only be able to deploy crude CBRN weapons for the foreseeable 
future and these will not be true ``weapons of mass destruction,'' but 
rather weapons of mass disruption, whose principal effect will be panic 
but few deaths. Indeed, a survey of the 172 individuals indicted or 
convicted in Islamist terrorism cases in the United States since 9/11 
by the Maxwell School at Syracuse University and the New America 
Foundation found that none of the cases involved the use of CBRN. (In 
the one case where a radiological plot was initially alleged--that of 
the Hispanic-American al-Qaeda recruit, Jose Padilla--that allegation 
was dropped when the case went to trial).\1\
---------------------------------------------------------------------------
    \1\ Peter Bergen and Bruce Hoffman, ``Assessing the Terrorist 
Threat,'' Bipartisan Policy Center, September 10, 2010.
---------------------------------------------------------------------------
    B. Who are the recent American recruits? 1. A key shift in the 
threat to the homeland since around the time that Obama took office is 
the increasing Americanization of the leadership of al-Qaeda and 
aligned groups, and the larger numbers of Americans attaching 
themselves to these groups. Anwar al-Awlaki, a Yemeni-American cleric 
who grew up in New Mexico, is today playing an important operational 
role in al-Qaeda in the Arabian Peninsula,\2\ while Adnan Shukrijumah, 
a Saudi-American who grew up in Brooklyn and Florida, is now al-Qaeda's 
director of external operations. In 2009 Shukrijumah tasked Zazi and 
two other American residents to attack targets in the United States. 
Omar Hammami, a Baptist convert to Islam from Alabama, is both a key 
propagandist and a military commander for Al Shabab, the Somali al-
Qaeda affiliate, while Chicagoan David Headley played a central role in 
scoping the targets for the Lashkar-e-Taiba attacks on Mumbai in late 
2008 that killed more than 160. There is little precedent for the high-
level operational roles that Americans are currently playing in al-
Qaeda and affiliated groups, other than the case of Ali Mohamed, an 
Egyptian-American former U.S. army sergeant, who was a key military 
trainer for al-Qaeda during the 1990s, until his arrest after the 
bombings of the two American embassies in Africa in 1998.
---------------------------------------------------------------------------
    \2\ Michael Leiter, Aspen, Colorado, June 30, 2010.
---------------------------------------------------------------------------
    Al-Qaeda and likeminded groups have also successfully attracted 
into their ranks dozens of American citizens and residents as foot 
soldiers since January 2009. Most prominent among them are Zazi and the 
Pakistani-American Faizal Shahzad who was trained by the Taliban in 
Waziristan and then unsuccessfully attempted to detonate a car bomb in 
Times Square on May 1, 2010. According to a count by Andrew Lebovich of 
the New America Foundation, in 2009 43 American citizens or residents 
aligned with Sunni militant groups or their ideology were charged with 
terrorism crimes in the United States or elsewhere, the highest number 
in any year since 
9/11. So far in 2010 20 have been similarly charged or convicted.
    2. It used to be that the United States was largely the target of 
Sunni militant terrorists, but now the country is also increasingly 
exporting American Sunni militants to do jihad overseas. Not only was 
David Headley responsible for much of the surveillance of the targets 
for the 2008 Mumbai attacks, he also traveled to the Danish capital 
Copenhagen in 2009 where he reconnoitered the Jyllands-Posten newspaper 
for an attack. A year earlier Osama bin Laden had denounced the 
publication of cartoons of the Prophet Mohammed in the Jyllands-Posten 
as a ``catastrophe,'' for which retribution would soon be meted out. 
Following his trip to Denmark, Headley travelled to Pakistan to meet 
with Ilyas Kashmiri who runs Harakat-ul-Jihad Islami, a terrorist 
organization tied to al-Qaeda. Headley was arrested in Chicago in 
October 2009 as he was preparing to travel to Pakistan again. He told 
investigators that he was planning to kill the Jyllands-Posten's editor 
who had commissioned the cartoons, as well as the cartoonist Kurt 
Westergaard, who had drawn the cartoon he found most offensive; the 
Prophet Mohammed with a bomb concealed in his turban. Similarly, Coleen 
R. Larose, a Caucasian-American 46-year-old high school dropout known 
in jihadist circles by her internet handle ``JihadJane,'' traveled to 
Europe in the summer of 2009 to scope out an alleged attack on Lars 
Vilks, a Swedish artist who had drawn a cartoon of the Prophet 
Mohammed's head on the body of a dog.
    By the end of 2009 14 American citizens and residents (all but one 
of Somali descent) had been indicted for recruiting at least 20 others 
to fight in Somalia, or for fundraising for Al Shabab. In addition to 
Zazi and Shahzad, five Muslim-Americans from northern Virginia 
volunteered for jihad in the Afghanistan/Pakistan theatre in 2009. They 
are now in custody in Pakistan charged with planning terrorist attacks. 
Similarly, a group of seven American citizens and residents of the town 
of Willow Creek, North Carolina led by Daniel Boyd, a convert to Islam 
who had fought in the jihad in Afghanistan against the Soviets, 
conceived of themselves as potential participants in overseas holy wars 
from Israel to Pakistan, and some traveled abroad to scope out 
opportunities to do jihad, according to Federal prosecutors. Boyd also 
purchased eight rifles and a revolver and members of his group did 
paramilitary training on two occasions in the summer of 2009.
    3. Another development in the past couple of years is the 
increasing diversification of the types of U.S.-based jihadist 
militants, and the groups with which they have affiliated. Militants 
engaged in jihadist terrorism in the past 2 years have ranged from pure 
``lone wolves'' like Major Nidal Hasan who killed 13 at Fort Hood, 
Texas in 2009 and Abdulhakim Mujahid Muhammad (aka Carlos Bledsoe) who 
killed a soldier the same year at a Little Rock recruiting station, to 
homegrown militants opting to fight in an overseas jihad with an al-
Qaeda affiliate such as the 20 or so American recruits to Al Shabab, to 
militants like David Headley, who have played an instrumental role in 
planning for Lashkar-e-Taiba, to those with no previous militant 
affiliations such as the group of five friends from northern Virginia 
who travelled to Pakistan in 2009 in a quixotic quest to join the 
Taliban, and finally those American citizens such as Najibullah Zazi 
and Bryant Neal Vinas, who managed to plug directly into al-Qaeda 
Central in Pakistan's tribal regions, or train with the Pakistani 
Taliban, as Faizal Shahzad did.
    4. These jihadists do not fit any particular ethnic profile. 
According to a count by the New America Foundation and the Maxwell 
School at Syracuse University, of the 57 Americans indicted or 
convicted of Islamist terrorism crimes since January 2009, 21% (12) are 
Caucasian-Americans, 18% (10) are Arab-Americans, 14% (8) are South 
Asian-Americans, 9% (5) are African Americans, 4% (2) are Hispanic-
Americans and 2% (1) are Caribbean-American. The single largest bloc 
are Somali-Americans at 31%, (19) a number that reflects the recent 
crackdown by the Feds on support networks for Americans travelling to 
Somalia to fight with the al-Qaeda affiliate Al Shabab.\3\
---------------------------------------------------------------------------
    \3\ Bergen Hoffman op. cit.
---------------------------------------------------------------------------
    C. What kinds of future targets or tactics might jihadist groups 
attack or use? 1. Attacking commercial aviation--the central nervous 
system of the global economy--continues to preoccupy al-Qaeda. A cell 
of British Pakistanis, for instance, trained by al-Qaeda plotted to 
bring down seven passenger jets flying to the United States and Canada 
from Britain during the summer of 2006. During the trial of the men 
accused in the ``planes plot'' the prosecution argued that some 1,500 
passengers would have died if all seven of the targeted planes had been 
brought down and most of the victims of the attacks would have been 
Americans, Britons, and Canadians.\4\ The U.K.-based planes plot did 
not stand alone: 4 years earlier an al-Qaeda affiliate in Kenya had 
almost succeeded in bringing down an Israeli passenger jet with a 
surface-to-air missile,\5\ while in 2003 a plane belonging to the DHL 
courier service was struck by a missile as it took off from Baghdad 
airport.\6\ The same year militants cased Riyadh airport and were 
planning to attack British Airways flights flying into Saudi Arabia.\7\ 
In 2007 two British doctors with possible ties to al-Qaeda in Iraq 
tried unsuccessfully to ignite a car bomb at Glasgow Airport. And if 
the Nigerian Umar Farouk Abdulmutallab had brought down the Northwest 
Airlines flight over Detroit on Christmas day of 2009, it would have 
been al-Qaeda's most successful attack on an American target since it 
had destroyed the World Trade Center towers and a wing of the Pentagon. 
According to several counterterrorism officials, the skilled Yemeni-
based bomb-maker who built Abdulmutallab's bomb is likely still at 
large. He is likely to try to bring down another commercial jet with a 
concealed bomb that is not detectable by metal detectors. And al-Qaeda 
or an affiliate could also bring down a jet with a surface-to-air 
missile as was attempted in Kenya in 2002.
---------------------------------------------------------------------------
    \4\ Some fifteen hundred passengers would have died: Richard 
Greenberg, Paul Cruickshank, and Chris Hansen, ``Inside the plot that 
rivaled 9/11,'' Dateline NBC, September 14, 2009. http://
www.msnbc.msn.com/id/26726987/.
    \5\ Affiliate in Kenya almost succeeded: ``Al-Qaeda claims Kenya 
attacks,'' BBC, December 3, 2003.
    \6\ Struck by a missile as it took off: Agence France Presse, 
``Civilian plane hit by missile over Baghdad,'' November 23, 2003.
    \7\ The same year militants: ``British Airways suspends flights to 
Saudi Arabia after threats,'' New York Times, August 14, 2003.
---------------------------------------------------------------------------
    2. Smaller-scale attacks. As one counterterrorism official put it, 
``Abdulmutallab is not a very high barrier for terrorist groups to 
surmount. His attack demonstrated to other terrorists that you don't 
have to be [9/11 operational commander] Khalid Sheikh Muhammad to carry 
out an attack''. Another counterterrorism official said terrorist 
groups now see the United States as more ``gettable'' because of the 
failed plots on Christmas day 2009 and Times Square in 2010.
    3. Armed with the belief that they can bleed Western economies, al-
Qaeda and affiliated terrorist groups also target companies with 
distinctive Western brand names, in particular American hotel chains. 
Since the 9/11 attacks, al-Qaeda and its affiliated groups have 
increasingly attacked economic and business targets. The shift in 
tactics is in part a response to the fact that the traditional pre-9/11 
targets, such as American embassies, war ships, and military bases, are 
now better defended, while so-called ``soft'' economic targets are both 
ubiquitous and easier to hit. In 2002 a group of a dozen French defense 
contractors were killed as they left a Sheraton hotel in Karachi, which 
was heavily damaged. In 2003, suicide attackers bombed the J.W. 
Marriott hotel in Jakarta and attacked it again 6 years later, 
simultaneously also attacking the Ritz Carlton hotel in the Indonesian 
capital. In October 2004, in Taba, Egyptian jihadists attacked a Hilton 
hotel. In Amman, Jordan in November 2005, al-Qaeda attacked three 
hotels with well-known American names--the Grand Hyatt, Radisson, and 
Days Inn.\8\ And five-star hotels that cater to Westerners in the 
Muslim world are a perennial target for jihadists: In 2008 the Taj and 
Oberoi in Mumbai; the Serena in Kabul and the Marriott in Islamabad, 
and in 2009 the Pearl Continental in Peshawar. Such attacks will 
continue as hotels are in the hospitality business and can not turn 
themselves into fortresses.
---------------------------------------------------------------------------
    \8\ Grand Hyatt, Radisson, and Days Inn: Scott Macleod, ``Behind 
the Amman hotel attack,'' Time, November 10, 2005. http://www.time.com/
time/world/article/0,8599,1128209,00.html.
---------------------------------------------------------------------------
    4. Attacking Israeli/Jewish targets. This is an al-Qaeda strategy 
that has only emerged strongly post-9/11. Despite bin Laden's 
declaration in February 1998 that he was creating the ``World Islamic 
Front against the Crusaders and the Jews,'' al-Qaeda only started 
attacking Israeli or Jewish targets in early 2002. Since then, al-Qaeda 
and its affiliated groups have directed an intense campaign against 
Israeli and Jewish targets, killing journalist Daniel Pearl in Karachi, 
bombing synagogues and Jewish centers in Tunisia, Morocco and Turkey, 
and attacking an Israeli-owned hotel in Mombasa, Kenya, which killed 
13. Al-Qaeda's North African affiliates attacked the Israeli embassy in 
Mauritania in 2008.
    5. The fact that American citizens have engaged in suicide 
operations in Somalia raises the possibility that suicide operations 
could start taking place in the United States itself. To discount this 
possibility would be to ignore the lessons of the British experience. 
On April 30, 2003, two Britons of Pakistani descent launched a suicide 
attack in Tel Aviv, while the first British suicide bomber, Birmingham-
born Mohammed Bilal, blew himself up outside an army barracks in 
Indian-held Kashmir in December 2000.\9\ Despite those suicide attacks 
the British security services had concluded after 9/11 that suicide 
bombings would not be much of a concern in the United Kingdom 
itself.\10\ Then came the four suicide attackers in London on July 7, 
2005, which ended that complacent attitude. Major Nidal Malik Hasan, a 
Palestinian-American medical officer and a rigidly observant Muslim who 
made no secret to his fellow officers of his opposition to America's 
wars in Iraq and Afghanistan, went on a shooting spree at the giant 
army base at Fort Hood, Texas, on November 5, 2009, killing 13 and 
wounding many more. This attack seems to have been an attempted suicide 
operation in which Hasan planned a jihadist ``death-by-cop.'' In the 
year before his killing spree, Major Hasan had made web postings about 
suicide operations and the theological justification for the deaths of 
innocents and had sent more than a dozen emails to Anwar al Awlaki an 
American-born cleric living in Yemen who is a well-known al-Qaeda 
apologist.\11\ Awlaki said he first received an email from Major Hasan 
on Dec. 17, 2008, and in that initial communication he ``was asking for 
an edict regarding the [possibility] of a Muslim soldier [killing] 
colleagues who serve with him in the American army.''\12\
---------------------------------------------------------------------------
    \9\ Outside an Army barracks: Emma Brockes, ``British man named as 
bomber who killed 10,'' The Guardian, December 28, 2000. http://
www.guardian.co.uk/uk/2000/dec/28/india.kashmir.
    \10\ Not be much of a concern: Peter Bergen, ``The terrorists among 
U.S.,'' ForeignPolicy.com, November 19, 2009.
    \11\ American-born cleric: ``Sudarsan Raghavan, Cleric says he was 
confidant to Hasan,'' Washington Post, November 16, 2009. http://
www.washingtonpost.com/wp-dyn/content/article/2009/11/15/
AR2009111503160_pf.html.
    \12\ Was asking for an edict: Anwar al Awlaki, interview by 
Abdelela Haidar Shayie, AlJazeera.net, December 23, 2009. Translation 
by Middle East Media Research Institute, http://www.memrijttm.org/
content/en/report.htm?report=3859%26param=GJN.
---------------------------------------------------------------------------
    6. For Americans fired up by jihadist ideology, American soldiers 
fighting wars in two Muslim countries are particularly inviting 
targets. A few months before Hasan's murderous spree, Abdulhakim 
Mujahid Muhammad, an African-American convert to Islam, had shot up a 
U.S. military recruiting station in Little Rock, Arkansas, killing a 
soldier and wounding another. Despite the fact that the FBI had had him 
under surveillance following a mysterious trip that he had recently 
taken to Yemen, Muhammad was still able to acquire guns and attack the 
recruiting station in broad daylight. When Muhammad was arrested in his 
vehicle, police found a rifle with a laser sight, a revolver, 
ammunition, and the makings of Molotov cocktails.\13\ (The middle name 
that Muhammad had assumed after his conversion to Islam, Mujahid, or 
``holy warrior,'' should have been a red flag, as this is far from a 
common name among Muslims.) Daniel Boyd, the alleged leader of the 
jihadist cell in North Carolina, obtained maps of Quantico Marine Base 
in Virginia, which he cased for a possible attack on June 12, 2009. He 
also allegedly possessed armor-piercing ammunition, saying it was ``to 
attack Americans,'' and said that one of his weapons would be used 
``for the base,'' an apparent reference to the Quantico facility.\14\
---------------------------------------------------------------------------
    \13\ U.S. military recruiting station: District Court of Little 
Rock, Arkansas, County of Pulaski, Affidavit for Search and Seizure 
Warrant. http://www.investigativeproject.org/documents/case_docs/
988.pdf.
    \14\ According to Federal prosecutors: USA v Daniel Patrick Boyd et 
al Indictment in U.S. District Court for the Eastern District of North 
Carolina, filed 7/22/09 http://www.investigativeproject.org/documents/
case_docs/1029.pdf; and the superseding indictment in the same case 
dated September 24, 2009. http://www.investigativeproject.org/
documents/case_docs/1075.pdf
---------------------------------------------------------------------------
    7. Assassinations of key political leaders, U.S. officials and 
those who are perceived as insulting Islam. Because we rightly think of 
al-Qaeda and allied group as preoccupied by inflicting mass casualty 
attacks we tend to ignore their long history of assassinating or 
attempting to assassinate key leaders and American officials. Two days 
before 9/11 al-Qaeda assassinated the storied Afghan military commander 
Ahmad Shah Massoud; 2 years later they tried to kill Pakistani 
president Pervez Musharraf on two occasions; in 2009 the top Saudi 
counterterrorism official Mohamed bin Nayef narrowly escaped being 
killed by an al-Qaeda assassin bearing a concealed bomb; Hamid Karzai 
has been the subject of multiple Taliban assassination attempts, the 
leading Pakistani politician Benazir Bhutto succumbed to a Taliban 
suicide bomber in 2007; in 2002 American diplomat Leonard Foley was 
murdered in Amman, Jordan by al-Qaeda in Iraq, and 6 years later the 
Taliban killed American aid worker Stephen Vance in Peshawar who was 
working on a project funded by the U.S. Agency for International 
Development. It is worth noting here that since 9/11 the U.S. consulate 
in Karachi has been the subject of three serious attacks; the U.S. 
consulate in Jeddah the subject of one large-scale attack and the U.S. 
embassy in Sana, Yemen the subject of two such attacks. As we have 
seen, Scandinavian cartoonist and artists who have drawn cartoons of 
the Prophet Mohammed are now frequently targeted by jihadists. For al-
Qaeda and allied groups the Danish cartoon controversy has assumed some 
of the same importance that Salman Rushdie's fictional writings about 
the Prophet did for Khomeini's Iran two decades earlier.
    8. ``Fedayeen'' attacks. The ``success'' of Lashkar-e-Taiba's 60-
hour assault on Mumbai in late November 2008 that involved ten gunmen 
all willing to die in the assault is already producing other similar 
copycat operations. The long drawn-out attacks in Mumbai produced 
round-the-clock coverage around the globe, something other terrorist 
groups want to emulate. Known as ``Fedayeen'' (self-sacrificer) attacks 
we have already seen in Afghanistan similar Fedayeen attacks on Afghan 
government buildings and in Pakistan a similar attack in October 2009 
against GHQ, the Pakistani military headquarters.
    9. A frequent question after the attacks on the World Trade Center 
and Pentagon was why didn't al-Qaeda mount an attack on a mall in some 
Midwestern town, thus showing the American public its ability to attack 
in Anywheresville, USA? For the Muslims around the globe whom al-Qaeda 
is trying to influence an attack on an obscure, unknown town in the 
Midwest would have little impact, which explains al-Qaeda's continuing 
fixation on attacks on cities and targets well-known in the Islamic 
world. That explains Zazi's travel to Manhattan from Colorado and al-
Qaeda's many attempts to bring down American passenger jets in the past 
decade. That is not, of course, to say that someone influenced by bin 
Laden's ideas--but not part of al-Qaeda or one of its affiliates--might 
not attempt an attack in the future in some obscure American town, but 
the terrorist organization and its affiliates remains fixated on 
symbolic targets.
    D. There are four factors helping jihadist militant groups. 1. Al-
Qaeda's ideological influence on other jihadist groups is on the rise 
in South Asia. One of the key leaders of the Taliban as it surged in 
strength several years after 9/11 was Mullah Dadullah, a thuggish but 
effective commander who like his counterpart in Iraq, Abu Musab al-
Zarqawi, thrived on killing Shia, beheading his hostages, and media 
celebrity.\15\ In interviews in 2006, Dadullah conceded what was 
obvious as the violence dramatically expanded in Afghanistan between 
2005 and 2006: that the Taliban had increasingly morphed together 
tactically and ideologically with al-Qaeda. ``Osama bin Laden, thank 
God, is alive and in good health. We are in contact with his top aides 
and sharing plans and operations with each other.''\16\ The Taliban 
also adopted the playbook of al-Qaeda in Iraq wholesale from 2005 
forward, embracing suicide bombers and IED attacks on U.S. and NATO 
convoys. The Taliban only began deploying suicide attackers in large 
numbers after the success of such operations in Iraq had become obvious 
to all. Where once the Taliban had banned television, now they boast an 
active video propaganda operation named Umar, which posts regular 
updates to the Web mimicking al-Qaeda's production arm, Al Sahab.
---------------------------------------------------------------------------
    \15\ Between 7,000 to 10,000: Author interview U.S. military 
official, Kabul Afghanistan, September 2006.
    \16\ Some 12,000 fighters: BBC News, ``Afghanistan: Taleban second 
coming,'' June 2, 2006. http://news.bbc.co.uk/2/hi/south_asia/
5029190.stm; In contact with his top aides: CBS News, CBS Evening News 
with Katie Couric, December 29, 2006.
---------------------------------------------------------------------------
    In 2008 for the first time the Taliban began planning seriously to 
attack targets in the West. According to Spanish prosecutors, the late 
leader of the Pakistani Taliban, Baitullah Mehsud sent a team of would-
be suicide bombers to Barcelona in January 2008. Pakistani Taliban 
spokesman Maulvi Omar confirmed this in a later videotaped interview in 
which he said that those suicide bombers ``were under pledge to 
Baitullah Mehsud'' and were sent because of the Spanish military 
presence in Afghanistan. In March 2009 Baitullah Mehsud threatened an 
attack in America telling the Associated Press by phone, ``Soon we will 
launch an attack in Washington that will amaze everyone in the world.'' 
At the time this was largely discounted as bloviating, but by the end 
of the year the Pakistan Taliban was training an American recruit for 
just such an attack. Faisal Shahzad, who had once worked as a financial 
analyst in the accounting department at the Elizabeth Arden cosmetics 
company in Stamford, Connecticut, travelled to Pakistan in the winter 
of 2009 where he received 5 days of bomb-making training from the 
Taliban in the tribal region of Waziristan. Shahzad, also met with the 
Pakistani Taliban leader Hakimullah Mehsud, and a video of the meeting 
shows the two shaking hands and hugging.
    Armed with his training by the Taliban Shahzad returned to 
Connecticut where he purchased a Nissan Pathfinder. He then built a 
bomb, which he placed in the SUV and detonated in Times Square on May 
1, 2010 around 6 p.m. when the sidewalks were thick with tourists and 
theatergoers. The bomb, which was designed to act as a fuel-air 
explosive, luckily was a dud and Shahzad was arrested 2 days later as 
he tried to leave JFK Airport for Pakistan.\17\ Media accounts largely 
painted Shahzad as a feckless terrorist. In fact Shahzad did a number 
of things indicating that he had received some at least rudimentary 
counter-surveillance techniques; he eliminated one of the Vehicle 
Identification Numbers on his SUV, he purchased the type of fertilizer 
which would not trigger suspicions that he was building a bomb, and he 
avoided building a hydrogen peroxide-based bomb of the kind that al-
Qaeda recruit Najibullah Zazi was attempting the previous year as 
large-scale purchases of hydrogen peroxide that don't appear to have 
legitimate purposes are now likely to draw law enforcement attention.
---------------------------------------------------------------------------
    \17\ Armed with that training and $8,000 in cash: United States of 
America v. Faisal Shahzad, Plea agreement, Southern District of New 
York, June 21, 2010.
---------------------------------------------------------------------------
    The extent of the cooperation between the Pakistani Taliban and al-
Qaeda could be seen in the suicide bombing that killed seven CIA 
officers and contractors in the American base at Khost in eastern 
Afghanistan on December 30, 2009. The suicide bomber, Humam Khalil Abu-
Mulal al-Balawi, a Jordanian doctor, was a double agent: Information he 
had earlier provided to the CIA was used to target militants in 
Pakistan.\18\ Two months after Balawi's suicide attack al-Qaeda's video 
production arm released a lengthy interview with him videotaped some 
time before he died in which he laid out how he planned to attack the 
group of agency officials using a bomb made from C-4.\19\ Mustafa Abu 
al-Yazid, the No. 3 in al-Qaeda, praised the suicide attack targeting 
the CIA officers saying, it was ``to avenge our good martyrs'' and 
listing several militant leaders felled by U.S. drone strikes,\20\ 
while the chief of the Pakistani Taliban, Hakimullah Mehsud, appeared 
alongside Balawi in a prerecorded video saying the attack was revenge 
for the drone strike that had killed Hakimullah's predecessor, 
Baitullah Mehsud, 6 months earlier.\21\
---------------------------------------------------------------------------
    \18\ The suicide bomber: Joby Warrick and Pamela Constable, ``CIA 
base attacked in Afghanistan supported airstrikes against al-Qaeda, 
Taliban,'' Washington Post, January 1, 2010; ``Bomber Fooled CIA, 
Family, Jordanian Intelligence,'' Associated Press, January 6, 2010.
    \19\ How he planned to attack the group: ``An interview with the 
Shaheed Abu Dujaanah al Khorshani (Humam Khalil Abu-Mulal al-Balawi),'' 
February 28, 2010, NEFA Foundation.
    \20\ Avenge our good martyrs: Mustafa Abu al-Yazid, ``Infiltrating 
the American Fortresses,'' December 31, 2009, NEFA Foundation. http://
www.nefafoundation.org/miscellaneous/nefaAbul-Yazid0110.pdf.
    \21\ Was revenge: Stephen Farrell, ``Video links Taliban to CIA 
attack,'' New York Times, January 9, 2010. http://www.nytimes.com/2010/
01/10/world/middleeast/10balawi.html
---------------------------------------------------------------------------
    The Mumbai attacks of 2008 also showed that al-Qaeda's ideas about 
attacking Western and Jewish targets had also spread to other Pakistani 
militant groups like Lashkar-e-Taiba (LeT), which had previously 
focused only on Indian targets. Over a 3-day period in late November 
2008 LeT carried out multiple attacks in Mumbai targeting five-star 
hotels housing Westerners and a Jewish-American community center. One 
of the more predictable foreign policy challenges of the next years is 
a ``Mumbai II'': a large-scale attack on a major Indian city by a 
Pakistani militant group that kills hundreds. The Indian government 
showed considerable restraint in its reaction to the provocation of the 
Mumbai attacks in 2008. Another such attack, however, would likely 
produce considerable political pressure on the Indian government to 
``do something.'' That something would likely involve incursions over 
the border to eliminate the training camps of Pakistani militant groups 
with histories of attacking India. That could lead in turn to a full-
blown war for the fourth time since 1947 between India and Pakistan. 
Such a war involves the possibility of a nuclear exchange and the 
certainty that Pakistan would move substantial resources to its eastern 
border and away from fighting the Taliban on its western border, so 
relieving pressure on all the militant groups based there, including 
al-Qaeda.
    In June CIA director Leon Panetta told ABC News that al-Qaeda's 
presence in Afghanistan is now ``relatively small . . . I think at 
most, we're looking at maybe 50 to 100.'' The following month Mike 
Leiter, the head of the National Counterterrorism Center, told an 
audience in Aspen that there were probably 300 al-Qaeda leaders and 
fighters in Pakistan. For some, these small numbers suggested that the 
war against al-Qaeda was already won (let's maybe cite one or two 
examples here). But this was to overlook three key points: First, al-
Qaeda has always been a small elite organization. There were only two 
hundred sworn members of al-Qaeda at the time of the 9/11 attacks and 
al-Qaeda's role has always been as an ideological and military vanguard 
seeking to influence and train other jihadist groups. In Afghanistan 
and Pakistan, for instance, in the past several years small numbers of 
al-Qaeda instructors embedded with larger Taliban units have functioned 
something like U.S. Special Forces do--as trainers and force 
multipliers.\22\ The second point is that, as we have seen in the 
preceding paragraphs, al-Qaeda's ideology and tactics have spread to a 
wide range of large militant groups in South Asia all of which are 
relatively large--the Taliban in Afghanistan alone is estimated to 
number 25,000 men, while Lashkar-e-Taiba has thousands of fighting men 
in its ranks. Finally, al-Qaeda Central has seeded a number of 
franchises around the Middle East and North Africa that now are acting 
in an al-Qaeda-like manner with little or no contact with al-Qaeda 
Central itself; a phenomenon we will examine next.
---------------------------------------------------------------------------
    \22\ Cite to Newsweek story by Sami Yousufzai and Ron Moreau.
---------------------------------------------------------------------------
    2. Al-Qaeda Central's influence has extended to jihadist groups 
beyond South Asia. In September 2009, the Somali Islamist insurgent 
group Al Shabab formally pledged allegiance to bin Laden \23\ following 
a 2-year period in which it had recruited Somali-Americans and other 
U.S. Muslims to fight in the war in Somalia. Six months earlier bin 
Laden had given his own imprimatur to the Somali jihad in an audiotape 
released titled ``Fight On, Champions of Somalia.''\24\ After it 
announced its fealty to bin Laden, Shabab was able to recruit larger 
numbers of foreign fighters, by one estimate up to 1,200 were working 
with the group by 2010.\25\ Today, Shabab controls about half of 
Somalia's territory.
---------------------------------------------------------------------------
    \23\ Formally pledged allegiance: ``Somalia's Shabab proclaim 
allegiance to bin Laden,'' Agence France Press, September 22, 2009.
    \24\ His own imprimatur: Osama bin Laden tape, translated by NEFA 
Foundation, March 19, 2009. http://www.nefafoundation.org/
miscellaneous/nefaubl0309-2.pdf.
    \25\ Sudarsan Raghavan, ``Foreign fighters gain influence in 
Somalia's Islamist al-Shabab militia'' Washington Post, June 8, 2010.
---------------------------------------------------------------------------
    Al Shabab managed to plant al-Qaeda-like ideas into the heads of 
even its American recruits. Shirwa Ahmed, an ethnic Somali, graduated 
from high school in Minneapolis in 2003, and then worked pushing 
passengers in wheelchairs at Minneapolis Airport. During this period 
Ahmed was radicalized; the exact mechanisms of that radicalization are 
still murky but in late 2007 Ahmed he traveled to Somalia. A year 
later, on October 29, 2008, Ahmed drove a truck loaded with explosives 
towards a government compound in Puntland, northern Somalia, blowing 
himself up and killing about 20 people. The FBI matched Ahmed's finger, 
recovered at the scene of the bombing, to fingerprints already on file 
for him.\26\ Ahmed was the first American suicide attacker anywhere. 
It's possible that 18-year-old Omar Mohamud of Seattle was the second. 
On September 17, 2009, two stolen United Nations vehicles loaded with 
bombs blew up at Mogadishu airport, killing more than a dozen 
peacekeepers of the African Union. The FBI suspected that Mohamud was 
one of the bombers.\27\
---------------------------------------------------------------------------
    \26\ Ahmed drove a truck: Spencer Hsu and Carrie Johnson, ``Somali 
Americans recruited by extremists,'' Washington Post, March 11, 2009. 
http://www.washingtonpost.com/wp-dyn/content/article/2009/03/10/
AR2009031003901.html; matched Ahmed's finger: USA vs. Cabdulaahi Ahmed 
Faarax, Abdeiweli Yassin Isse, criminal complaint filed October 8, 2009 
in U.S. District Court Minnesota. http://graphics8.nytimes.com/
packages/pdf/U.S./20091124_TERROR_DOCS/faarax.pdf.
    \27\ The FBI suspected: ``FBI investigating Seattleite in suicide 
bombing,'' Associated Press, September 25, 2009. http://
www.msnbc.msn.com/id/33025395/ns/world_news-terrorism/.
---------------------------------------------------------------------------
    The chances of getting killed in Somalia were quite high for the 
couple of dozen or so Americans who volunteered to fight there; in 
addition to the two men who conducted suicide operations, six other 
Somali-Americans between 18 and 30 years old were killed in Somalia 
between 2007 and 2009 as well as Ruben Shumpert, an African-American 
convert to Islam from Seattle.\28\ Given the high death rate of the 
Americans fighting in Somalia, as well as the considerable attention 
this group received from the FBI, it was unlikely that American 
veterans of the Somali war posed much of a threat to the United States 
itself. It was, however, plausible now that Al Shabab had declared 
itself to be an al-Qaeda affiliate, that U.S. citizens in the group 
might be recruited to engage in anti-American operations overseas. Al 
Shabab has shown that it is capable of carrying out operations outside 
of Somalia, bombing two groups of fans watching the World Cup in Uganda 
on July 11, 2010, attacks which killed more than 70. Eight months 
earlier a 28-year-old Somali man had forced himself into the home of 
Kurt Westergaard--the Danish cartoonist David Headley was planning to 
kill--and armed with a knife and an ax tried, unsuccessfully, to break 
into the panic room where the Danish cartoonist was hiding. Danish 
intelligence officials say the suspect has links with al-Shabab and al-
Qaeda leaders in eastern Africa.
---------------------------------------------------------------------------
    \28\ Six other Somali-Americans: Spencer Hsu, ``Concern grows over 
recruitment of Somali Americans by Islamists,'' Washington Post, 
October 4, 2009. http://www.washingtonpost.com/wp-dyn/content/article/
2009/10/03/AR2009100302901.html.
---------------------------------------------------------------------------
    In September 2006 the Algerian Salafist Group for Preaching and 
Combat's leader Abu Musab Abdul Wadud, explained that al-Qaeda ``is the 
only organization qualified to gather together the mujahideen.'' 
Subsequently taking the name ``Al-Qaeda in the Islamic Maghreb'' (AQIM) 
the group, which had traditionally focused only on Algerian targets, 
conducted a range of operations; bombing the United Nations building in 
Algiers; attacking the Israeli embassy in Mauritania, and murdering 
French and British hostages.\29\ AQIM has hitherto not been able to 
carry out attacks in the West and is one of the weakest of al-Qaeda's 
affiliates, only having the capacity for infrequent attacks in North 
Africa.
---------------------------------------------------------------------------
    \29\ Only organization qualified: Quoted in Peter Bergen, ``Where 
you bin?'' The New Republic, January 29, 2006.
---------------------------------------------------------------------------
    In 2008 there was a sense that Al-Qaeda in Iraq (AQI) was on the 
verge of defeat. The American ambassador to Iraq, Ryan Crocker said, 
``You are not going to hear me say that al-Qaeda is defeated, but 
they've never been closer to defeat than they are now.'' Certainly al-
AQI has lost the ability to control large swaths of the country and a 
good chunk of the Sunni population as it did in 2006, but the group has 
proven surprisingly resilient as demonstrated by the that it pulled off 
large-scale bombings in central Baghdadin 2009 and 2010. AQI can also 
play the nationalist card quite effectively in the north, especially 
over the disputed city of Kirkuk, which is claimed by both Iraq's Arabs 
and Kurd, and Iraqi officials believe that AQI is entering into new 
marriages of convenience with Sunni nationalist groups that only 3 
years ago it was at war with. It is worth noting that in the first 3 
months of 2010 the National Counterterrorism Center found that there 
were more terrorist attacks in Iraq--566--than any other country in the 
world; attacks that killed 667 people.
    Al-Qaeda in the Arabian Peninsula (AQAP) was the group responsible 
for Umar Farouq Abdulmutallab's botched attempt to explode a bomb on 
Northwest flight 253 over Detroit on Christmas day 2009. Abdulmutallab 
boarded the flight in Amsterdam, which was bound for Detroit with some 
three hundred passengers and crew on board. Secreted in his underwear 
was a bomb made with 80 grams of PETN, a plastic explosive that was not 
detected at airport security in Amsterdam or the Nigerian capital, 
Lagos, from where he had originally flown. He also carried a syringe 
with a chemical initiator that would set off the bomb.\30\ As the plane 
neared Detroit the young man tried to initiate his bomb with the 
chemical, setting himself on fire and suffering severe burns. Some 
combination of his own ineptitude, faulty bomb construction, and the 
quick actions of the passengers and crew who subdued him and 
extinguished the fire prevented an explosion that might have brought 
down the plane, which would have crashed near Detroit killing all on 
board and also likely killing additional Americans on the ground. 
Immediately after he was arrested Abdulmutallab told investigators that 
the explosive device ``was acquired in Yemen along with instructions as 
to when it should be used.''\31\
---------------------------------------------------------------------------
    \30\ On Christmas day: Anahad O'Connor and Eric Schmitt, ``Terror 
attempt seen as man tries to ignore device on jet,'' New York Times, 
December 26, 2009; 80 grams of PETN, prominent Nigerian family: Carrie 
Johnson, ``Explosive in Detroit terror case could have blown hole in 
airplane, sources say,'' Washington Post, December 29, 2009; recently 
graduated: ``Bomb suspect Umar Farouk Abdulmutallab on UK watch-list,'' 
BBC, December 29, 2009; originally flown from: ``Key dates surrounded 
the Christmas Day attack,'' Associated Press, December 30, 2009, http:/
/www.wtop.com/?nid=116&sid=1851004; carried a syringe: Richard Esposito 
and Brian Ross, ``Photos of the Northwest Airlines Flight 253 bomb,'' 
ABC News, December 28, 2009. http://abcnews.go.com/print?id=9436297.
    \31\ Quick actions, acquired in Yemen: ``Yemeni diplomat: Yemen can 
carry out airstrikes against al-Qaeda,'' CNN.com, December 30, 2009. 
http://www.cnn.com/2009/WORLD/meast/12/30/U.S..yemen.strikes/
index.html.
---------------------------------------------------------------------------
    The Northwest Airlines plot had been presaged in virtually every 
detail a few months earlier several thousand miles to the east of 
Detroit. On August 28, 2009 the Saudi Arabian deputy minister of 
interior, Prince Mohammed bin Nayef, survived a bombing attack launched 
by AQAP. Because he leads Saudi Arabia's counterterrorism efforts 
against al-Qaeda, the prince is a key target for the terrorist group. 
Prince Nayef was responsible for overseeing the kingdom's terrorist 
rehabilitation program, and some two dozen important members of al-
Qaeda had previously surrendered to him in person. Abdullah Hassan al-
Asiri, the would-be assassin, a Saudi who had fled to Yemen, posed as a 
militant willing to surrender personally to Prince Nayef.\32\ During 
the month of Ramadan, traditionally a time of repentance in the Muslim 
world, Asiri gained an audience with the prince at his private 
residence in Jeddah, presenting himself as someone who could also 
persuade other militants to surrender. Pretending that he was reaching 
out to those militants, Asiri briefly called some members of al-Qaeda 
to tell them that he was standing by Prince Nayef. After he finished 
the call, the bomb blew up, killing Asiri but only slightly injuring 
the prince, who was a few feet away from his would-be assassin. A Saudi 
government official characterized the prince's narrow escape as a 
``miracle.''\33\ According to the official Saudi investigation, Asiri 
concealed the bomb in his underwear, which was made of PETN, the same 
plastic explosive that would be used in the Detroit case, and he 
exploded the hundred-gram device using a detonator with a chemical 
fuse, as Abdulmutallab would attempt to do on the Northwest flight. 
Prince Nayef's assassin also had had to pass through metal detectors 
before he was able to secure an audience with the prince. Shortly after 
both the failed attacks on Prince Nayef and the Northwest passenger 
jet, AQAP took credit for the operations and released photographs of 
the two bombers taken while they were in Yemen.
---------------------------------------------------------------------------
    \32\ On August 28: Peter Bergen, ``Similar explosive used in Saudi 
attack,'' CNN.com, December 27, 2009. http://www.cnn.com/2009/U.S./12/
27/bergen.terror.plot/index.html.
    \33\ Responsible for overseeing, traditionally a time or 
repentance, briefly called, only slightly injuring, a miracle: Peter 
Bergen, ``Saudi investigation: would-be assassin hid bomb in 
underwear,'' CNN.com, September 30, 2009. http://edition.cnn.com/2009/
WORLD/meast/09/30/saudi.arabia.attack/index.html.
---------------------------------------------------------------------------
    If Umar Farouk Abdulmutallab had succeeded in bringing down 
Northwest Airlines flight 253, the bombing not only would have killed 
hundreds but would also have had a large effect on the U.S. economy 
already reeling from the effect of the worst recession since the Great 
Depression, and would have devastated the critical aviation and tourism 
businesses. And if the attack had succeeded it would also have likely 
dealt a crippling blow to Obama's presidency. According to the White 
House's own review of the Christmas day plot, there was sufficient 
information known to the U.S. Government to determine that 
Abdulmutallab was likely working for al-Qaeda's affiliate in Yemen and 
that the group was looking to expand its terrorist attacks beyond the 
Arabian Peninsula.\34\ Yet the intelligence community ``did not 
increase analytic resources working'' on that threat, while information 
about the possible use of a PETN bomb by the Yemeni group was well-
known within the National security establishment, including to John 
Brennan, Obama's top counterterrorism adviser who was personally 
briefed by Prince Nayef about the assassination attempt against 
him.\35\ As Obama admitted in a meeting of his National security team a 
couple of weeks after the Christmas day plot, ``We dodged a 
bullet.''\36\
---------------------------------------------------------------------------
    \34\ White House's own review: Summary of the White House Review of 
the December 25, 2009 Attempted Terrorist Attack, p. 2. http://
www.whitehouse.gov/the-press-office/white-house-review-summary-
regarding-12252009-attempted-terrorist-attack.
    \35\ Assassination attempt: John Brennan, White House press 
conference, Washington, DC, January 7, 2010. http://www.whitehouse.gov/
the-press-office/briefing-homeland-security-secretary-napolitano-
assistant-president-counterterroris.
    \36\ Dodged a bullet: Jake Tapper, Karen Travers, and Huma Khan, 
``Obama: system failed in a `potentially disastrous way,' '' ABC News, 
January 5, 2010. http://abcnews.go.com/print?id=9484260.
---------------------------------------------------------------------------
    3. Preservation of al-Qaeda's top leaders. The two key leaders of 
the organization, bin Laden and his deputy Ayman al-Zawahiri, are still 
at liberty. Why does this matter? First, there is the matter of justice 
for the almost 3,000 people who died in the September 11 attacks and 
for the thousands of other victims of al-Qaeda's attacks around the 
world. Second, every day that bin Laden remains at liberty is a 
propaganda victory for al-Qaeda. Third, although bin Laden and his 
deputy Ayman al-Zawahiri aren't managing al-Qaeda's operations on a 
daily basis, they guide the overall direction of the jihadist movement 
around the world, even while they are in hiding through videotapes and 
audiotapes that they continue to release on a regular basis. Those 
messages from al-Qaeda's leaders have reached untold millions worldwide 
via television, the internet, and newspapers. The tapes have not only 
instructed al-Qaeda's followers to continue to kill Westerners and 
Jews, but some also carried specific instructions that militant cells 
then acted on. In March 2008, for instance, bin Laden denounced the 
publication of cartoons of the Prophet Mohammed in the Danish 
newspaper, which he said would soon be avenged. Three months later, an 
al-Qaeda suicide attacker bombed the Danish Embassy in Islamabad, 
killing six.
    4. Our overreactions can play into the hands of the jihadist 
groups. When al-Qaeda and affiliated groups can provoke a massive 
amount of overwrought media coverage based on attacks that don't even 
succeed--such as the near-miss on Christmas day 2009--we are doing 
their work for them. The person who seems to best understand the 
benefits of American overreaction is bin Laden himself, who in 2004 
said on a tape that aired on al Jazeera: All that we have to do is to 
send two mujahedeen to the furthest point east to raise a piece of 
cloth on which is written al-Qaeda, in order to make generals race 
there to cause America to suffer human, economic, and political losses 
without their achieving anything of note other than some benefits for 
their private corporations. American officials and the wider public 
should realize that by the law of averages al-Qaeda or an affiliate 
will succeed in getting some kind of attack through in the next years, 
and the best response to that would be to demonstrate that we as a 
society are resilient and are not be intimidated by such actions.
    There are five negative factors for al-Qaeda and allied groups: 1. 
Drone attacks. In 2007, there were three drone strikes in Pakistan; in 
2008, there were 34; and, by the date of this hearing on September 15, 
2010, the Obama administration has already authorized 114. Since the 
summer of 2008 U.S. drones have killed scores of lower-ranking 
militants and at least a dozen mid- and upper-level leaders within al-
Qaeda or the Taliban in Pakistan's tribal regions. One of them was Abu 
Laith Al-Libi, who orchestrated a 2007 suicide attack targeting Vice 
President Dick Cheney while he was visiting Bagram air base in 
Afghanistan. Libi was then described as the No. 3 man in the al-Qaeda 
hierarchy, perhaps the most dangerous job in the world, given that the 
half-dozen or so men who have occupied that position since 9/11 have 
ended up dead or in prison. Other leading militants killed in the drone 
strikes include Abu Haris, al-Qaeda's chief in Pakistan; Khalid Habib, 
Abu Zubair Al-Masri, and Abdullah Azzam Al-Saudi, all of whom were 
senior members of Al-Qaeda; Abu Jihad Al-Masri, al-Qaeda's propaganda 
chief; and Tahir Yuldashev, the leader of the Islamic Movement of 
Uzbekistan, an insurgent group with long ties to al-Qaeda, and 
Baitullah Mehsud, the commander of the Pakistani Taliban. None of the 
strikes, however, have targeted bin Laden.
    Officials in both the Bush and Obama administrations have been 
leery of discussing the highly classified drone program on the record, 
but a window into their thinking was provided by the remarks of then-
CIA director Michael Hayden on November 13, 2008, as the drone program 
was in full swing. ``By making a safe haven feel less safe, we keep al-
Qaeda guessing. We make them doubt their allies; question their 
methods, their plans, even their priorities.'' This strategy seems to 
have worked, at least up to a point. Since the summer of 2008 when the 
drone program was ramped up, law enforcement authorities have uncovered 
only two plots against American targets traceable back to Pakistan's 
tribal regions (the Zazi and Shahzad cases mentioned above). However, 
Western militants have continued to travel to the tribal regions where, 
by one estimate, as many as 150 Westerners have sought training in 
recent years, including 30 or so German citizens or residents. The 
drone program has certainly put additional pressure on al-Qaeda's 
propaganda arm and its top leaders. Al-Qaeda takes its propaganda 
operations seriously; bin Laden has observed that 90 percent of his 
battle is waged in the media, and Zawahiri has made similar comments. 
In 2007, al-Qaeda's video production arm As-Sahab had a banner year, 
releasing almost 100 tapes. But the year the drone program was expanded 
the number of releases dropped by half in 2008, indicating that the 
group's leaders were more concerned with survival than public 
relations. According to IntelCenter, a Washington-based group that 
tracks jihadist propaganda in 2010 Layman al Zawahiri released the 
fewest number of tapes in 7 years--only two audiotapes as opposed to 
nine audiotapes and one video in 2009--while other al-Qaeda leaders 
like bin Laden and Abu Yaha al-Libi similarly have fallen relatively 
silent this year. According to a counterterrorism official the fact 
that bin Laden and Zawahiri are saying so little is causing some 
criticism of the leaders of al-Qaeda within the organization itself. 
These critics say that it is worrisome that their leaders are saying so 
little and are not managing the organization. Some have gone so far as 
to say ``it would be helpful if the boss gave a damn,'' according to 
this counterterrorism official.
    When Faisal Shahzad travelled to Pakistan to link up with the 
Taliban in the winter of 2009 he spent a total of 40 days in the 
Taliban heartland of Waziristan but he only spent 5 days actually being 
trained, which likely accounts for his lack of skills as a bomb-maker. 
This abbreviated training schedule may have been the result of the 
pressure that the drone program is putting on militants in Pakistan's 
tribal regions, including Waziristan. The well-known fact that the 
drones have killed hundreds of militants in Pakistan's border regions 
is also having an effect on where western militants-including from the 
United States--are seeking training, some increasingly opting to go to 
Somalia and Yemen, according to a counterterrorism official.
    2. Increasingly negative Pakistani attitudes and actions against 
the militants based on their territory. If there is a silver lining to 
the militant atrocities that have plagued Pakistan in the past several 
years it is the fact that the Pakistani public, government, and 
military are increasingly seeing the jihadist militants on their 
territory in a hostile light. The Taliban's assassination of Benazir 
Bhutto, the country's most popular politician; al-Qaeda's bombing of 
the Marriott hotel in Islamabad; the attack on the visiting Sri Lankan 
cricket team in Lahore; the widely circulated video images of the 
Taliban flogging a 17-year-old girl--each of these has provoked real 
revulsion among the Pakistani public, which is, in the main, utterly 
opposed to the militants. In fact, historians will likely record the 
Taliban's decision to move earlier this year from the Swat Valley into 
Buner District, only 60 miles from Islamabad, as the tipping point that 
finally galvanized the sclerotic Pakistani state to confront the fact 
that the jihadist monster it had helped to spawn was now trying to 
swallow its creator.
    The subsequent military operation to evict the Taliban from Buner 
and Swat was not seen by the Pakistani public as the army acting on 
behalf of the United States as was often the case in previous such 
operations, but something that was in their own national interest. 
Support for Pakistani army operations against the Taliban in Swat 
increased from 28 percent 2 years ago to 69 percent today. Support for 
suicide bombing has dropped from 33 percent to 8 percent in Pakistan 
over the past several years and the number of Pakistanis who feel that 
the Taliban and al-Qaeda operating in Pakistan are a ``serious 
problem'' has risen from 57 percent to 86 percent since 2007. After 
having suffered three defeats in the tribal region of South Waziristan 
over the course of the previous 5 years, the Pakistani army went in 
there again in October 2009, this time with a force of at least thirty 
thousand troops, following several months of bombing of Taliban 
positions.\37\ These operations were done with the support of at least 
half of the Pakistani public, which did not view them as being done 
solely for the benefit of the United States, as previous military 
operations against the Taliban had generally been seen.\38\ The 
changing attitudes of the Pakistani public, military, and government 
constitutes arguably the most significant strategic shift against al-
Qaeda and its allies in the past several years as it will have a direct 
impact on the terrorist organization and allied groups that are 
headquartered in Pakistan. However, changing attitudes in Pakistan do 
not mean, for the moment, that the Pakistani military will do much to 
move against the Taliban groups on their territory that are attacking 
U.S. and other NATO forces in Afghanistan such as Mullah Omar's Quetta 
shura, the Haqqani network and Gulbuddin Hekmatyar's Hezbi-Islami.&
---------------------------------------------------------------------------
    \37\ At least 30,000 troops: Karin Bruillard, ``Pakistan launches 
full-scale offensive,'' Washington Post, October 18, 2009, http://
www.washingtonpost.com/wp-dyn/content/article/2009/10/17/
AR2009101700673.html.
    \38\ Previous military operations: For an account of those 
operations see Sameer Lalwani, ``The Pakistani military's adaptation to 
counterinsurgency in 2009,'' CTC Sentinel, January 2010, and for 
Pakistani public support of these operations see ``Military action in 
Waziristan: opinion poll,'' Gilani Poll/Gallup Pakistan, November 3, 
2009. www.gallup.com.pk/Polls/03-11-09.pdf.
---------------------------------------------------------------------------
    3. Increasingly hostile attitudes towards al-Qaeda and allied 
groups in the Muslim world in general. Hostility to militant jihadist 
groups is growing sharply in much of the Muslim world today. This is 
because most of the victims of these groups are Muslim civilians. This 
has created a dawning recognition among Muslims that the ideological 
virus that unleashed September 11 and the terrorist attacks in London 
and Madrid is the same virus now wreaking havoc in the Muslim world in 
countries like Pakistan and Iraq. It is human nature to be concerned 
mostly with threats that directly affect one's own interests and so as 
jihadi terrorists started to target the governments and civilians of 
Muslim countries this led to a hardening of attitudes against them. 
Until the terrorist attacks of May 2003 in Riyadh, for instance, the 
Saudi government was largely in denial about its large-scale al-Qaeda 
problem. There have been some 20 terrorist attacks since then in the 
Kingdom and as a result the Saudi government has taken aggressive 
steps--arresting thousands of suspected terrorists, killing more than a 
hundred, implementing an expansive public information campaign against 
them, and arresting preachers deemed to be encouraging militancy. A 
similar process has happened in Indonesia, the most populous Muslim 
country in the world, where Jemaah Islamiyah, the al-Qaeda affiliate 
there, is more or less out of business; its leaders in jail or dead, 
and its popular legitimacy close to zero. Polling around the Muslim 
world shows also sharp drops in support for Osama bin Laden personally 
and for suicide bombings in general. Support for suicide bombings has 
dropped in Indonesia, for instance, from 26 percent to 15 percent in 
the past 8 years and in Jordan from 43 percent to 20 percent.
    4. Jihadist ideologues and erstwhile militant allies have now also 
turned against al-Qaeda. It's not just Muslim publics who have turned 
against al-Qaeda; it is also some of the religious scholars and 
militants whom the organization has relied upon in the past for various 
kinds of support. Around the sixth anniversary of September 11, Sheikh 
Salman Al Awdah, a leading Saudi religious scholar, addressed al-
Qaeda's leader on MBC, a widely watched Middle East TV network: ``My 
brother Osama, how much blood has been spilt? How many innocent people, 
children, elderly, and women have been killed . . . in the name of Al-
Qaeda? Will you be happy to meet God Almighty carrying the burden of 
these hundreds of thousands or millions [of victims] on your back?'' 
What was noteworthy about Al Awdah's statement was that it was not 
simply a condemnation of terrorism, or even of September 11, but that 
it was a personal rebuke, which clerics in the Muslim world have shied 
away from. Al Awdah's rebuke was also significant because he is 
considered one of the fathers of the Sahwa, the fundamentalist 
awakening movement that swept through Saudi Arabia in the 1980s. 
Similarly, leaders of the Libyan Islamic Fighting Group, which was once 
loosely aligned with al-Qaeda, in 2009 officially turned against the 
groups' ideology of global jihad and made a peace deal with the Libyan 
government.
    5. Al-Qaeda's four key strategic problems. Encoded in the DNA of 
apocalyptic jihadist groups like al-Qaeda are the seeds of their own 
long-term destruction: Their victims are often Muslim civilians; they 
don't offer a positive vision of the future (but rather the prospect of 
Taliban-style regimes from Morocco to Indonesia); they keep expanding 
their list of enemies, including any Muslim who doesn't precisely share 
their world view; and they seem incapable of becoming politically 
successful movements because their ideology prevents them from making 
the real-world compromises that would allow them to engage in genuine 
politics. a. Al-Qaeda keeps killing Muslims civilians. This is a double 
whammy for al-Qaeda as the Koran forbids killing civilians and fellow 
Muslims. b. Al-Qaeda has not created a genuine mass political movement. 
While bin Laden enjoys some personal popularity in the Muslim world 
that does not translate into mass support for al-Qaeda in the manner 
that Hezbollah enjoys such support in Lebanon. That is not surprising--
there are no al-Qaeda social welfare services, schools, hospitals, or 
clinics. c. Al-Qaeda's leaders have constantly expanded their list of 
enemies. Al-Qaeda has said at various times that it is opposed to all 
Middle Eastern regimes; Muslims who don't share their views; the Shia; 
most Western countries; Jews and Christians; the governments of India, 
Pakistan, Afghanistan, and Russia; most news organizations; the United 
Nations; and international NGOs. It's very hard to think of a category 
of person, institution, or government that al-Qaeda does not oppose. 
Making a world of enemies is never a winning strategy. d. Al-Qaeda has 
no positive vision. We know what bin Laden is against, but what's he 
really for? If you asked him, he would say the restoration of the 
caliphate. In practice that means Taliban-style theocracies stretching 
from Indonesia to Morocco. A silent majority of Muslims don't want 
that. Al-Qaeda is, in short, losing the war of ideas in the Islamic 
world, although as Bruce Hoffman has pointed out, even terrorist groups 
with little popular support or legitimacy such as the Baader-Meinhof 
gang in 1970s Germany can continue to carry out frequent terror 
attacks.

    Chairman Thompson. Thank you very much.
    Dr. Hoffman.

 STATEMENT OF BRUCE HOFFMAN, PROFESSOR, EDMUND A. WALSH SCHOOL 
           OF FOREIGN SERVICE, GEORGETOWN UNIVERSITY

    Mr. Hoffman. Thank you, Chairman Thompson, Members of the 
committee, for the opportunity to present the findings of the 
report prepared for the National Security Preparedness Group 
titled ``Assessing the Terrorist Threat'' that I wrote with 
Peter Bergen with the invaluable assistance of Stephen Flynn.
    Before I begin, let me say that I might disagree with the 
Ranking Member and, indeed, with my dear and old friend Peter 
Bergen. If I were sitting in this chair on September 10, 2001 I 
would have testified that it was very unlikely al-Qaeda had the 
capability to attack the United States. If I had been sitting 
in this chair exactly a year ago, September 2009, I would have 
told you that I am sure a group like al-Qaeda in the Arabian 
Peninsula similarly lacked the capability to attack the United 
States. So if 34 years of studying terrorism has taught me 
anything it is, it is not a state of pessimism, but it is the 
words of that great patriot and our hero, Thomas Jefferson, 
that ``the price of freedom is eternal vigilance.''
    But let me tell you why I think the situation is one that 
is cause for concern. Last year was a watershed in terrorist 
attacks and plots in the United States with a record total of 
11 jihadi attacks, jihadi-inspired plots, or efforts by 
Americans to travel overseas to obtain terrorist training.
    They included two actual attacks at Fort Hood, Texas, which 
claimed the lives of 13 people and the shooting of two U.S. 
military recruiters in Little Rock, Arkansas; five serious but 
disrupted plots; and four incidents involving groups of 
Americans conspiring to travel abroad to receive terrorist 
training. As Peter said, according to our count in 2009 at 
least 43 American citizens or residents aligned with Sunni 
militant groups or their ideology were charged or convicted of 
terrorist crimes in the United States or elsewhere, the highest 
number in any year since 9/11. So far in 2010 20 have been 
similarly charged or convicted.
    The conventional wisdom has long been that America was 
immune to the heady currents of radicalization affecting both 
immigrant and indigenous Muslim communities elsewhere in the 
West. That has now been shattered by the succession of cases 
that have recently come to light of terrorist radicalization 
and recruitment occurring in the United States, and while it 
must be emphasized that the number of U.S. citizens and 
residents affected or influenced in this manner remains 
extremely small, at the same time the sustained and growing 
number of individuals heeding these calls is nonetheless 
alarming.
    Given this list of incidents involving homegrown radicals, 
lone wolves, and trained terrorist recruits the United States 
is arguably now little different from Europe in terms of having 
a domestic terrorist problem involving immigrants and 
indigenous Muslims as well as converts to Islam. The diversity 
of these latest foot soldiers in the wars of terrorism being 
waged against the United States underscores how much the 
terrorist threat has changed since September 11, 2001.
    In the past year alone the United States has seen affluent 
suburban Americans and the progeny of hardworking immigrants 
gravitate to terrorism. Persons of color and Caucasians have 
done so; women along with men; good students and well-educated 
individuals, and high school dropouts and jailbirds; persons 
born in the United States or variously in Afghanistan, Egypt, 
Pakistan, and Somalia; teenage boys pumped up with testosterone 
and middle-age divorcees. The only common denominator appears 
to be a newfound hatred for their native or adopted country, a 
degree of dangerous malleability, and a religious fervor 
justifying or legitimizing violence that impels these very 
impressionable and perhaps easily-influenced individuals 
towards potentially lethal acts of violence.
    Al-Qaeda and its Pakistani, Somali, and Yemeni allies 
arguably have been able now to accomplish the unthinkable--
establishing at least an embryonic terrorist recruitment, 
radicalization, and operational infrastructure in the United 
States with effects both at home and abroad. By working through 
its local allies the group has now allowed them to coopt 
American citizens in the broader al-Qaeda battlefield.
    It is fundamentally troubling, given this collection of new 
threats and new adversaries directly targeting America, that 
there remains no Federal Government agency or department 
specifically charged with identifying radicalization and 
interdicting the recruitment of U.S. citizens or residents for 
terrorism. As one senior intelligence analyst who we spoke with 
told us, ``There is no lead agency or person. There are First 
Amendment issues we are cognizant of. It is not a crime to 
radicalize, only when it turns to violence. There are groups of 
people looking at different aspects of counter-radicalization 
but it has to be integrated across agencies, across levels of 
government, public-private cooperation,'' which unfortunately 
we found it is not.
    America is thus vulnerable to a threat that is not only 
diversifying but, arguably, intensifying. Our long-held belief 
that homegrown terrorism couldn't happen here has thus created 
a situation where we are today, stumbling blindly through the 
legal, operational, and organizational minefield of countering 
terrorist radicalization and recruitment occurring in the 
United States. Moreover, rather than answers we now have a long 
list of pressing questions on this emerging threat, on our 
response, and on the capacity of the National security 
architecture we currently have in place to meet it.
    In short, the threat that the United States is facing is 
different than it was 9 years ago. It has also changed and 
evolved since the 9/11 Commission presented its report 6 long 
years ago. Today America faces a dynamic threat that is 
diversified to a broad array of attacks, from shootings to car 
bombs to simultaneous suicide attacks to attempted in-flight 
bombing of passenger aircraft.
    Thank you very much.
    [The statement of Mr. Hoffman follows:]

                  Prepared Statement of Bruce Hoffman
                           15 September 2010

    Several disquieting trends converged in New York City's fabled 
Times Square entertainment district on Saturday evening, May 1, 
2010.\1\ First, a foreign terrorist group, with a hitherto local agenda 
and otherwise parochial aims, once more stretched its wings and sought 
to operate on a broader, more ambitious global canvas. Second, the 
conventional wisdom, which has long held that the threat to the United 
States was primarily external; involving foreigners coming from 
overseas to kill Americans in this country as had occurred on September 
11, 2001, was once again shattered. Third, the belief that the American 
``melting pot''--our historical capacity to readily absorb new 
immigrants--would provide a ``fire-wall'' against radicalization and 
recruitment has fallen by the wayside. Finally, al-Qaeda and its allies 
have embraced a strategy of attrition that is deliberately designed to 
overwhelm, distract, and exhaust its adversaries.
---------------------------------------------------------------------------
    \1\ See United States Of America v. Faisal Shahzad, Defendant, Case 
1:10-mj-00928-UA Filed 4 May 2010.
---------------------------------------------------------------------------
    Thus, the Times Square incident, despite initial claims to the 
contrary, was not a ``one off'' event perpetrated by an individual 
variously described as ``isolated'' or a ``lone wolf'' but rather is 
part of an emerging pattern of terrorism that directly threatens the 
United States and presents new and even more formidable challenges to 
our National security.\2\
---------------------------------------------------------------------------
    \2\ See the statements by Homeland Security Secretary Janet 
Napolitano, `` `This Week' Transcript: McKay, Napolitano, Salazar and 
Allen,'' ABC News, 2 May 2010 accessed at: http://www.abcnews.go.com/
print?id=10532649; Denis McDonough, Chief of Staff of the National 
Security Council on ``News Hour,'' Public Broadcasting System, 5 May 
2010 accessed at: http://www.pbs.org/newshour.bb/law/jan-june10/
timessquare2_05-05.html; and, General David H. Petraeus in Yochi J. 
Dreazen and Evan Perez, ``Suspect Cites Radical Iman's Writings,'' Wall 
Street Journal, 6 May 2010. See also, Joseph Berger, ``Pakistani 
Taliban Behind Times Sq. Plot, Holder Says,'' New York Times, 9 May 
2010 accessed at: http://www.nytimes.com/2010/05/10/us/politics/
10holder.html; and, Associated Press, ``Gen. Petraeus: Times Square 
bomber acted alone,'' 7 May 2010 accessed at: http://www.google.com/
hostednews/ap/article/ALeqM5iXN8wcxfFxkTe1TWhZtNClI5XW3QD9FI85E00.
---------------------------------------------------------------------------
  LOCAL GROUPS WITH NEW GLOBAL AMBITIONS IN ALLIANCE WITH OLD ENEMIES

    This was precisely the message that Faisal Shahzad sought to convey 
when he appeared before a New York Federal District Court in June 2010. 
Declaring himself a ``holy warrior'' (mujahid) and a ``Muslim 
soldier,'' who had been deployed by the Tehrik-e-Taliban (TTP, or 
Pakistani Taliban) to wage what he called a ``war'' in the United 
States, Shahzad described himself as ``part of the answer to the U.S. 
terrorizing Muslim nations and the Muslim people.'' He further promised 
that if Washington did not cease invading Muslim lands and did not 
withdraw from Iraq, Afghanistan and other Muslim countries, still more 
attacks on the United States would follow. Americans, Shahzad 
explained, ``don't see the drones killing children in Afghanistan . . . 
[They] only care about their people, but they don't care about the 
people elsewhere in the world when they die.'' In his view, this means 
that attacks on children and innocents are both justified and should be 
expected.\3\
---------------------------------------------------------------------------
    \3\ Quotes taken from Jerry Markon, ``Guilty plea in failed Times 
Square bombing; Shahzad warns of more attacks unless U.S. leaves Muslim 
countries,'' Washington Post, 22 June 2010; Ron Scherer, ``Faisal 
Shahzad calls Times Square bomb plot `war,' pleads guilty,'' Christian 
Science Monitor (Boston), 21 June 2010; and, ``Shahzad pleads guilty to 
Times Square bombing charges,'' CNN.com, 21 June 2010.
---------------------------------------------------------------------------
    While it is perhaps tempting to dismiss Shahzad's threats as the 
irrelevant ranting of an incompetent wannabe terrorist, he and his 
likely successors present the most serious challenge to the security of 
the United States and the safety of its citizens and residents since 
the September 11, 2001, attacks. There are at least three good reasons 
for taking Shahzad at his word.
    One, Shahzad's attack may have been rushed and therefore botched, 
but that does not mean it was not deadly serious. The grand jury 
investigation into the Times Square plot revealed that the Pakistani 
Taliban--beyond any doubt a formidable terrorist force in Pakistan--
provided Shahzad with explosives and other training in Waziristan, 
Pakistan during December 2009.\4\ The training was arguably too cursory 
and too compressed in terms of instructional to provide Shahzad with 
the requisite skills needed to succeed in Times Square last May. But we 
can be certain that the terrorist movement responsible for deploying 
the next attacker to the United States will provide that person with 
the requisite training to ensure the success of that forthcoming 
attack. ``A successful Faisal Shahzad,'' a senior local law enforcement 
intelligence analyst told us, ``is our worst case scenario.''\5\
---------------------------------------------------------------------------
    \4\ United States District Court Southern District of New York, 
United States of America v. Faisal Shahzad, 17 June 2010.
    \5\ Interview with NSPG, 8 July 2010.
---------------------------------------------------------------------------
    In this respect, terrorists play the odds: thus perhaps explaining 
the seeming ``amateurish'' dimension of the Times Square plot. What 
appeared as ``amateurish'' to many Americans may thus in fact be more a 
reflection of the attack having been rushed and the perpetrator too 
hastily deployed. At a time when the capability of the Pakistani 
Taliban and al-Qaeda in Pakistan are being relentlessly degraded by 
U.S. drone attacks this make sense. Both groups may feel pressed to 
implement an operation either sooner or more precipitously than they 
might otherwise prefer. Fears of the would-be attacker being identified 
and interdicted by authorities may thus account for what appears to be 
a more compressed operational tempo and faster ``soup to nuts'' process 
by which a recruit is radicalized, trained, and operationally deployed.
    The complaint sworn against Shahzad in Federal court revealed a 
very fast 4-month process from planning to training to Times Square.\6\ 
The Pakistani Taliban as well as al-Qaeda may thus be prepared to 
accept this trade-off of shorter training periods leading to 
accelerated plots though less reliable operations in order to dispatch 
``clean skin'' recruits before they can be identified, detected, and 
stopped. For the terrorists groups behind such plots, this arguably 
represents an acceptable risk for a potentially huge return on a very 
modest investment. They will have expended little effort and energy 
training operatives like Shahzad who present them with new, attractive 
low-cost opportunities to strike in the United States.
---------------------------------------------------------------------------
    \6\ United States of America v. Faisal Shahzad, Defendant, Case 
1:10-mj-00928-UA Filed 4 May 2010.
---------------------------------------------------------------------------
    These groups may also pin their faiths and hopes on eventually 
simply getting lucky. Over a quarter of a century ago, the Irish 
Republican Army famously taunted then-Prime Minister Margaret Thatcher 
after its bombers failed to kill her at the 1984 Conservative Party 
conference in Brighton, England with the memorable words: ``Today we 
were unlucky, but remember we only have to be lucky once. You will have 
to be lucky always.''\7\ Al-Qaeda, the Pakistani Taliban and their 
allies doubtless have embraced the same logic.
---------------------------------------------------------------------------
    \7\ Quoted in Peter Taylor, Brits (London: Bloomsbury, 2001), p. 
256.
---------------------------------------------------------------------------
    Two, a Times Square-style plot is by no means an expensive 
proposition for any terrorist group to undertake. The grand jury 
indictment details how two payments totaling approximately $12,000--
roughly the same cost of the 7 July 2005 suicide attacks on London 
transport were effortlessly transferred from overseas bank accounts to 
Shahzad via locations in Massachusetts and New York State on two 
separate occasions. Given the minimal cost of orchestrating such an 
operation, foreign terrorist groups will likely continue to regard U.S. 
homeland operations as both desirable and at least financially feasible 
options. They also understand that even failed plots, such as Shahzad's 
bungled effort can still pay vast dividends in terms of publicity and 
attention. Such incidents again virtually guarantee a disproportionate 
return on a very modest investment given the febrile media coverage 
that they generate; the heightened security measures that invariably 
follow in their wake; and, the widespread fear and concern and that 
remain.
    Three, as Shahzad's own words proclaim, his attempted attack should 
not be regarded as a ``one-off'' or an isolated incident perpetrated by 
a lone individual acting on his own, but as part of a continuing effort 
by al-Qaeda and its allies to target the United States. This was made 
clear in the superseding indictment filed by the U.S. Department of 
Justice on 7 July 2010 in connection with the terrorist plot uncovered 
the previous September to attack the New York City subway. That 
indictment unambiguously details a plot directed by ``leaders of al-
Qaeda's external operations program dedicated to terrorist attacks in 
the United States and other Western countries'' and involving an 
``American-based al-Qaeda cell.'' It further describes how the plot was 
organized by three longstanding and well known senior al-Qaeda 
operatives--Saleh al-Somali, Adnan El Shukrijumah, and Rashid Rauf.\8\ 
All three are well known to al-Qaeda watchers.
---------------------------------------------------------------------------
    \8\ United States District Court Eastern District of New York, 
United States of America v. Adis Medunjanin, Abid Nasser, Adnan El 
Shukrijumah, Tariq Ur Rehman, and FNU LNU, 7 July 2010.
---------------------------------------------------------------------------
    According to the indictment, Al-Somali and Shukrijumah were 
directly responsible for recruiting Zazi, the Afghan native and former 
New York City pushcart operator turned Denver, Colorado airport 
limousine driver, as well as two of his fellow conspirators, and former 
classmates from Flushing, New York High School, Zarein Ahmedzay and 
Adis Medunjanin. While in Pakistan, Zazi, Ahmedzay, and Medunjanin 
received instruction from al-Qaeda trainers in the fabrication of 
improvised explosive devices using such commercially available 
materials as hydrogen peroxide (e.g., hair bleach), acetone, flour, and 
oil to carry out the suicide bomb attacks planned for the New York City 
subway in September 2009. Zazi pleaded guilty to his role in the New 
York subway plot last February 2010; Ahmedzay similarly pleaded guilty 
in April 23, 2010.
    It is significant that both Zazi as well as Shahzad had tribal and 
family ties in Pakistan that they used to make contact either with al-
Qaeda or the Pakistani jihadi groups. These links greatly facilitated 
their recruitment. British authorities have always regarded the high-
volume traffic between Britain and Pakistan, involving upwards of 
400,000 persons annually, as providing prime opportunities for the 
radicalization and recruitment of British citizens and residents. These 
same concerns now exist among U.S. authorities given the ease with 
which Zazi and Shahzad readily make contact with both Pakistan-based 
terrorist movements.\9\
---------------------------------------------------------------------------
    \9\ Interview with NSPG, 8 July 2010.
---------------------------------------------------------------------------
    Four, the Times Square plot marked the second time in less than 6 
months that a local group whom it was believed lacked the capability to 
operate outside its traditional battleground has struck. On Christmas 
day, a young Nigerian student named Umar Farouk Abdulmutallab, acting 
at the behest of another close al-Qaeda ally, the aforementioned al-
Qaeda in the Arabian Peninsula (AQAP), nearly succeeded in bringing 
down a Northwest Airlines flight in the skies over America. As a senior 
Obama administration official responsible for counterterrorism 
explained shortly afterward, ``AQAP was looked upon as a lethal 
organization, but one focused [only] on the Arabian Peninsula. We 
thought they would attack our embassy in Yemen or Saudi Arabia''--not 
in the skies over America.\10\
---------------------------------------------------------------------------
    \10\ Interview with NSPG, 26 January 2010.
---------------------------------------------------------------------------
    Nor should we have been surprised by the Pakistani Taliban's role 
behind the abortive Times Square attack. This was not the first 
international terrorist operation that the same group has been 
involved.\11\ In January 2008 Spanish authorities thwarted a plot 
orchestrated by the late Beitullah Mehsud, then commander of the 
Pakistani Taliban and a close confederate of al-Qaeda, to attack the 
Barcelona subway system.\12\ As Spain's leading counterterrorism 
magistrate, Judge Baltasar Garzon, had stated, ``That these people were 
ready to go into action as terrorists in Spain--that came as a 
surprise. In my opinion, the jihadi threat from Pakistan is the biggest 
emerging threat we are facing in Europe. Pakistan is an ideological and 
training hotbed for jihadists, and they are being exported here.''\13\ 
Judge Garzon could just as easily have been discussing the Times Square 
plot and the threat from Pakistani jihadis to the United States. The 
Pakistani Taliban in fact had already repeatedly threatened to attack 
in the United States in retaliation for the escalated drone attacks 
that have targeted the group's leaders.\14\ Such threats were too 
readily dismissed.
---------------------------------------------------------------------------
    \11\ See, for example, Karin Brulliard and Pamela Constable, 
``Militant factions with global aims are spreading roots throughout 
Pakistan,'' Washington Post, 10 May 2010; and, Anne E. Kornblut and 
Karin Brulliard, ``U.S. blames Pakistani Taliban for Times Square bomb 
plot,'' Washington Post, 10 May 2010.
    \12\ Jean-Pierre Perrin ``Al-Qa'ida Has Lost Its Footing: Interview 
with Jean-Pierre Filiu'', Liberation (Paris), 6 May 2010; and, Douglas 
Farah, ``Analysis of the Spanish Suicide Bombers Case,'' NEFA, 22 
February 2008.
    \13\ Quoted in Farah, ``Analysis of the Spanish Suicide Bombers 
Case''.
    \14\ See Mark Hosenball and Michael Isikoff, ``The Taliban's 
Threats,'' Newsweek (New York), 1 April 2009; Zahid Hussain and Jeremy 
Page, ``Taleban: we will launch attack on America that will amaze the 
world,'' The Times (London), 1 April 2009; and, ``Taliban leader 
Hakimullah Mehsud threats U.S. months after `death','' Daily Telegraph 
(London), 3 May 2010.
---------------------------------------------------------------------------
    The Obama administration has thus now twice been caught either 
underestimating or dismissing the possibility that local terrorist 
groups may harbour grander international aspirations--to attack in the 
United States itself as well as against American targets overseas. The 
Bush administrations similarly believed that al-Qaeda was not able to 
strike at the United States in this country before the September 11, 
2001, attacks.

              AMERICA'S NEW--AND GROWING--HOMEGROWN THREAT

    Last year was a watershed in terrorist threats and plots in the 
United States. A record eleven jihadi incidents, jihadi-inspired plots 
or efforts by Americans to travel overseas to obtain terrorist 
training, and one tragically successful attack at Fort Hood, Texas, 
that claimed the lives of 13 persons, occurred. Furthermore, last year 
at least 25 persons were indicted in the United States on terrorism 
charges \15\--another record (according to CBS News ``60 Minutes,'' the 
number is over 40).\16\ Thus far in 2010 at least as many such episodes 
have already occurred as throughout the entirety of 2009. It is 
therefore difficult to see the Times Square incident as a ``one-off'' 
or an isolated phenomenon when an average of one plot is now being 
uncovered per month in the past 18 months--and perhaps even more are 
being hatched that we don't yet know about.
---------------------------------------------------------------------------
    \15\ Interview with NSPG, 20 July 2010.
    \16\ Steve Kroft, ``Homegrown Terror,'' 60 Minutes, CBS News, 9 May 
2010 accessed at: http://www.cbsnews.com/video/watch/
?id=6470178n&tag=contentMain;cbsCarousel.
---------------------------------------------------------------------------
    By any metric, this is an unprecedented development. While many of 
the incidents involved clueless incompetents engaged in half-baked 
conspiracies, as previously noted, some of the plans alarmingly 
evidenced the influence of an identifiable terrorist command-and-
control apparatus.
    We thus see a spectrum of adversaries today arrayed against the 
United States. At the low end, they include individuals simply 
inspired, motivated, and animated to engage in terrorist attacks 
completely on their own--such as the plot by four prison parolees and 
Muslim converts to bomb two synagogues in New York City and an upstate 
Air National Guard base; the attempt by a Jordanian national who 
overstayed his visa to bomb a Dallas office building; or a similarly 
far-fetched plan by another Muslim convert to bomb a Federal courthouse 
in Springfield, Illinois. But in other instances, as we have seen, 
terrorist groups either actively recruited individuals in the United 
States, deliberately motivated others to carry out terrorist attacks on 
U.S. soil or directed trained operatives in the execution of 
coordinated strikes against American targets within our borders.
    These network-linked incidents are especially worrying. Think of 
Zazi and his al-Qaeda-directed plans to stage a ``Mumbai on the 
Hudson''-like suicide terrorist attack on, among other targets, the New 
York City subway; the aforementioned shooting last June outside a 
military-recruiting station in Little Rock that killed one recruiter 
and wounded another by a self-professed AQAP operative; and the 
November 2009 massacre at Fort Hood that claimed the lives of 13 
people. Both shooters--Abdulhakim Muhammad and Major Nidal Hasan--were 
connected with this same local franchise of Osama bin Laden's al-Qaeda 
movement that was also responsible for the Christmas day bomb plot. And 
the American-born firebrand cleric Anwar al-Awlaki, now a key AQAP 
operative, was involved in the radicalization of Abdulmutallab, Major 
Hasan, Shahzad and several others persons arrested in locales as 
diverse as England, the United States, and mostly recently 
Singapore.\17\
---------------------------------------------------------------------------
    \17\ See Nur Dianah Suhami, ``Local Muslim preachers need to 
modernize ways,'' Straits Times (Singapore), 31 July 2010; and Rachel 
Lin, ``Twisted teachings, twisted logic,'' Straits Times (Singapore), 
31 July 2010.
---------------------------------------------------------------------------
    It is hard to be complacent when al-Qaeda and its Pakistani, 
Somali, and Yemeni allies arguably have been able to accomplish the 
unthinkable--establishing at least an embryonic terrorist recruitment, 
radicalization, and operational infrastructure in the United States 
with effects both at home and abroad. Al-Qaeda's grasp thus is deep and 
wide. And, by working through its local allies, it has now allowed them 
to co-opt American citizens in the broader global al-Qaeda battlefield.
    These accomplishments include the radicalization and recruitment by 
al Shabaab (``The Youth''), the Somali ally of al-Qaeda's, of nearly 30 
young Somali Americans from Minnesota who were dispatched for training 
in their mother country and five young Muslim Americans from 
Alexandria, Virginia, who sought to fight alongside the Taliban and al-
Qaeda and were arrested in Pakistan. Additional incidents involved the 
aforementioned sleeper agent, the Pakistan-born U.S. citizen named 
David Headley (who changed his name from Daood Sayed Gilani) whose 
reconnaissance efforts on behalf of Lashkar-e-Taiba, a long-standing 
al-Qaeda ally, were pivotal to the success of the November 2008 suicide 
assault in India; and both Bryant Neal Vinas and Abu Yahya Mujahdeen 
al-Adam, two American citizens arrested during the past year in 
Pakistan for their links to al-Qaeda. While it is easier to dismiss the 
threat posed by wannabes who are often effortlessly entrapped and 
snared by the authorities, or to discount as aberrations the homicides 
inflicted by lone individuals, these incidents evidenced the activities 
of trained terrorist operatives who are part of an identifiable 
organizational command-and-control structure and are acting on orders 
from terrorist leaders abroad.

                  THE AMERICAN ``MELTING POT'' THEORY

    The wishful thinking that the American ``melting pot'' theory 
provided a ``fire wall'' against the radicalization and recruitment of 
American citizens and residents, arguably lulled us into a sense of 
complacency that home-grown terrorism couldn't happen in the United 
States. The British similarly believed before the 7 July 2005 London 
suicide attacks that there was perhaps a problem with the Muslim 
communities in Europe but certainly not with British Muslims in the 
United Kingdom who were better integrated, better educated, and 
wealthier than their counterparts on the continent.
    By stubbornly wrapping ourselves in this same false security 
blanket we lost 5 years to learn from the British experience. Well over 
a year ago we became aware of radicalization and recruitment occurring 
in the United States when Somali-Americans started disappearing from 
the Minneapolis-St Paul, Minnesota area and turning up in Somalia with 
an al-Qaeda affiliate, al Shabab (``the youth'').
    The case of the Somali-Americans thus turned out to be a Pandora's 
Box. And by not taking the threat of radicalization and recruitment 
actually occurring in the United States both sooner and more seriously 
we failed to comprehend that this was not an isolated phenomenon, 
specific to Minnesota and this particular immigrant community, but that 
it indicated the possibility that even an embryonic terrorist 
radicalization and recruitment infrastructure had been established in 
the United States. Shahzad accordingly is the latest person to jump out 
of this box.

                       AL STRATEGY'S OF ATTRITION

    In assessing the proliferation of terrorist threats to the American 
homeland, senior U.S. counterterrorism officials now repeatedly call 
attention to al-Qaeda's strategy of ``diversification''--mounting 
attacks involving a wide variety of perpetrators of varying 
nationalities and ethnic heritages to defeat any attempt to ``profile'' 
actual and would-be perpetrators and overwhelm already information-
overloaded law enforcement and intelligence agencies. ``Diversity,'' 
one senior local police intelligence analyst opined, ``is definitely 
the word.''\18\ Similarly, in a 30 June 2010 interview at the Aspen 
Security Forum, Michael E Leiter, Director, National Counterterrorism 
Center (NCTC) also identified this trend. ``[W]hat we have seen, which 
is I think most problematic to me and most difficult for the 
counterterrorism community,'' he explained,
---------------------------------------------------------------------------
    \18\ Interview with NSPG, 8 July 2010.

``is a diversification of that threat. We not only face Al-Qaeda senior 
leadership, we do face a troubling alignment of Al-Qaeda and some more 
traditional Pakistani militant groups in Pakistan, and is as well known 
to this group and most Americans, the threat of Abdulmutallab that has 
highlighted the threat we see from Al-Qaeda in Yemen, the ongoing 
threat we see from Al-Qaeda elements in East Africa.''\19\
---------------------------------------------------------------------------
    \19\ Aspen Security Forum 2010 ``Counterterrorism Strategy with the 
Hon. Michael E Leiter, Director, National Counterterrorism Center,'' 30 
June 2010.

    This is part and parcel of an al-Qaeda strategy that it also has 
pushed on other groups. It is a strategy that is deliberately designed 
to overwhelm, distract, and exhaust al-Qaeda's adversaries. There are 
two components: One economic and the other operational. In terms of the 
economic dimension, al-Qaeda has never claimed it could or would defeat 
U.S. militarily. Instead, it plans to wear us down economically by 
forcing the United States to spend more on domestic security and remain 
involved in costly overseas military commitments. Given the current 
global economic downtown, this message arguably has greater resonance 
now with al-Qaeda's followers and supporters and perhaps even with new 
recruits. The operational dimension seeks to flood already stressed 
intelligence and law enforcement with ``noise'': low-level threats from 
``lone wolves'' and other jihadi ``hangers on''--e.g., the ``low 
hanging fruit'' who are designed to consume the attention of law 
enforcement and intelligence in hopes that this distraction will permit 
more serious terrorist operations to go unnoticed and thereby sneak 
``beneath the radar'' and succeed.\20\
---------------------------------------------------------------------------
    \20\ In recent years, writings as diverse as the 1,600-page 
treatise of Mustafa bin Abd al-Qadir Setmariam Nasar (writing under the 
pseudonyms of either Abu Mus'ab al-Suri or Umar Abd al-Hakim) titled 
The Call to Global Islamic Resistance and Anwar al-Awlaki's ``44 Ways 
to Support Jihad'' have forcefully explicated this strategy, amplifying 
and building on the similar call to arms in this respect first issued 
by Ayman al-Zawahiri in Knights Under the Prophet's Banner nearly 9 
years ago.
---------------------------------------------------------------------------
                               CONCLUSION

    It is troubling given this concatenation of new threats and new 
adversaries directing targeting the United States that there remains no 
Federal Government agency or department specifically charged with 
identifying radicalization and interdicting recruitment of U.S. 
citizens or residents for terrorism. As one senior intelligence analyst 
lamented, ``There's no lead agency or person. There are First Amendment 
[Constitutional] issues we're cognizant of. It's not a crime to 
radicalize, only when it turns to violence. There are groups of people 
looking at different aspects of counter-radicalization. [But it] has to 
be integrated across agencies, across levels of government, public-
private cooperation''\21\ which, unfortunately, it is not. America is 
thus vulnerable to a threat that is not only diversifying, but arguably 
intensifying.
---------------------------------------------------------------------------
    \21\ Interview with NSPG, 8 July 2010.
---------------------------------------------------------------------------
    Our fervent belief that homegrown terrorism couldn't happen here 
has thus created a situation where we are today stumbling blindly 
through the legal, operational, and organizational minefield of 
countering terrorist radicalization and recruitment occurring in the 
United States. Moreover, rather than answers, we now have an almost-
endless list of pressing questions on this emerging threat, on our 
response and on the capacity of the National security architecture we 
currently have in place to meet it.
    On the threat. What do we do when the terrorists are like us? When 
they conform to the archetypal American immigrant success story? When 
they are American citizens or U.S. residents? When they are not perhaps 
from the Middle East or South Asia and in fact have familiar-sounding 
names? Or, when they are ``petite, blue-eyed, blonde'' suburban 
housewives who, as Colleen La Rose the infamous JihadJane boasted, 
``can easily blend in''?\22\
---------------------------------------------------------------------------
    \22\ Quoted in Carrie Johnson, ``JihadJane, an American woman, 
faces terrorism charges,'' Washington Post, 10 March 2010.
---------------------------------------------------------------------------
    On our response. Who in fact is responsible in the U.S. Government 
to identify radicalization when it is occurring and then interdict 
attempts at recruitment? Is this best done by Federal law enforcement 
(e.g., the Federal Bureau of Investigation) or State and local 
jurisdictions working closely with Federal authorities? Is it a core 
mission for a modernized, post-9/11, FBI? Or for the Department of 
Homeland Security (DHS)? Can it be done by the National 
Counterterrorism Center (NCTC), even though it has only a coordinating 
function and relies on other agencies for intelligence collections, 
analysis, and operations? What is the role of State and local law 
enforcement? What is the role of the Office of the Director of National 
Intelligence (ODNI) in homegrown terrorism and recruitment and 
radicalization? Will coming to grips with these challenges be the remit 
of the next FBI Director given the incumbent's impending retirement?
    On our current National security architecture. Despite the reforms 
adopted from the 9/11 Commission's report and recommendations and the 
2004 Intelligence Reform and Terrorism Prevention Act, have terrorists 
nonetheless discovered our Achilles Heel in that we currently have no 
strategy to counter this type of threat from home-grown terrorists and 
other radicalized recruits? Did ``the system really work,'' as we are 
repeatedly told? Or was a lot of luck involved because of the plot's 
rushed nature? And finally, can we deter al-Qaeda and its affiliates 
and associates from attacking in the United States? If even a ``hard 
target'' like New York City continually attracts terrorist attention, 
what does this tell us about vulnerabilities elsewhere in the country?
    The conventional wisdom has long been that America was immune to 
the heady currents of radicalization affecting both immigrant and 
indigenous Muslim communities elsewhere in the West.\23\ That has now 
been shattered by the succession of cases that have recently come to 
light of terrorist radicalization and recruitment occurring in the 
United States. And while it must be emphasized that the number of U.S. 
citizens and residents affected or influenced in this manner remains 
extremely small, at the same time the sustained and growing number of 
individuals heeding these calls is nonetheless alarming.
---------------------------------------------------------------------------
    \23\ See for example ``America's Muslims after 9/11,'' VOANews.com, 
10 September 2006 accessed at: http://www1.voanews.com/english/news/
news-analysis/a-13-Muslims2006-09-10-voa17.html; ``Overview of Muslims 
in America,'' PBS series, ``The Muslims in America,'' accessed at: 
http://www.pbs.org/weta/crossroads/about/
show_muslim_americans.html#top; and, ``Pew Study Sees Muslim Americans 
Assimilating,'' Barbara Bradley Hagerty, National Public Radio, ``All 
Things Considered,'' 22 May 2007 accessed at: http://www.npr.org/
templates/story/story.php?storyId=10330400 121 Department of Justice, 
``Umar Farouk Abdulmutallab Indicted for Attempted Bombing of Flight 
253 on Christmas Day,'' January 6, 2010, http://detroit.fbi.gov/
dojpressrel/pressrel10/de010610.htm.
---------------------------------------------------------------------------
    Given this list of incidents involving homegrown radicals, lone 
wolves, and trained terrorist recruits, the United States is arguably 
now little different from Europe in terms of having a domestic 
terrorist problem involving immigrant and indigenous Muslims as well as 
converts to Islam.
    The diversity of these latest foot soldiers in the wars of 
terrorism being waged against the United States underscores how much 
the terrorist threat has changed since the September 11, 2001, attacks. 
In the past year alone the United States has seen affluent suburban 
Americans and the progeny of hard-working immigrants gravitate to 
terrorism. Persons of color and Caucasians have done so. Women along 
with men. Good students and well-educated individuals and high school 
dropouts and jailbirds. Persons born in the United States or variously 
in Afghanistan, Egypt, Pakistan, and Somalia. Teenage boys pumped up 
with testosterone and middle-aged divorcees. The only common 
denominator appears to be a newfound hatred for their native or adopted 
country, a degree of dangerous malleability, and a religious fervor 
justifying or legitimizing violence that impels these very 
impressionable and perhaps easily influenced individuals toward 
potentially lethal acts of violence.
    The diversity of this array of recent terrorist recruits presents 
new challenges for intelligence and law enforcement agencies, already 
over-stressed and inundated with information and leads, to run these 
new threats to ground. There seems no longer any clear profile of a 
terrorist. Moreover, the means through which many of these persons were 
radicalized--over the internet--suggests that these days you can aspire 
to become a terrorist in the comfort of your own bedroom.
    The threat that the United States is facing is different than it 
was 9 years ago. It has also changed and evolved since the 9/11 
Commission presented its report 6 long years ago. Today, America faces 
a dynamic threat that has diversified to a broad array of attacks, from 
shootings to car bombs to simultaneous suicide attacks to attempted in- 
flight bombings of passenger aircraft.

    Chairman Thompson. Thank you very much.
    Dr. Flynn.

 STATEMENT OF STEPHEN E. FLYNN, PRESIDENT, CENTER FOR NATIONAL 
                             POLICY

    Mr. Flynn. Thank you, Chairman Thompson. I am honored to be 
before here today, and I believe my job is to highlight the 
implications of this assessment for the mission of this 
committee, that is the homeland security mission.
    I think there are three key findings that are quite 
sobering and important for that mission. The first is that the 
frequency of less-sophisticated terrorist attacks on U.S. 
homeland is likely to grow. The second is, these kinds of 
attacks are extremely difficult to prevent. The third, this 
trend reflects a change in al-Qaeda's tactics that arises from 
their conviction that any terrorist attack on U.S. soil, even a 
near miss, will generate a disproportionate political response 
that will contribute to their strategic objective, which is to 
sap the economic strength of the United States.
    In short, al-Qaeda and its affiliates are shifting to a war 
of attrition rather than concentrating their limited 
capabilities on organizing and executing catastrophic attacks 
on the scale of what was carried out on September 11. What that 
really means, though, is that fundamentally our strategy needs 
to adapt in a way that it has not. Succinctly stated, our 
overarching effort since September 11 has largely been an away 
game, to take the battle overseas, to rely on our National 
security and intelligence community assets to try to deal with 
the terrorist threats beyond our shores. So, as President--
former President Bush and Vice President Cheney often said, so 
we wouldn't have to fight them here.
    Well, as this document makes clear, they are here. When we 
are talking about less-sophisticated attacks they are not the 
ones that basically have the level of trip wires that our tools 
of National security intelligence have been geared to catch. So 
what this almost certainly means is that we will be seeing 
successful attacks on U.S. soil in the near- to medium-term.
    Good news, as Peter highlighted at the outset, is they are 
not likely to be of this catastrophic scale that we saw on 
September 11, but the fact is we will increasingly see acts of 
terror on U.S. soil. Now, what that really highlights is the 
fact that the new front lines are the streets of Bridgeport, 
Denver, Minneapolis, and other big and small communities across 
America, and it is the local cops on the beat and increasingly 
the American public at large who must be better-informed and 
empowered to deal with this terrorism threat.
    This committee is very well aware that we still have a lot 
of issues with sharing information at the local level, and we 
also have not done what we should have been doing since 9/11 to 
engage the American public. Very soberingly, when we looked at 
the May 2010 bombing attempt in Times Square it was the 
sidewalk t-shirt vendor--not the NYPD patrolman literally at 
the opposite street corner on 42nd and Broadway--that spotted 
the act in its making.
    We saw, of course, on the Christmas day bomber, and it was 
the passengers aboard the airline that actually wrestled the 
terrorist to the--ended up deflecting that attempt. Succinctly 
stated, the changing nature of the threat makes it critical 
that the Federal Government better engage local public safety 
agencies and everyday people.
    The other key point I would like to highlight for us is 
that since these acts of terror cannot always be prevented and 
because they are being motivated in no small part by a judgment 
by al-Qaeda and its affiliates that we will react or overreact 
in ways that are beneficial for them, it highlights the need 
for resilience as a part of our strategy going forward. That 
is, we as a society must be better able to withstand and 
rapidly recover from attacks not as an act of defeatism but as 
a way which we, as citizens, can provide a preventative quality 
to acts of terror by essentially taking away the motivation for 
this kind of attack.
    So let me conclude with a couple of recommendations to that 
regard. One is, I think we need a more frank acknowledgement by 
leaders of both sides of the aisle saying to the American 
people the reality: Terrorism is here to stay and it is 
something that we cannot always prevent and we need you, 
American people's, help in dealing with this going forward.
    Second, we have to be extremely careful of not allowing 
acts of terror, when they happen, to essentially take advantage 
of our 24-hour news cycle and the almost certain overwrought 
media coverage that comes with that to essentially fan a sense 
of anxiety without a whole lot of information flowing from it. 
This is going to take a commitment by political leaders, again, 
of both parties to studiously avoid making public comment which 
might elevate public anxiety in the aftermath of terrorist 
attacks until we get the facts straight so we are not feeding 
and fueling the very threat.
    So in closing, let me cite, I think, which is a key finding 
of this assessment--9 years after September 11 attacks on New 
York and Washington the changing nature of the terrorist threat 
makes clear we must be willing to reexamine many of our 
counterterrorism assumptions and approaches. Only then can we 
succeed at maintaining the upper hand in the face of an 
adversary who continues to demonstrate the ability to learn and 
adapt.
    Thank you very much, Mr. Chairman.
    [The statement of Mr. Flynn follows:]

                 Prepared Statement of Stephen E. Flynn
                           September 15, 2010

    Chairman Thompson, Ranking Member King, and distinguished Members 
of the Committee on Homeland Security. I am honored to have this 
opportunity to testify alongside my National Security Preparedness 
Group colleagues, Bruce Hoffman and Peter Bergen. Bruce and Peter are 
two of the top terrorism experts in the world and they have written an 
outstanding report that provides a timely and comprehensive update of 
the terrorism threat, 9 years after the attacks on New York and 
Washington. I have been asked to provide my assessment on what the 
implications of this threat analysis are for homeland security.
    In my view, there are five findings that should command the 
attention of this committee. First, the incidence of radicalization and 
recruitment on U.S. soil is on the rise. Second, that the Americans 
that are attaching themselves to al-Qaeda and aligned groups do not fit 
any particular ethnic, economic, educational, or social profile. Third, 
the frequency of less-sophisticated terrorist attacks on the U.S. 
homeland is likely to grow. Fourth, these kinds of attacks are 
extremely difficult to prevent. And fifth, this trend reflects a change 
in al Qaeda's tactics that arises from their conviction that any 
terrorist attack on U.S. soil, even a near-miss, will generate a 
disproportionate political response that will contribute to their 
strategic objective of sapping the economic strength of the United 
States. In short, al-Qaeda and its affiliates are shifting to a war of 
attrition rather than concentrating their limited capabilities on 
organizing and executing catastrophic attacks on the scale of what they 
carried out on September 11, 2001.
    This shift in threat has serious implications for how the United 
States has been prosecuting the war on terrorism. I need not remind 
this committee that the overarching emphasis of America's 
counterterrorism efforts since 9/11 can be summed up as waging an 
``away game.'' Former-President George W. Bush often expressed it this 
way, ``We fight the terrorists overseas so that we don't have to fight 
them here at home.'' Former-Vice President Richard Cheney went further, 
arguing that, ``Wars are not won on the defensive. To fully and finally 
remove this danger (of terrorism), we have only one option--and that's 
to take the fight to the enemy.'' The Obama administration has 
continued this emphasis on overseas operations.
    Arguably the strategy of combating terrorism abroad has resulted in 
an important and constructive outcome that is noted in the NSPG report: 
It has put al-Qaeda central on the defensive and has eroded its 
capacity to carry out large-scale attacks using weapons of mass 
destruction. However, the Nation's post-9/11 strategy has not 
anticipated and adapted to the change in tactics that this outcome has 
helped to spawn. Succinctly stated, the homeland security enterprise is 
currently not up to task of dealing with the terrorism threat we face 
today.
    The senior intelligence, law enforcement, and homeland security 
officials with whom we met over the past year acknowledged to us that 
their counterterrorism efforts are basically calibrated for dealing 
with sophisticated attacks with an international dimension that require 
significant organizational and logistical support. Attacks that seek to 
achieve catastrophic loss of life and/or mass disruption cannot be 
carried off by a zealous suicide bomber, operating on his or her own. 
Generally, there needs to be a cell of several terrorists with clearly 
assigned roles for which each operative has been carefully trained. The 
cell periodically will need to communicate with remote leaders who are 
providing financing and guidance to the operation. Potential targets 
must be scouted out in advance and typically attacks are rehearsed 
before being executed. All this takes time, money, and qualified 
people. In short, the more ambitious the attack, the greater are the 
opportunities for detection and interception by intelligence and 
Federal law enforcement officials. Less sophisticated attacks on the 
other hand, particularly those being conducted by homegrown operatives 
and lone wolves are almost impossible to prevent because their 
organizational and logistical footprint is so small.
    Let's be clear about just where things stand today. Quite simply, 
the National security, intelligence, and even the Federal law 
enforcement communities are not able to serve as our first line of 
defense. When terrorists are homegrown, it is the streets of 
Bridgeport, Denver, Minneapolis, and other big and small communities 
across America that become the frontlines. That translates into local 
cops on the beat and increasingly the American public at large who must 
be better informed and empowered to deal with the terrorism threat.
    Of course, the importance of better engaging the broader American 
society to help deal with the threat of terrorism is a lesson we should 
have learned long again. As we mark the ninth anniversary of the 
September 11 attacks, we should once again reflect on the sobering fact 
that the only successful counterterrorism action against al-Qaeda's 
attacks on that tragic day was undertaken not by our armed forces or 
Federal law enforcement agents, but by the passengers aboard United 93. 
By charging the cockpit and preventing al-Qaeda from striking the U.S. 
Capitol, they ended up protecting the lives of many Members of Congress 
and others who were here on that September day in 2001.
    Especially in light of the terrorism risk we are facing today, we 
should be troubled by the fact that the brave Americans flying aboard 
United 93 had to learn via their cell phones to friends and loved ones 
what many inside the U.S. Government knew but failed to share with even 
one another--that al-Qaeda was contemplating using airliners like 
cruise missiles. There is no way for us to know what the passengers 
aboard the first three planes that struck the twin towers and the 
Pentagon would have done if they had been provided that threat 
information. What we do know is that the protocol for passengers up 
until 9/11 was to stay quietly in their seats and wait until the plane 
had landed for the professionals to negotiate with the hijackers. In 
other words, the people aboard American . . . were deprived of the 
opportunity to take the kinds of measures the people aboard United 93 
took to try and protect themselves and al-Qaeda's intended targets.
    Yet we continue to leave the American public largely on the 
sidelines despite even the events of this past year. In the May 2010 
bombing attempt on Times Square it was a sidewalk T-shirt vendor, not 
the NYPD patrolman sitting in a squad car directly across the street, 
who sounded the alarm about Faisal Shahzad's explosive-laded SUV. 
Shahzad was not on any Federal or NYPD database that identified him as 
a suspected terrorist. On Christmas day 2009, it was not a Federal air 
marshal, but the courageous actions of the passengers and flight crew 
aboard Northwest Flight 563 that helped disrupt the attack once it was 
underway.&
    In short, the changing nature of the threat reinforces further the 
imperative for the Federal Government to better inform and engage local 
public safety agencies and everyday Americans in helping to detect and 
preventing terrorist activities. Unfortunately, as this committee is 
well aware, there still remain serious issues with sharing information 
and providing quality counterterrorism training to local police. And we 
have a very long ways to go when it comes to engaging the American 
public.
    But the changing nature of the terrorist threat highlights another 
important area which has been explicitly recognized in the new White 
House National Security Strategy, but for which far more attention 
needs to be devoted: our resilience as a society when terrorist events 
occur. Again, one of the primary motivations for terrorist groups to 
embrace less-sophisticated attacks is their growing confidence that 
these attacks will generate a big-bang for a small buck. Specifically, 
they are counting on even small-scale attacks that produce few 
casualties and modest destruction to generate fear, political 
recriminations, and a rush to put in place expensive and disruptive 
safeguards. If how we react--or more precisely, when we overreact--
elevates the appeal of carrying out these attacks on U.S. soil, it 
follows that there is an element of deterrence by denying these 
terrorist groups the return on investment they hope to receive.
    As a stepping-off point, it is important for senior Federal 
officials and responsible elected leaders of both parties to follow 
Secretary Janet Napolitano's lead in frankly acknowledging to the 
American people that it is simply impossible to prevent all acts of 
terrorism on U.S. soil. This is not an act of resignation or defeatism, 
but a mature recognition of the inherent limits of our National 
security, intelligence, and Federal law enforcement tools to detect and 
stop attacks by U.S. citizens or residents that originate within the 
United States. Further, by investing in better preparing for, 
responding to, and rapidly recovering from attacks when they occur, we 
end up communicating to terrorists groups that Americans will not be 
cowed by their attacks.
    It is also important that elected officials not inadvertently play 
into efforts by terrorists to exploit political fissures within our 
society. The 24-hour news cycle practically guarantees the kind of 
overwrought media coverage that terrorist groups are counting upon for 
amplifying the value of small-scale attacks. Therefore there should be 
an explicit commitment by political leaders in both parties to 
studiously avoid making any public comment which might elevate public 
anxiety in the aftermath of terrorist events.
    In closing my testimony, let me simply endorse the conclusion of 
the NSPC terrorist assessment:

``When we demonstrate an unwillingness to inflict damage on our way of 
life in the face of terrorism, terrorism becomes a less attractive 
weapon for our adversaries to confront the United States. When Federal 
agencies work well with each other and their counterparts at the State 
and local levels and reach out to the everyday Americans, we will be 
far better able to detect and prevent future attacks. In short, 9 years 
after the September 11, 2001 attacks on New York and Washington, the 
changing nature of the terrorist threat makes clear that we must be 
willing to reexamine many of our counterterrorism assumptions and 
approaches. Only then can we succeed at maintaining the upper hand in 
the face of an adversary who continues to demonstrate the ability to 
learn and adapt.''

    Chairman Thompson and Ranking Member King, I thank you for this 
opportunity to testify today and look forward to responding to any 
questions that you might have.

    Chairman Thompson. Thank you very much.
    I thank the witnesses for their testimony. I will remind 
each Member that he or she will have 5 minutes to question the 
panel. I now will recognize myself for questions.
    Again, let me thank two of you gentlemen for the report, 
but also Dr. Flynn for your response. One of the issues, as you 
know, we are grappling with is this notion that somehow 
radicalization occurs here in the United States is more a 
threat to the homeland than previous threats or individuals 
trying to come.
    Now, from your report it appears that there is no one size 
that fits all kind of potential terrorist. What can you offer 
this committee as to how we should put something in place to 
address the emerging homegrown terrorist?
    One of the things is intelligence-gathering matrix that is 
kind of a hodgepodge of groups. Your comments talked about we 
don't have a specific entity to address it, and while we have 
been fortunate it is still catching up after the fact with 
those agencies.
    If you see the intelligence-gathering as a problem in this 
I would like for you to comment on this also.
    Mr. Bergen, if you want to----
    Mr. Bergen. Chairman Thompson, I think that I would just 
offer two things that we shouldn't do. One of the conclusions 
of the report is there is no real ethnic profile here, so 
profiling is not a particularly helpful approach.
    Another thing I think we have to be quite careful of, 
learning from the British experience, if the only--if you 
securitize the relationship with the Muslim community so it is 
basically a police function entirely the Muslim community may 
well, you know, not be very happy about that and see that as 
sort of an intelligence-gathering exercise, so we have to be--
as you pointed out, there doesn't seem to be any entity that is 
really responsible for this.
    Obviously local police do have some role to play, but it 
can't just be local police. The relationship with the Muslim 
community can't be just a law enforcement relationship, and who 
that person or who that entity should be I am not really sure. 
Is that DHS? That is something, I think, that is up for 
discussion.
    Chairman Thompson. Well, I think one of the issues, Dr. 
Hoffman, if you would, is so many times it is the State and 
local entity that confronts the homegrown issue before the 
Federal entity, and to some degree there has to be a 
relationship, and we are not certain how that operates. But a 
homegrown situation probably will develop and get identified 
with State and local officials probably in a better sense than 
a Federal, but the perception is that terrorism is a Federal 
issue, and so somehow we need to connect the dots, and if you 
could kind of help the committee with that?
    Mr. Hoffman. Well, sir, as you well know, your efforts to 
enact the LEAP measures, the Law Enforcement Assistance 
Program, would have made an invaluable step forward in this 
process. I think the report reveals two important dimensions: 
No. 1, we are not necessarily saying that the Federal 
Government is asleep at the switch on this issue and we are not 
arguing that nothing is being done in this respect.
    I think our main criticism, or the main finding we perhaps 
identified is that it is not as coordinated as it should be and 
there doesn't seem to be any one agency or entity taking the 
lead on this and fashioning a strategy that would reach out to 
the community and that, as you just described, would also 
empower State and local law enforcements.
    The second point that we illuminate in the study is that 
the threat is becoming more diverse, and unfortunately we see 
it as one that is growing, at least over the past 2 years. It 
is beyond the capability of the Federal authority to know, you 
know, every plot everywhere in the United States. I think logic 
dictates that we have to better train and education law and--
local and State law enforcement to be part of this process.
    Now again, I think in snatches and snippets this is being 
done and this is an important priority that is recognized, but 
I don't think it has received the systemic and systematic 
attention that it requires as part of an overall strategy, and 
that the bits and pieces that I think do represent great 
progress over the past 9 years--our argument would be that 
they're stillborn. There needs to be greater coordination and, 
indeed, greater recognition of the roles of State and local 
authorities and jurisdictions.
    Chairman Thompson. Dr. Flynn.
    Mr. Flynn. I would just really like to reinforce Dr. 
Hoffman's recommendation. We really have to get the training 
and education pushed down to local law enforcement as a much 
more serious and concerted effort. It has got to be high-
quality training.
    The second piece, though, I think is very important, and 
this is the least-sexiest problem but it is probably one of the 
most important, and that is the tendency to overclassify 
information, making it very difficult to get it to where it 
needs to go. So what we have when we have information at the 
very highest level under very strict rules of secrecy it makes 
it almost impossible to get it to the people on the front 
lines, and we really--the United Kingdom has made a very 
concerted effort from the top down saying the threat warrants 
us getting more information out; we need to look with far 
more--err on the side of sharing information than on 
controlling information. This is a big change from the Cold War 
mindset where we kept it all close to the chest to one where we 
need to go today.
    Chairman Thompson. Thank you. They had overclassification 
come up in a number of instances, as you know.
    I now yield 5 minutes to the Ranking Member, the next to 
the Ranking Member, Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman. I would also thank Mr. 
Lungren for yielding as well.
    Dr. Hoffman, I have a couple of questions for you. The 
first is, according to your report you suggest that another 
attack on the level of 9/11 is not likely, but I would like to 
ask you whether you think attacks on a lesser of a scale are 
more likely or less likely.
    Mr. Hoffman. Well, certainly the pattern of the plots that 
we have unmasked over the past several years suggests that 
lower-level attacks but nonetheless highly consequential ones 
that would claim lives--perhaps not on the magnitude of----
    Mr. Smith. That is my question. Are they more likely or 
less likely?
    Mr. Hoffman. More likely, sir.
    Mr. Smith. Okay. Thank you. That is not happy news but that 
is what I suspected.
    That goes to my next question, and this is a quote from 
you, I believe, in the report: ``It is troubling that there 
remains no Federal Government agency or department specifically 
charged with identifying radicalization and interdicting 
recruitment of U.S. citizens or residents for terrorism.'' We 
clearly should have done that, particularly considering the 
threat that you just mentioned of sort of the lower-level but 
nevertheless traumatic and terrifying type of attack.
    What agency should have been responsible for taking that 
initiative? Should it have been the Department of Homeland 
Security or another agency?
    Mr. Hoffman. I don't know the answer to that. I think one 
of the problems is that each of these agencies that have a 
counterterrorism mission brings both strengths and weaknesses 
to the table.
    I think first and foremost there has to be greater 
coordination and some overall strategy clearly directed from 
the White House. Rather than creating a new agency or rather 
than tasking one agency it is a question more of coordination.
    Mr. Smith. Speaking of the White House, should the White 
House have taken the initiative on setting up that kind of a 
structure?
    Mr. Hoffman. My personal opinion, and indeed testimony that 
I have offered before the subcommittee----
    Mr. Smith. Yes.
    Mr. Hoffman [continuing]. In this room, yes.
    Mr. Smith. Okay. Thank you.
    Last question is this: The 9/11 Commission recommended a 
biometric entry-exit system that was also in a 1996 bill that I 
introduced and that was enacted into law. How important do you 
think that type of a system is to trying to either deter 
terrorists from entering or being able to determine whether 
terrorists might have overstayed and still reside in this 
country?
    Mr. Hoffman. Well, I am not familiar with the legislation. 
I think, though, what we have seen, though, unfortunately in 
recent years is an increasing traffic of individuals from the 
United States seeking to go abroad to receive terrorist 
training and then returning to the United States. So at least 
from your brief description I think something like that would 
contribute to the identification and the monitoring and 
interdiction of those individuals.
    Mr. Smith. That is something else I think the 
administration should be taking an initiative on, just as you 
suggested in the other area as well. I hope that we don't 
sustain any kind of a terrorist attack even on a lesser level 
than the 9/11 attack. As you just suggested, the administration 
should have been doing a lot more than it has been and I agree 
with that. Thank you, Dr. Hoffman.
    I will yield back.
    Chairman Thompson. Thank you.
    Chair recognizes the gentlelady from California for 5 
minutes, Ms. Harman.
    Ms. Harman. Thank you, Mr. Chairman. Thank you for holding 
this hearing.
    We have before us the trifecta. If I have to think of three 
white guys to talk to about terrorism this is my list, and I 
talk to all of them regularly.
    As you know, Mr. Chairman, and as they know, this 
committee's Subcommittee on Intelligence and Risk Assessment 
and Information Sharing has held a number of hearings where 
they have testified on the topics that they are speaking to 
today and I agree with virtually everything all of them said, 
even if there were some internal inconsistencies, about the 
threat against us and how it has changed and how it may be less 
catastrophic, but I think it more likely and it is much more 
difficult to detect and stop.
    So let me just focus on a couple of things that I think 
might be useful to tease out from this group. One is, this 
House passed something a few years ago called the home--Violent 
Radicalization and Homegrown Terrorism Act by an overwhelming 
vote. Some groups--outside groups--decided that for reasons 
that I believed were misguided that bill was not going to be 
helpful. I just wonder if any of you would make comments about 
that bill. I know that Dr. Hoffman in particular is very 
familiar with it.
    Let me just put my questions out and then you can use my 
time to answer them.
    The second is, you agree that terror groups are less likely 
to carry out an attack on the scale of 9/11 but--and more 
likely to deploy a crude weapon to cause panic and severe 
economic disaster. I just wonder what you think of the 
likelihood of a dirty bomb attack, especially one using, for 
example, ingredients that can be found in radiology machines in 
our domestic hospitals, something that concerns me. So that is 
my second question.
    The third question is, you have said that we can't 
stereotype who the attacker will be. I agree. Jihad Jane, as we 
all know--not named after me, I don't believe--was a petite, 
blue-eyed, blonde, suburban housewife. What should Congress do 
to get a better handle on this?
    Mr. Hoffman. Well, Representative Harman, as you know, at 
least twice sitting at this table I have not only endorsed but 
lamented the fact that H.R. 1955 was not enacted into law in 
2007. I think, as I have said before, we missed an ideal 
opportunity at the time to get out in front of this issue 
instead of, as we have been throughout, I think, most of the 
war on terrorism, playing catch up and reacting to the 
terrorists. So I think we need it now more than ever.
    We need a solid empirical foundation to understand how 
people are radicalized, how they are recruited. We need to 
understand much better how other countries are responding to 
this so we firstly don't reinvent the wheel, but secondly don't 
repeat their mistakes. I think a bipartisan National commission 
like that would provide that foundation and I think it would 
direction feed into the type of coordination and strategy that 
we need as well.
    Secondly, the dirty bomb question. Two perspectives on it: 
As you know, when you have had Rita Katz, from the SITE 
Intelligence Group, testify before--this nongovernmental entity 
monitors jihadi chat sites, web rooms, communications, and so 
on. Interestingly, what they have found over the past few years 
in their own research is that terrorist interests in these 
unconventional weapons is actually rather small, that the vast 
majority of chatter, talk, plans, plotting, daydreams, and so 
on, is consumed with more traditional forms of attack--the 
weaponry the terrorists have mastered, guns and bombs.
    However, that is not to say that there aren't discussions 
of these issues. Interestingly, dirty bombs don't figure very 
prominently--at least that is the, you know, statistical, 
empirical evidence that they have found.
    But I think your point is well taken because what we have 
seen in the years since 9/11 in London, for example, was one 
plot in 2004 involving an individual named Dhiren Barot, who 
actually also plotted to attack targets in the United States in 
2004--simultaneous attacks in New York, New Jersey, and 
Washington, DC. But meanwhile he was also cooking up terrorist 
attacks in London and they were two-fold. One involved packing 
limousines with homemade explosives, much as we saw in Times 
Square last May, enhanced with fuel-air explosives, and he said 
that is what would kill lots of people.
    He also was planning to stage a dirty bomb attack and he 
said that probably wouldn't kill lots of people, but the appeal 
for him and presumably his terrorist masters is that that kind 
of unconventional attack would cause widespread panic and fear 
and have disproportionate and highly insidious and corrosive 
psychological----
    Ms. Harman. I regret interrupting you but my time is 
expired.
    Mr. Chairman, could the other two witnesses answer my 
questions briefly? Would that be permissible?
    Chairman Thompson. Will the gentlemen answer the questions?
    Mr. Bergen. On the radiological--discussion of chem, nuc, 
and bio, as Dr. Hoffman indicated, is actually very, very low 
on jihadi web sites. On the other hand a radiological bomb, 
because the materials are fairly ubiquitous and the know-how is 
not that complicated, I think is something we should be 
concerned about. So any measure that we can take--I know that 
you have some proposals in that area, Representative Harman--
would be very useful.
    Mr. Flynn. I think I would reinforce the fact that--well, 
two overarching trends: We are moving to less sophisticated 
attacks, so the ones we are really scared about--a nuclear 
weapon, for instance--much more difficult, and one which our 
National security apparatus is more focused on, doing the 
bigger consequential ones. So therefore, that creates incentive 
to move to less sophisticated attacks, and one that you have 
domestic materials here to accomplish that attack. So the 
trends are pulling us in this direction even though we don't 
have all the empirical evidence that we have jihadists really 
working on this.
    But I would really put it like--when it happens, and it 
could likely happen, is it becomes a lot like what just 
happened in the Gulf of Mexico. People are going to be just--
well, what were the plans to respond and recover from those 
events? That is where we are woefully inadequate here.
    Our efforts being so geared to trying to prevent every bad 
thing from happening we really haven't thought through the 
morning-after problem, and that is where I think you will find 
the American public outraged at basically how little-prepared 
local-level law enforcements, public safety is to deal with 
this, and information--quality information--getting out about 
how to deal with that.
    So it is a big issue. It may be low probability, but for 
such high consequence it should be getting much more attention 
than it has been receiving.
    Ms. Harman. Thank you very much.
    Thank you for your indulgence, Mr. Chairman.
    Chairman Thompson. Thank you.
    The Chairman now yields to the gentleman from California, 
Mr. Lungren, for 5 minutes.
    Mr. Lungren. Thank you very much, Mr. Chairman. I want to 
thank the three panelists. This is most interesting and we 
could spend hours going over the nuances of your report and 
your opinions.
    One thing I want to make sure we have clear on the record: 
Even though you are talking about the shift of al-Qaeda and 
their associates to a lower-consequential type of attacks there 
is no suggestion on your part that we stand down or even reduce 
our concern about the consequential attacks, correct?
    Right. So I want to make that clear, that we have got to 
maintain that. The question is, do we also have eternal 
vigilance with respect to the lower-consequence attacks that 
appear to be more likely and becoming more likely all the time 
because of the change in tactics by those who would do us such 
harm?
    I come a background in part from local and State law 
enforcement and one of the things that always intrigues me is 
the much larger number of law enforcement personnel on the 
State and local level than you have on the Federal level, and 
that in investigating certain organized crimes or gang activity 
it was often a lead that we got at the local level for an 
investigation that had nothing to do with what we ultimately 
came up with. That is, I remember we took down a major auto 
accident fraud based on an investigation by a CHP officer of an 
automobile accident, and then that led us to dealing with 
counterfeit products.
    If the officers involved had not been alert to what was out 
there and had then not had the ability to talk with officers 
engaged in other types of investigations we never would have 
taken down those separate organizations. So it is nothing 
really new in terms of the adaptability of the officer at the 
local level. The question is, do we establish the encouragement 
and the means by which that cooperation and collaboration can 
take place?
    From your standpoint, what more do we need to do, at least 
from the Federal level, to ensure that that occurs in the area 
of the terrorist threat? I would ask that to all of you.
    Mr. Flynn. I guess I will take the first stab at it, sir. I 
think you are absolutely right. Part of the recognition that I 
think this report really highlights for us is that we have been 
relying on a very Federal and basic National security-oriented 
effort since 9/11 to deal with this threat beyond our shores. 
Again, that is where the most consequential threat is likely to 
emanate from. Our good efforts over there in part has helped to 
reduce that risk but then drive the strategy in this direction.
    What I have not yet seen is a shift in research and focus 
that says the local, State--increasingly communities--are where 
we are going to find the intelligence we need and often the 
first prevention effort that is----
    Mr. Lungren. For instance, I just visited in the last 
couple weeks the fusion center in Sacramento, which allows an 
opportunity for all levels of law enforcement to come together, 
share information, and in fact, gain confidence with one 
another, so that when they see something that may have an 
indication that could lead to an investigation of terror they 
act on that. Obviously we can always do more, but it seems to 
me fusion centers, the cooperation and the establishment of an 
experience level so that there is confidence that an officer on 
the Federal level from one of the agencies can pick up the 
phone and talk to someone at the local level so they have 
gained a confidence in the abilities of one another and 
trustworthiness of one another.
    Mr. Flynn. I think they are absolutely vital, sir. I mean, 
cops talk to cops; they don't talk to bureaucracies very well, 
and for good reason. So you would create those opportunities 
with fusion centers.
    One of the challenges that clearly many localities have is 
simply funding the officers to be a part of those fusion----
    Mr. Lungren. Yes.
    Mr. Flynn [continuing]. Centers. Again, they are serving a 
National security imperative. I think finding more level of 
support for communities participate in those fusion centers is 
probably the logical next step, skipping the budget crisis 
that----
    Mr. Lungren. Let me just ask another question about 
something that the gentlelady from California and I have worked 
on in the past, and that is the radicalization of our prisoners 
in the area of potential recruits for terrorists, lone wolf or 
organizations. Any comments on that? Are we doing what we need 
to do?
    Well, first of all, do you think it is a problem? Second, 
are we doing what we need to do?
    Mr. Bergen. Just to unify the two questions you had, I 
mean, something that Representative Harman is very familiar 
with because it happened, I think, in her district. I mean, 
Torrance, California was a very serious plot that was found by 
the local police who just paid attention to the fact that the 
documents in these guys' possession--they were knocking off gas 
stations--were indication of a potential attacks on Senegal's 
and U.S. military recruiting stations, and these guys had all 
been radicalized in prison.
    They were African-Americans, they saw themselves as al-
Qaeda in California. So this is a real problem. I don't know if 
it is a really massive problem but it is certainly a problem. 
We have seen plenty of people convert to Islam in prison; 99 
percent of them it is not a problem, but the 1 percent it may 
well become.
    Chairman Thompson. Thank you.
    The Chairman now recognizes the gentleman from 
Pennsylvania, for 5 minutes, Mr. Carney.
    Mr. Carney. Thank you, Mr. Chairman.
    I thank the panel. Again, it is great to see all of you 
back.
    I just have three questions. Do we need something like an 
MI-5 in this country, first of all?
    Mr. Flynn. I will jump in on that here. I don't find it 
workable. The size of the country and one of its great 
strengths is that because there are distinct regions and 
cultures, frankly, as part of our country, that a top-down kind 
of centralized organization that could work on a scale of the 
United Kingdom. I don't think is workable here.
    I would like to see us just be much more forward-leaning 
and tapping the local capabilities we have and making sure they 
get the information they need and that they have a voice, at 
least regionally, beyond their own jurisdictions to continue to 
work these challenges.
    Mr. Carney. Well, how do we become proactive rather than 
reactive?
    Mr. Flynn. I think fundamentally it really is a case of 
getting information out to folks about what the threat is. We 
have not done that as well. This is why this hearing is so 
important and we hope the report is helping here, that the 
threat is different than one where we could just rely on our 
uniformed men and women and our intelligence apparatus to take 
care of us. We are now much more having to engage as a people 
in our local law enforcement, and we have to make sure they are 
resourced to do that.
    The information about how terrorist attacks work, you know, 
I made a pitch of--we have had five airline incidences where 
the passengers have been--that turns out the folks--two in the 
United States, but overseas. We should have--the how these 
bombs are made, what do the behaviors look like? Get the flying 
public engaged as part of this. So you have got to get the 
information pushed down, in other words.
    That is the only way you are going to get proactive. You 
are not going to do it by relying on the pros behind the, 
essentially, cone of silence. I think that is the direction we 
need to go. It is more than just policing. It is really a broad 
engagement of the American society.
    Mr. Carney. Dr. Hoffman.
    Mr. Hoffman. I would agree with my colleague that we don't 
need an MI-5. I think this is the kind of debate that might 
have been more useful some years ago, but given the 
reorganization of the intelligence community and the creation 
of the Department of Homeland Security I think probably the 
last thing we need is another bureaucratic organization added.
    What I would say, though, is that I think one reason that 
the Central Intelligence Agency has always functioned as 
effectively as it has is because there is the synergy between 
the Directorate of Intelligence and the National Clandestine 
Service that used to be the Directorate of Operations, at least 
from my observation. This remains a problem with the Federal 
Bureau of Investigation, that the intelligence analysts there 
are still the very separate cadre; they are a cadre that is not 
equated with any sort of status or certainly the prioritization 
that often attends special agents, and that is where I think 
the major strides and improvement have to be made in 
strengthening that dimension of the FBI alongside the excellent 
special agents.
    Mr. Carney. You would agree, Mr. Bergen?
    I will ask, I suppose, a bit of an existential question 
here: How do we demotivate them?
    Mr. Flynn. I think one that I would highlight again is what 
has motivated, in part, the movement towards less sophisticated 
attack is the confidence they have that as a country we will 
overreact when things happen. That is, it will get--generate 
significant political fallout and they will get an almost 
spasmatic response, probably by this body, to put bandaids very 
quickly, and it will be very costly and disruptive.
    It follows, it seems to me, that the more resilient we 
are--and that means we acknowledge the threat is real but we 
take measures to be able to better deal with it. There is a 
crisis communications element sort of to rob them of the 
benefit they are expecting to get. That won't eliminate the 
threat but it will start to demotivate it.
    This is very much a strategy in Israel. It is very much a 
strategy in the United Kingdom. It is, ``We are not going to 
give them the bang for the buck that they are aspiring for.'' 
We need to show, as a country, that we will not be cowed by 
acts of terror, and we do that by being well-prepared and not 
losing our heads when these things happen.
    Mr. Carney. Dr. Hoffman, or Bergen.
    Mr. Bergen. You know, I would just make a sort of 
historical observation which is, I think 30 years ago Jihad 
Jane potentially would have joined the Weather Underground or 
something. I think for a certain group of people if you want to 
act out against the United States, give your life some sort of 
meaning, this is just a convenient way to do it.
    You know, so it is not, ``How do you demotivate them?'' 
There are always going to be people looking for a cause that 
gives them importance and for some people this is the cause. I 
mean, God is telling me what to do; I am an important person. 
You know, I think that is part of the motivation. How you take 
that away I think is very difficult but I think Dr. Flynn is 
correct: If you are not going to get the glory, you know, if it 
is sort of a dud when you try and do these things I think that 
takes away some of the excitement here.
    Mr. Hoffman. I would just add that one of the trends that 
we identified in the report is that increasingly the 
recruitment and radicalization processes are becoming more 
effective amongst our enemies. They have individuals like Anwar 
al-Awlaki, who was born in the United States, who can 
communicate extremely effectively in a very familiar patois 
with Americans, people like Omar Hammami, from Mobile, Alabama, 
who has gone and joined al-Shabab.
    Rather than just, you know, the default being, ``Let's just 
go out and kill them,'' we have to find a better way, a more 
effective way of countering their methods. Again, I mean, go 
back--this is why we needed legislation such as Congresswoman 
Harman had proposed 3 years ago to understand how to do that.
    Mr. Carney. Thank you, Mr. Chairman.
    Chairman Thompson. Thank you.
    I think one of the comments here is that, Dr. Flynn, you 
said terrorism is here to stay. I think part of it is: How do 
we as Americans incorporate that in our way of life so that we 
can go about our day-to-day activities but you still have to 
understand that the threat is real?
    I think that is--it is either the fear of the unknown or 
something that I think causes Congress and others to overreact 
when situations occur, just like the Christmas day event. We 
bought 1,000 new machines to go in some airports--not all 
airports--and the question is, was that the way to do it or did 
we need to incorporate that situation into the matrix of 
terrorism and try to address it in a different manner so that 
it is not a kneejerk response to a situation?
    I think that is the--what I feel so often is the discomfort 
with discussing terrorism is we are not sure how to address it.
    Mr. Bergen. Sir, can I make an observation? You can't have 
these discussions--political leaders like yourselves have to 
have these discussions with the American people before the 
event and not after the event. Here is what the speech, I 
think, should say.
    I think it is politically hard to say, but this is--all 
these things are true: Al-Qaeda is not 10 feet tall. By the law 
of averages al-Qaeda and its allies will get one through 
eventually and we are doing a lot to protect you. But I think 
that is a kind of complicated political message even though all 
those things are true I think it is hard for you--you can't 
have that speech after the event; you have to prepare the 
American public before.
    It goes to what Dr. Flynn is talking about, resilience. We 
have to prepare the society to be more resilient. Right now it 
is very brittle. Near misses are producing this enormously 
hysterical overreaction. Imagine what would happen if 253 had 
blown up over Detroit.
    Mr. Flynn. I guess I really want to just hold--I think that 
is exactly right, what Peter said, that the follow-through is, 
and we need your help. I think that is the message we failed to 
say after 9/11 and 9 years later we still not have actually 
done. We haven't gone out to the American people and said, ``We 
need your help.'' At its core fear works when first I become 
aware of a threat or vulnerability, but then when I feel 
powerless to deal with that threat or vulnerability.
    Chairman Thompson. Well, you know----
    Mr. Flynn. The more we empower people and inform them the 
better, I think, we chip away fear.
    Chairman Thompson. I think this is where we are trying to 
go with it because the Department and others are talking a 
simple thing: See Something, Say Something. That hopefully will 
add to bringing everyone into the system of helping fighting 
this terrorist--potential terrorist threat that exists.
    In the past we have left it to State and locals and the 
Fed, and where the majority the eyes and ears just kind of go 
about their daily business. But I think to some degree we will 
have to get the public involved in this, and that--because we 
can't buy enough equipment, we can't do that to--and then it 
still won't guarantee that something won't happen, I guess is 
what I am trying to say.
    But for politicians that is difficult to say because we 
want to give the impression that, you know, we are guaranteeing 
with this appropriation that whatever the situation is won't 
happen. So----
    Mr. Lungren. Mr. Chairman, if I could just mention one 
thing, and I think it goes on with what the three panelists are 
saying, we have to tell the American people that much of what 
we have done and we have asked for from them in terms of tax 
dollars has been successful. The only way you can engage people 
is if you recognize when what they have done has helped.
    You all talked about how we have made the likelihood of the 
more consequential act less likely precisely because of what we 
have done. We need to explain that to the American people so 
when we ask them for other things, including being involved, 
they understand that what they have done thus far has been 
helpful. I don't think we do enough of that to acknowledge the 
successes.
    As you say, talk about the fact that al-Qaeda has been 
damaged, is less likely to be able to have those consequential 
attacks precisely because of what we have done. That doesn't 
mean we don't do other things, but if you are going to ask 
people to do something more you have got to give them credit 
for what they have done already, I would think.
    Chairman Thompson. Gentleman from Pennsylvania, Mr. Dent, 
for 5 minutes?
    Mr. Dent. Thanks. Thank you, Mr. Chairman.
    Thank you, gentlemen, for presenting to us today. There has 
been a lot of talk about al-Qaeda and how that threat has 
evolved and how it has diversified. We didn't talk so much, 
though, about other terrorist groups.
    Representative Harman and I just came back from 
Afghanistan. You hear a lot about the Pakistan Taliban, the 
Hikani network, LET, al-Shabab, and Somalia. How much of a 
threat do those groups represent to us in this country? For 
example, we know there have been reports of the Pakistani 
Taliban being involved with the Times Square attempt.
    But these other groups, particularly--I am interested 
particularly in Hikani and others. What is your sense of these 
other groups internationalizing their efforts, similar to al-
Qaeda?
    Mr. Bergen. Thank you, sir. I mean, the Pakistani Taliban--
a real canary in the mine which people didn't look at was the 
fact that the Pakistani Taliban sent suicide bombers to 
Barcelona in January 2008, which should have demonstrated that 
these guys are willing to do attacks in the West. Spanish 
prosecutors say the Pakistani Taliban were behind it; the 
Pakistani Taliban have admitted their role. Luckily the attack 
didn't succeed.
    So Times Square was not an aberration; it was part of a 
pattern. So, you know, I think the Times Square incident speaks 
for itself.
    The Hikani network I don't really know. I mean, they have 
seemed very focused on Afghanistan. They don't seem to be 
interested in out-of-area operations.
    But you mentioned Shabab. Shabab tried to kill the Danish 
cartoonist responsible for the prophet Mohammed cartoon, almost 
succeeded. They did an attack in Uganda that killed 70 people. 
They have shown some ability to do out-of-area operations.
    I think we would be naive to think that they aren't--you 
know, they have self-identified as an al-Qaeda affiliate. I 
think they are potentially problematic.
    Finally, Lashkar-e-Taiba, I think, is really probably the 
more important of all these because it is the largest group. It 
is trying to educate its people--you know, the attack in Mumbai 
demonstrated that they were willing to hunt down Americans and 
Jews in the Nariman House and that they have adopted al-Qaeda's 
ideology. So I think that is quite worrisome.
    Mr. Flynn. I may want to add, I think, an important finding 
is, to the extent that these groups diversify geographically, 
and now we have a trend of Americans going overseas to get 
training, this is much more challenging for our intelligence 
community to keep on top of. Just the sheer geographic expanse 
and the nature of ethnic communities and travel associated with 
that makes it mean that that connection between domestically-
motivated terrorists on the U.S. side can connect more with the 
training infrastructure that is now getting more sprawling.
    Mr. Dent. Can I just quickly ask, because I have one more 
question after this, do you see that the al-Qaeda threat, at 
least operationally, seems to have moved more to the Arabian 
Peninsula than the Afghanistan-Pakistan region? Do you see that 
as being the real al-Qaeda operations center now?
    Mr. Bergen. No, I think not. I mean, there is a lot of 
focus because of the Christmas day incident, but I think al-
Qaeda central is still on the Afghan-Pakistan border. This is 
where the ideology is, training continues. The drones have 
taken some impact on them, but I think to sort of say just 
because we have seen a lot of activity from al-Qaeda in the 
Arabian Peninsula, as a story in the Washington Post said, that 
now that is the biggest problem, I just don't see that.
    Mr. Hoffman. I would say that al-Qaeda is as opportunistic 
as it is instrumental in where it sees the potential to spread 
and to expand to take advantage of those opportunities, 
wherever they may appear. For them I think the advantage is it 
used to be that if terrorists wanted to join al-Qaeda or an al-
Qaeda-like group they had to go to either Afghanistan, until 
2001, or in recent years to Pakistan. Now they have closer 
options from the United States to travel to Somalia or to Yemen 
as well, perhaps other countries.
    Mr. Dent. Now, can I just quickly pivot to one other issue? 
You know, I think we all saw--you know, we witnessed the move 
last week that was probably every bit as reckless as it was 
stupid when this Florida pastor, you know, was publicly 
weighing his options to burn the Koran to make some kind of 
statement.
    At some point someone really is likely to do something this 
stupid and put it on YouTube and then--or some other social 
networking site. Is there any way--is there any way that we, as 
a public, can inform the international community that while our 
laws don't prevent such serious acts, you know, they are being 
conducted by, you know, kind of a loony fringe element? Is 
there anything that we can do to help educate people about how 
our country operates when these situations arise?
    Mr. Bergen. I think it is not well understood in a lot of 
countries. I mean, we have seen riots in Afghanistan after the 
Koran-burning was cancelled that killed people. Since these are 
countries that aren't often free they don't really understand 
the First Amendment, where we can say whatever we want. As the 
gentleman has said, we could make those points but I don't 
necessarily think they are completely well understood in some 
countries, unfortunately.
    Mr. Flynn. I would just add that there really is a 
leadership element of this. If it is clear that our top 
political leaders are saying what President Bush said just a 
few days after 9/11, as Chairman Thompson quoted at the outset, 
that terrorism is not the face of Islam, then that is an 
important message, I think, in terms of when these acts happen. 
If we continue to potentially have that issue get mixed then 
people will point to those aberrant events as indications of a 
broader concern we have as a society with Islam itself, and 
that fuels the narrative.
    It is a very complicated issue, obviously, but I think more 
care needs to be happening at the leadership levels of our 
government as well as care of what we want our citizens to 
exercise, too.
    Mr. Dent. In this case it seemed like virtually every 
leader stood up and basically objected, and fortunately he 
didn't carry it out.
    Mr. Flynn. Again, in advance is the key, right? I think 
that is the thing where we have got to keep at it in advance of 
it, otherwise the image itself will carry the day.
    Mr. Hoffman. I would just say I think we have to in general 
be more effective in our overseas communication than we already 
are. For example, the Voice of--over 90 percent of the Voice of 
America's efforts are directed towards traditional media--print 
or radio or television--which appeals only to a certain 
demographic, whereas a lot of these messages of hatred and 
intolerance, mobilizing people in the streets, are communicated 
over the internet, yet less than 10 percent of the Voice of 
America's activities are directed at that medium, which has 
become so powerful.
    Mr. Dent. I yield back. Thank you.
    Chairman Thompson. Thank you.
    The Chairman now recognizes the gentleman from Texas for 5 
minutes, Mr. Green.
    Mr. Green. Thank you, Mr. Chairman. I thank the witnesses 
for appearing this morning.
    I am interested in several things, and I will try to focus 
on two, possibly three. One is relationship. We have had some 
discussion this morning about relationship. If relationships 
are important with the Muslim community, and they are, then the 
question becomes: How do you perfect not just a relationship 
but a meaningful relationship with the Muslim community? How do 
you perfect that relationship?
    It requires more than simply showing up when there is a 
need to investigate a circumstance. You have to show up when 
the masjid, or mosque, is being dedicated. You have to show up 
when there is a special event taking place and be a part of the 
event.
    My experience has been that we don't do enough to extend 
ourselves to the community so as to let the community know that 
we want a meaningful relationship. I am curious as to whether 
or not there is some sort of how-to manual, if you will, that 
helps persons to understand how to build a meaningful 
relationship across cultural lines. Do we have that kind of 
intelligence that we can simply pass out to people in some 
meaningful way?
    Mr. Bergen. I want to endorse everything you have said, 
sir. I mean, I think that is incredibly important. How to 
perfect that relationship, I think, is a very big question 
that, I mean, I don't think we are all capable of answering 
right now.
    But I would like to make a comment which I think is 
illustrative of the strength of the Muslim-American community 
in this regard. The fact that these kids from Northern Virginia 
who wanted to volunteer for the Taliban were turned in by their 
own family I think speaks for itself. In some of the Somali 
cases around the country the same thing has happened; it is the 
family that has raised the red flag.
    So whatever our relationship is with the wider Muslim 
community, the Muslim community itself is the best trip wire 
for the kinds of things that we identify in this report, and we 
have seen that on several occasions, where it is what really 
worked.
    Mr. Hoffman. I would say that we need to equivalent--the 
American equivalent--of Quilliam Foundation, which exists in 
the United Kingdom, which enlists individuals who themselves 
have been radicalized and who themselves have been drawn into 
these movements to communicate with other young people and to 
communicate with communities and explain the processes and 
procedures, and the blandishments, and the entreaties that 
recruiters use and how to resist them more effectively.
    Mr. Flynn. I would just add one thing, and I think this is 
something that the New York Police Department has truly been 
exemplary on. One is, you work very early on and very actively 
to draw and recruit your members of those communities as part 
of your law enforcement community. There are more foreign-
speaking police officers in the NYPD than the Federal 
Government apparatus combined because they make an effort to 
reach out to the communities, to engage them, to be a part of 
that community.
    The other very central piece is, you don't go to those 
communities for the first time when you are policing and say, 
``We need your help fighting terrorism.'' You go to those 
communities and say, ``What do you have for problems in your 
neighborhoods?'' and you provide services for that. If it is 
car thefts, if it is kids getting beat up on the way to 
school--you engage communities by providing them services and 
making them feel that they are integrated and a part of that 
community, again, with the kinds of things you are saying up 
front.
    So there are ways to do this. We have done it. We just need 
to now magnify that effort, I think, in light of the threat 
that we have been talking about here today.
    Mr. Green. Let me thank you and compliment the NYPD, 
because you have moved to my next point about recruitment. But 
there is a third point: Language. Language is exceedingly 
important.
    Emily Dickinson, I believe, gave us this: ``A word is dead 
when it is said, some say. I say it just begins to live that 
day.''
    We have to be careful with the language so as not to want a 
relationship but show up with language that indicates we don't 
understand the people that we are trying to work with. If we 
are not careful with this broad brush language that we use on 
the National stage we find ourselves creating--putting chasm 
between ourselves and people who really want to work with us 
but the language creates an invisible barrier that makes it 
very difficult for them to step over and receive the hand of 
friendship that we desire to extend. I think that language has 
to be dealt with such that we pass that down--up and down, 
vertical as well as horizontally among leadership in this 
country.
    Finally, Mr. Chairman, I thank you. I am 9 seconds over. I 
just want to end with this: We talked about how people show up 
and they want to investigate them. Give you a supreme, superb 
example of something that happened in my presence. I was not 
the person speaking but I was privy to the conversation.
    An investigator came into the African-American community 
many, many years ago when we were having our civil rights 
movement, and his question to us was, ``Have you seen anything 
strange happening today?'' The young man who was among the 
group said, ``The only thing I have seen strange is a white man 
in this community asking me if I have seen anything strange.''
    So my point is, we have to be sensitive to the people and 
have a relationship beforehand so as to be effective after a 
circumstance has developed.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you for that instruction from the 
gentleman from Texas.
    Now recognize the gentleman from Missouri, Mr. Cleaver, for 
5 minutes.
    Mr. Cleaver. Thank you, Mr. Chairman.
    Mr. Bergen, thank you for being here.
    Thank you, all three of you, for the work you do.
    What struck me, in your testimony you talked--about 
jihadists you talked about the 21 percent Caucasian, 18 percent 
Arab-American, 14 percent South Asian, 9 percent African-
American. Of course that concerns me. So I am wondering if 
there is a common thread that runs through the groups that you 
mentioned that you believe led to their commitment to becoming 
jihadist. Is there some characteristic--is there something 
unique about them? I mean, are they high school dropouts, are 
they, you know, individuals who have been arrested once? Is 
there anything?
    Mr. Bergen. The short answer is no. I mean, Major Nidal 
Hasan was earning $90,000 a year; he was a medical doctor; he 
was, you know, a senior Army officer. Najibullah Zazi was a 
limo driver at Denver Airport, an Afghan-American. I mean, 
there is nothing--there is no profile ethnically, socially, and 
there is no--there is nothing you can really say.
    Correct me if I am wrong, Dr. Hoffman, but there is nothing 
you can really say that this is a common theme of all these 
people. You know Jihad Jane, who was a high school dropout with 
some failed marriages, you know, wasn't living large. But, you 
know, Nidal Hasan had everything going for him in his life, at 
least theoretically. So there isn't really some common theme, 
sir.
    Mr. Cleaver. Dr. Hoffman.
    Mr. Hoffman. I would say nor should we be surprised that 
that is the case. The British found the exact same thing in 
their investigations following the 2005 suicide attacks on 
London. The conclusion of the House of Parliament's 
Intelligence and Security Committee is that there is no profile 
of the British Muslim extremist either. Indeed, over there the 
diversity that Mr. Bergen has just described takes its, just as 
well, people from South Asia and North Africa, from the Middle 
East and from the Caribbean, young and old, single and married, 
converts, lifelong Muslims, university graduates, and high 
school dropouts.
    Mr. Cleaver. Dr. Flynn.
    Mr. Flynn. The only thing I would just add is that when we 
talk to the senior intelligence and National security officials 
about this issue the fact that we cannot, in fact, have this 
very clear profile of what these folks are makes these acts 
almost impossible to prevent up front. That is just a reality 
we are having to deal with, so--at the Federal level, again, 
relying on those tools. There are other things that we have 
been talking about here today--engagement of community, local 
law enforcement, public safety--those become key with dealing 
with this because the other tools are just not going to work 
for us.
    Mr. Cleaver. Thank you.
    My second and final question has to do with the fact that 
you have said in your testimony, Dr. Bergen, that al-Qaeda is 
focused on symbolic targets and--which is why they hit the 
World Trade Center.
    I am from the Midwest. I used to be the mayor of a 
Midwestern city, Kansas City, Missouri, and I have often 
thought if I were a terrorist I would absolutely avoid New 
York, Chicago, San Francisco, Los Angeles, and go to the 
Midwest because we have pretty much declared the Midwest to be 
a place where there could be no symbolic success or target that 
would create the kind of umph that al-Qaeda apparently wants to 
produce.
    But Kansas City is one of the large rail centers in the 
country, and I don't know if there is anything symbolic in our 
transcontinental freight, you know, disrupting it that would 
attract al-Qaeda. But more than that, I just--I mean, are they 
so focused on symbolism that they would forego something that 
would be infinitely easier and less dangerous?
    Mr. Bergen. Yes. I mean, that is a very good question. Why 
don't they attack in Anywheresville USA in some mall, is one of 
the questions we addressed in the report. Al-Qaeda and aligned 
groups, you know, the people they are trying to impress and 
influence have never heard of Des Moines or Kansas City. I am 
sorry.
    They have heard of New York, Los Angeles, District of 
Columbia, blowing up an American passenger jet, and they keep 
returning to these targets again and again and again. You know, 
Najibullah Zazi drove from Denver, Colorado to Manhattan--he 
was living in Denver--to do the attack.
    So that is not to discount--we have seen some of the failed 
plots that Dr. Hoffman referred to. Springfield, Illinois was 
the target of a plot last year. So it is not to say that people 
inspired by al-Qaeda's ideas might not try an attack in Kansas 
City, but the al-Qaeda organization, I don't think so.
    Mr. Cleaver. He was not al-Qaeda, but keep in mind that the 
Murrah Federal Building was attacked in Oklahoma City, which is 
smaller than Kansas City, Missouri. Timothy McVeigh, of course, 
was not affiliated with al-Qaeda and so maybe he wasn't that 
concerned about symbolism.
    Mr. Flynn. Mr. Cleaver, I would say I have been to Kansas 
City, and I have looked at your rail issue out there, and I 
remain deeply concerned. Again, one thing we need to take is a 
more strategic perspective in this as well. 9/11 illustrated 
for any future adversary of the United States that the soft 
underbelly of this country is its critical infrastructure, and 
while the current group of folks that we looked at in this 
report don't show indications of that we can't proceed, I 
think, as a Nation with the illusion that we are not going to 
have folks who identify places where they could get profound 
economic disruption to our way of life, critical mills like in 
your backyard.
    Mr. Hoffman. I would say that one of the main conclusions 
of the report is that we face a diverse threat on multiple 
levels from multiple adversaries as well, and as the map on 
page 2 of the report indicates that in the United States there 
have been two extremely serious plots in the past year or 2 
directed against New York City, which is worrisome enough 
because I think it calls into question our ability to deter our 
adversaries if they keep going back to the hardest target.
    But as the map shows there were successful attacks, 
tragically, in Fort Hood and in Little Rock, Arkansas. There 
were serious plots, as Mr. Bergen described, in Springfield, in 
Dallas, in Detroit, and elsewhere.
    So I think one of the challenges we face as a Nation is to 
understand that perhaps for a certain category of our 
adversaries a place like New York will always be, you know, 
undeniably attractive. At the same time, though, given the 
multiplicity and the diversity of the adversaries they will 
strike, as I earlier said, where they see the opportunity and 
where they see that the effects can be the most profound and 
the greatest.
    Mr. Cleaver. Thank you, Mr. Chairman. I yield back.
    Chairman Thompson. Thank you.
    The Chairman now recognizes the gentleman from Florida for 
5 minutes, Mr. Bilirakis.
    Mr. Bilirakis. Thank you, Mr. Chairman. Appreciate it very 
much. I apologize for being late. I was in a Veterans Committee 
meeting--actually a markup.
    First question to the entire panel: I have long been 
concerned that our visa issuance and oversight processes, 
particularly the student visa, is inadequate. In fact, I have 
introduced legislation that will help ensure that terrorists do 
not use our student visa process as a back door into our 
country.
    We know the terrorists involved in both the 1993 and the 
2001 World Trade Center attacks were in the United States 
because they violated the terms of their student visas. The 
question, do you believe that terrorists are still able to 
exploit our student visa system to gain entrance to the United 
States to radicalize American citizens and/or engage in 
terrorist attacks? For the entire panel.
    Mr. Bergen. This is really a comment rather than a complete 
answer to your question. In the 2009 Manchester plot in the 
United Kingdom the people involved all were on student visas 
which they overstayed, so certainly this is an idea that is 
percolating with al-Qaeda, the Taliban, because these guys were 
all from that area.
    I mean, the counterargument would be we want to encourage 
people from Muslim countries to come to this country to study, 
and it is already pretty difficult for them to get in, and we 
don't want to penalize, you know, the 99 percent of the people 
who are coming legitimately. Already getting a visa in a 
country like Pakistan is pretty problematic, student or 
otherwise. So we have to balance those two things because there 
are two different goods at stake here.
    Mr. Flynn. I would reinforce Peter's point in the last 
regard. Certainly a more effective system, but it would have to 
be very well resourced for it to work more nimbly than it does. 
What we are doing overseas with consulate officials is putting 
lots of requirements on without much capacity, creating 
backlogs and challenges that keep the legitimate, good people 
we want in-process. So we have to really think about, when we 
lay that requirement, how we make sure we adequately manage it. 
We should be doing it very competently.
    But the deep concern is that at the end of the day our most 
powerful tool has been, for the overwhelming, I think, success 
of the American experience is having people experience it, to 
get here and be at conferences and schools and in our 
classroom. The overwhelming majority then go back home and 
bring those values with them. If we basically start to close 
that down it is so difficult, given the media that is out 
there, for people to validate the greatness of this country if 
they haven't experienced it, so it is a real difficult tension, 
I think, that is at work here.
    At the end of the day the threat does continue to--I think 
a key is not overselling what these tools can do. The 
diversification will happen; the recruitment is going to 
populations that are within our own society so we have to, I 
think, see it through a more encompassing lens.
    Mr. Hoffman. Well, it is a very pertinent question, 
particularly given the profile in the New Yorker this week of 
Khalid Sheikh Mohammed, who first--the mastermind behind the 9/
11 attacks--who first came to the United States as a student. 
One of the cases we identified last year, of course, involved a 
student, although not a student in the United States, Umar 
Farouk Abdulmutallab. It has been, as Mr. Bergen said, more 
common, and I think the British authorities see it as a very 
serious problem in the United Kingdom.
    My point would be that unfortunately over the years trends 
in terrorism that we have seen elsewhere inevitably come to the 
United States even if they haven't manifested themselves in any 
significant way here yet, but the case of Khalid Sheikh 
Mohammed, of course, is an indicator that people who come to 
the United States draw their own conclusions as well from their 
student experiences.
    Mr. Bilirakis. Thank you.
    Next question for the entire panel again: Terrorist 
organizations have become adept at using the internet to 
recruit, inspire, and motivate individuals in the United States 
to carry out attacks on their behalf. What are your thoughts on 
how to combat the use of internet and other technologies by 
terrorist organizations that seek to inspire and encourage 
terrorist attacks in our country by those who are already here?
    Mr. Bergen. Yes. I think there is a huge First Amendment 
problem and there is a huge technology problem, neither of 
which I think are very superable. The technology is always 
going to be better than what the Government can do, and so 
trying to close these kinds of things down, of course, is the 
intelligence-gathering that you can gather from these internet 
sites, which is useful. You know, while it might be desirable 
to try and do something about this I think in practice it would 
be very hard.
    Mr. Hoffman. I have testified in this room before 
Congresswoman Harman's subcommittee on this issue, and I think 
it is one of the biggest problems we face in the sense that the 
internet has become this vast vacuum that unfortunately the 
purveyors and communicators of hatred and intolerance have 
taken advantage of, not least, I think, to peddle often base, 
completely untruthful conspiracy theories that gain incredible 
traction. I see this as a problem that we have talked about, in 
essence for 9 years since 9/11, but there really hasn't emerged 
any strategy or any approach to how to deal with it.
    Under Under Secretary Glassman in the previous 
administration I think there was progress being made in the 
State Department on this because he was someone who understood 
that you have to knit together the various communications arms 
of the United States. But I think that was sort of a brief 
flurry of activity and prioritization that unfortunately has 
fallen by the wayside.
    Mr. Flynn. The only thing I would add is I think it is 
clear that we need the counter-messages, and we talked--Dr. 
Hoffman mentioned it earlier here, that this AID and the focus 
on our public communications abroad is primarily still 
traditional media and we have got to get to different media.
    But one message that I try to convey, again, to my domestic 
audience as well as overseas is this is a resilient country and 
we will not be cowed by those who want to threaten us. We have 
bounced back better and stronger when hit, and try, but we will 
bounce back better and stronger. We have to have messages that 
don't feed the sense that this--these acts of terror will give 
these folks great glory and opportunity.
    Chairman Thompson. So basically, resilience is important.
    Mr. Flynn. Absolutely. One of the challenges, I guess, Mr. 
Chairman, with that concept, I think, before was there was a 
sense that that would be an element of defeatism by saying that 
we have to be resilient. That means you are not working hard 
enough to prevent these things in the first place. Nonsense.
    When we communicate our resilience we are having a 
deterrent effect. It is a part of our strategy of prevention, 
letting people know that this is a strong country, a capable 
country, as it illustrated on 9/11 with the efforts of the 
folks in United 93 as well as how people responded in Manhattan 
to get people off. This is a country that has lots of stories 
to tell about our resilience and we need to do a better job of 
communicating them, I think.
    Chairman Thompson. I agree.
    The gentlelady from Nevada, Ms. Titus, for 5 minutes.
    Ms. Titus. Thank you, Mr. Chairman. Well, when you are the 
last one often much of what you wanted to say has been covered, 
but I would like to go back to a couple of points as they 
relate to my district in southern Nevada.
    You talked about future attacks focusing on distinctive 
Western trademarks, and I heard you mention some major cities. 
You didn't mention Las Vegas, and Las Vegas is probably as 
quintessentially American--maybe in good and bad ways--as it 
comes, and so we often worry that we might be a soft target.
    I think, too, about trademarks as McDonald's and Starbucks. 
I have often thought that the way to have a really demoralizing 
effect on the country would be for 10 terrorists to walk into 
10 Starbucks around the country at the same time and blow them 
up. It wouldn't be a lot of people but it would be in an area 
that would make us feel most vulnerable because it is everyday 
life where you don't expect it.
    A lot of people aren't ever going to go to the World Trade 
Center but they are going to send their children to McDonald's 
or they are going to stop at Starbucks, and they just wouldn't 
expect it to happen there. So I would ask you to comment on 
that.
    Also, in Las Vegas--the Chairman mentioned he was in the 
district with me recently to announce our ``See Something, Say 
Something'' effort. I think we need to put more resources 
behind that because it is very effective, especially if there 
is no set profile.
    In Nevada we are doing training of housekeepers and valet 
parkers and taxi drivers all to say, if you see something, you 
hear something, you smell something that is out of the ordinary 
don't be afraid to report it. It has been very effective. So 
more of that kind of programming, I think, would be a good 
idea.
    Then just finally, you have said we--excuse me--need to 
change the culture, we need to talk about being resilient, we 
need leadership that says they oppose activities like burning 
the Koran, but you haven't really given us something specific 
that we can do as a legislative fix. What can this committee 
do, or what can Congress do, or where should the money be 
redirected or the resources so that we can do the things that 
you are talking about? Is there anything specific you can tell 
us?
    Mr. Flynn. I will leave my colleagues to talk about the 
threat. But again, you know, I think for the reasons you 
identified Las Vegas certainly should fall in the list of areas 
that we should be concerned about.
    The effort to support the ``See Something, Say Something'' 
campaigns, I mean, the key is that it is useful information, 
that is credible information tailored for the communities that 
it is in, and also that when people report they have the 
confidence there is going to be a live voice and some response, 
they are going to be treated with respect. That is resources 
that clearly have to be committed to that at that enterprise. 
So the local public safety agencies need those resources and 
capacity, I think, to go there.
    I think one just woefully underfunded effort is built 
around things like Citizen Corp, and Citizen Corp where, you 
know, the more probable--the reality is the more probable 
consequential events in this country are going to be natural 
disasters, and yet the skill set we need to deal with those 
disasters are going to very much serve us well in dealing with 
this terrorist event as well. So really, efforts that move 
beyond just the terrorism focus but says, ``If you stay put in 
this country 95 percent of Americans are going to get hit by a 
natural disaster at some point.''
    Building Citizen Corp kinds of capacity where you 
incorporate in that, as well, the, ``This is one of the hazards 
that we face as communities; we need capabilities.'' Then 
people, I think, will see a direct return, and we saw to get 
the kind of return of the social contract that we want to deal 
with emergencies going forward. So I think that is an area 
where we could focus, potentially, as a body more attention on. 
Thank you, ma'am.
    Mr. Hoffman. Well, I think one of the problems we face in 
this country is, unlike law enforcement officers in Iraq, or 
Afghanistan, or Pakistan, or even Israel, where terrorism is a 
daily occurrence, here this isn't necessarily something that is 
front and center on their radar screen. I think except with 
some signal exceptions--NYPD, Los Angeles Police Department, 
Chicago, various others, and I would have to include in that 
Las Vegas P.D. and the Nevada State authorities.
    I have personally conducted many training sessions where I 
found Las Vegas Police Department members who were also members 
of the military who served in reserve intelligence units, but 
who take very seriously, exactly as you described, the 
potential threats to Las Vegas and are doing mostly on their 
own exactly the right thing--reaching out and seeking to 
improve and enhance their own education and training.
    This goes into your second question, as we have discussed 
and as the Chairman has been behind these moves is to bring 
those same--the NYPD model, in essence. I am speaking 
personally amongst all the meetings that we had with various 
officials as part of the National Security Preparedness Group 
but I am biased as a native New Yorker. I think one of the most 
inspiring, and informative, and certainly cutting-edge we heard 
was from Commissioner Ray Kelly and what NYPD is doing, and it 
is an acknowledged model but it is enabling other 
municipalities and other localities and States to have the same 
opportunities, even though they have--don't have the same 
budget that New York has, to partake in these opportunities 
with Federal assistance.
    Mr. Bergen. Just on the Starbucks question, I mean, these 
guys--they are mostly guys, of course--you know, if you look at 
what the targets have been--New York City subway with Zazi, 
Times Square with Faisal Shahzad, the Northwest flight 253 with 
Umar Farouk--they just keep coming back to the same targets. 
They are just not going to do Starbucks.
    Ms. Titus. I appreciate that. It is just interesting that 
you say they keep coming back to the same targets and yet you 
also make the same point that they don't do the same thing, 
they keep looking for gaps in our security to find 
opportunities to do different things. Isn't that a little 
contradictory if we are trying to be forward-looking as opposed 
to replaying the same scenario over and over?
    Mr. Bergen. Actually, I don't think those things are 
contradictory. They keep going to the same targets but they are 
looking for new gaps.
    Ms. Titus. Okay.
    Mr. Bergen. So, you know, the plastic explosives in the 
underwear, this is a new gap. I would raise for the committee a 
very important thing that I think we had mentioned in the 
report: Whoever built that bomb is still out there. The Yemeni 
bomb-maker who built that bomb--he almost succeeded in killing 
Prince Mohammed bin Nayef on August 28 of last year with a bomb 
that is exactly the same one that was used on Northwest flight 
253, and according to a range of officials that we spoke to for 
the report there is no evidence this guy is out of business, 
and he will try and put a plastic explosive bomb on a plane 
somewhere in the world at some point.
    Mr. Flynn. I think what is key is that with this scenario 
is that we have plans and we think through how we would 
respond. These are very important company spots for our economy 
and we should have thought through, even though the probability 
remains, I think, killing lies.
    I would only add this: On its face it sounds pretty simple 
to send 10 simultaneous bombs into Starbucks but that is 
actually a lot of effort, and so it has an element of 
sophistication that requires a bigger group, more coordination 
and communication, that gives us some ability in the 
conventional law enforcement as well as intelligence to trip 
them up. So it is a lone wolf kind of attack that is probably 
more likely to be profitable, and the people may not draw the 
sense that there is a systemic vulnerability, so that is 
probably where it is in the in-between stage.
    Bottom line, a brand will be devastated by that so the 
company should have a vested interest. But we as a Government 
need to have a plan for, again, the morning-after problem. When 
this does happen how are we going to respond so we don't create 
an incentive for them to keep coming back to this same problem?
    Ms. Titus. Thank you.
    Mr. Hoffman. Could I address the apparent contradiction----
    Chairman Thompson. Without objection.
    Mr. Hoffman. Thank you, sir.
    One of the salient conclusions of the report is that unlike 
in the aftermath of September 11, 2001 we don't face any longer 
one threat from one terrorist group in essence in one place, 
but it is rather a diversity and a multiplicity of threats, and 
I think at a certain level the most senior levels of al-Qaeda 
they are very much bent on symbolic targets, perhaps fixated on 
New York. But as the report points out, the threat has 
diversified and also increased, and as it has multiplied it has 
spread throughout the country and it has also, as we discussed 
a few minutes ago, zeroed in on different locations and 
different levels of targets, and I think that is the 
fundamental challenge we face in counterterrorism today, is we 
have to have a far more flexible and a far more dynamic 
approach than at any other time certainly that existed in the 
aftermath of September 11, 2001.
    Ms. Titus. Thank you.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you.
    The Chairman now recognizes the gentlelady from Texas, Ms. 
Jackson Lee, for 5 minutes.
    Ms. Jackson Lee. Mr. Chairman, thank you very much. I just 
want to take a moment to thank the panel, but as well to 
acknowledge I believe this committee has important work to do. 
Chairman, I want to thank you for both this series of hearings 
but the intensity of the oversight that we have had throughout 
the history of this committee. To the Ranking Member and to Mr. 
Lungren, who is sitting in place, I think none of us would 
underestimate the importance of hearings like this or having a 
committee called Homeland Security, which, as all of you 
witnesses know, we had no such thing prior to 2001 and we 
probably had some clue, but a limited clue.
    I co-chair the Pakistan Caucus, and I--and the Afghan 
Caucus--and I have watched as I have worked in those entities, 
and particularly the popularity of those countries rise and 
fall. So I want to say this without any comment that is 
disparaging on this committee or the work that we are doing, 
but I think it is important to say: I don't feel safe, and I 
think it is important that we acknowledge this question of the 
speculation of security and safety. As we do that it makes us 
more diligent, more faithful, and more responsible to these 
issues.
    So I am going to raise these questions on the grounds of 
not feeling safe, and Peter, if I might, Mr. Bergen, as we have 
listened to your commentary let me not--let you--don't perceive 
this as a critic--you are usually somber and straightforward in 
the message, because I think we should be serious about this. I 
frankly believe that we are franchising terrorism. I think the 
report said something about diversification.
    When you have someone who left Ghana and made their way 
through into the Netherlands and then to the United States; 
when you have a captain in Fort--in Austin--I am sorry, 
Killeen, Fort Hood, my State, and having gone to Fort Hood as 
well, getting information or being inspired negatively by 
someone in Yemen. I went to Yemen shortly after and I think my 
colleague, Congresswoman Harman, is one shortly after the 
incident in December, and what the Yemen leadership said is, 
``We want help but we have thousands of unemployed young men 
that are fodder, if you will, for this issue.''
    Would you comment on the franchise of terrorism, which 
means how do we pinpoint it? How does the committee that is 
fixed in time that sits in Congress, a department that is fixed 
that sits in Washington, address the question of the 
franchising of terrorism which gives no appointment, no notice 
other than, of course, the idea of human intelligence, which, 
of course, is very important?
    Would you add to that the issue of aviation as a major 
target, and is it attractive because it is a ``wow,'' and is 
there anything we can do to take away the wow? The last point 
is, this anti-Islamic feeling, movement, trend with the peak of 
the gentleman from Florida, who I never could imagine would 
exist in this country but did and captured the minds and hearts 
of the world for, like, 2 weeks?
    Mr. Bergen.
    Mr. Bergen. A lot to cover, but yes. I mean, certainly the 
franchising is a problem and we have seen, but we are--I think 
it is a problem we are aware of. I mean, the fact that 
Congressman Harman and Congressman--Congresswoman Harman and 
yourself have both been to Yemen I think speaks for the fact 
that, you know, whether it is General Petraeus, when he was at 
CENTCOM, and others, I mean, there is a focus there.
    Taking away the wow from aviation I don't think is going to 
happen.
    Ms. Jackson Lee. Taking away the----
    Mr. Bergen. Taking away the wow. I mean, aviation is the 
lifeblood of the global economy and these guys have a 
narrative. They want to bankrupt us and, you know, if 253 had 
blown up over Detroit, I mean, we would have taken a huge hit 
in the middle of the worst recession since the Great 
Depression, there is no doubt about it. So I think that is, you 
know, that is just going to remain the new target.
    As for the anti-Islamic fervor, I mean, this plays directly 
into the hands of the jihadis, there is no doubt. I mean, they 
use it constantly as a talking point, the fact that they can 
say, ``Well, look at the controversy that goes with the 
Manhattan mosque.'' This is a recruiting tool for them, the 
extent of which we--obviously having an open debate about these 
issues is the American way but we should be cognizant of the 
fact that our enemies are exploiting real anti-Islamic bias or 
perceived anti-Islamic bias, whatever the case, as one of their 
talking points.
    Ms. Jackson Lee. Dr. Hoffman.
    Thank you.
    Mr. Hoffman. I don't have anything to add. I think 
aviation, no matter what we do, will remain a salient target 
exactly as Mr. Bergen described, because our adversaries don't 
see as much defeating us militarily as undermining us 
economically, and they think that by focusing on commercial 
aviation that that will be a proven means to throttle our 
economy and certainly our global commerce.
    Mr. Flynn. I would just add on the aviation piece, at 
least, the biggest concern, of course, we rightfully had after 
9/11 was using an airplane as a guided missile with passengers 
aboard. Two relatively straightforward things helped to deal 
with that--hardening the cockpit door and changing the behavior 
of the passengers on-board those planes. So yes, aviation will 
be targeted but not in the same way we saw after 9/11 and I 
think it is an important perspective to keep in mind.
    But broadly, I think as a challenge for this committee is, 
and I think again, it is a key thing to be taken away from this 
analysis: We have been doing something very expensive and 
working very hard at it, which is to use the conventional 
National security, National defense apparatus we have to 
conduct the war against terrorism.
    What we have not done nearly as well and with near the 
sense of priority or investment is to deal with the homeland 
security enterprise that 9/11 revealed. At the end of the day 
the attack happened here, and yet we basically invested in 
taking this to the enemy.
    What this report makes clear is that that effort of 
basically trying to keep this threat at arm's length is not 
something sustainable in the long run and we have to make 
investments commensurate with the threat and vulnerability and 
the need in the homeland security realm.
    Mr. Bergen. Sir, can I add just one thing about aviation 
which I think is important?
    In 2002 an al-Qaeda affiliate in Mombasa tried to bring 
down an Israeli charter jet with a surface-to-air missile and 
almost succeeded, and this is not a Chicken Little scenario. 
These guys do have surface-to-air missiles; they do have the 
intent and they have the capability. I think that that is--if 
you could bring down a commercial jet somewhere in the world--
it doesn't have to be American----
    Ms. Jackson Lee. Right.
    Mr. Bergen [continuing]. We are in a kind of transformative 
moment, and unfortunately that is, I think, a predictable kind 
of attack that they will try and pull off in the future.
    Ms. Jackson Lee. Mr. Chairman, could I just ask you to 
yield? I would like to put something in the record and I would 
like you to hear it, please, because it adds to this point, and 
I won't call the city and it might be obvious.
    One of the things that we don't think about as we give 
Federal money is how local governments receive it and interact 
with it. There is an airport that is receiving AIP equipment--
advanced imaging technology. The placing of the equipment was 
delayed because of local government permitting problems to the 
extent that the equipment is not in today and it was supposed 
to be in almost a month ago.
    So when we think of the work we do here, how we interact 
with local officials--and of course we have heard a lot of 
compliments about good works that they have done and they do--
but just a building permit issue that they may think is not 
significant, or they are not focusing on what we are trying to 
do, which is terrorist equipment, and it is standing there 
waiting in a box, I think that is something that maybe we will 
look at or how we can do our outreach to the local communities 
and how our work here gets translated in the right way. So I 
just wanted to put that on the record, because even today the 
equipment is not in.
    Chairman Thompson. You sure you don't want to identify the 
city?
    [Laughter.]
    Chairman Thompson. The worst-kept secret in the hearing.
    Thank you very much, Ms. Jackson Lee.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    Chairman Thompson. The Chairman now yields for a point of 
personal privilege for Ms. Harman.
    Ms. Harman. Thank you, Mr. Chairman.
    I just failed to acknowledge, and I think we all should, 
the presence in the audience of Carrie Lemack, whose mother 
died on 
9/11 and who has been one of the most active members of the 
9/11 families behind responsible oversight and good legislation 
in Congress to deal with these threats. I call the group that 
she is part of the wind beneath our wings as we enacted some of 
the changes after 9/11, and I----
    Carrie, I don't know how we would ever do this without you.
    I yield back, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    [Applause.]
    Chairman Thompson. Dr. Flynn, since we have you here I want 
to get a comment from you. You have talked a little bit about 
the diversity of the terrorist threat. What do you say to those 
out here who are still balking at this notion of 100 percent 
scanning of U.S.-bound cargo?
    Mr. Flynn. My biggest concern remains that the intermodal 
transportation system is still vulnerable to potentially--I 
think it is more in the realm of a dirty bomb as a scenario, 
that should it get into the system and go off that all the risk 
management tools that have been put together to date will be 
discredited and the response will be, like we have done 
offshore right now in the Gulf of Mexico, is a moratorium on 
the movement of goods till we can sort it out. The consequence 
of that would be cataclysmic.
    So we need to move beyond the status quo into something 
that gives us a far better range of confidence when--if this 
scenario plays itself out--than the tools we have today. I 
think it is possible, when you engage the industry, to get to a 
far higher percentage of scanning that is more toward the 100 
percent end of the spectrum than it is the tiny fraction we do 
today, but the key is to move beyond the polemic that this--
everything was fine until this legislation came along and then 
that that is simply unachievable.
    There is a middle ground here where our overarching effort 
has to be. The resilience of the intermodal transportation 
system is exploited, and I am very much concerned that we have 
been stagnant for 3 years--no movement in this area--and a 
consequence could be really quite catastrophic for our economy.
    Again, for the analysis here do we have data that tells us 
this is a near and present? No. But it will take us a long time 
to put the system--the right system--in place, and there is 
more that can be done.
    Chairman Thompson. The reason I raised it is we continue, 
as a committee, to press the Department to follow the 
Congressional mandate rather than to interpret the mandate as 
they see it, and we basically say, ``You don't have a choice in 
the matter.'' So I guess I am just looking for an ``amen'' that 
Congress is doing right.
    Mr. Flynn. Amen.
    Chairman Thompson. Thank you very much.
    I thank the witnesses for their valuable testimony and the 
Members for their questions. Before concluding I would like to 
remind the witnesses that the Members of the committee may have 
additional questions for you and we will ask you to respond 
expeditiously in writing to those questions.
    Hearing no further business, the committee stands 
adjourned.
    [Whereupon, at 12:02 p.m., the committee was adjourned.]


                            A P P E N D I X

                              ----------                              

      Questions From Chairman Bennie G. Thompson for Peter Bergen

    Question 1. You gave testimony before our intelligence subcommittee 
10 months ago where you posited that:

``In sharp contrast to Muslim populations in European countries like 
Britain--where al-Qaeda has found recruits for multiple serious 
terrorist plots--the American Muslim community has largely rejected the 
ideological virus of militant Islam. The `American Dream' has generally 
worked well for Muslims in the United States, who are both better-
educated and wealthier than the average American.''\1\
---------------------------------------------------------------------------
    \1\ ``Reassessing the Evolving al-Qaeda Threat to the Homeland'', 
Subcommittee on Intelligence, Information Sharing, and Terrorism Risk 
Assessment, November 19, 2009.

    Now, clearly a lot has happened since November 2009. The large 
number of terrorism-related incidents carried out by American citizens 
or residents certainly belies your observation. My question is, why 
hasn't the American Dream protected us against radicalization in the 
United States? What have you learned, through preparing this 
assessment, about how someone who by all outward appearances was living 
the American Dream--think Faisal Shahzad--could be radicalized in 
America?
    Answer. Response was not received at the time of publication.
    Question 2. What is your opinion about reports that the United 
States is beginning a dramatic build-up of intelligence and 
counterterrorism operations in the Arabian Peninsula? Particularly, 
what do you think about the reports that the CIA is considering 
redeploying drones from Pakistan to carry out operations in Yemen 
(against AQAP) and Somalia (against Al Shabab)?\2\
---------------------------------------------------------------------------
    \2\ Adam Entous and Siobhan Gorman, ``U.S. Weighs Expanded Strikes 
in Yemen,'' Wall Street Journal, (August 25, 2010), http://
online.wsj.com/article/
SB10001424052748704125604575450162714867720.html.
---------------------------------------------------------------------------
    Through your research, you have noted that drone attacks can have 
some drawbacks and contribute to radicalization when there is 
collateral damage. To your mind, what considerations should be taken 
into account before commencing drone strikes against AQAP and Al Shabab 
on the Arabian Peninsula?
    Answer. Response was not received at the time of publication.
    Question 3. Based on your assessment, how does the Federal 
Government's response and reaction to past terrorist attacks and 
attempts influence extremist behavior? For example, when aviation 
security policies and procedures are swiftly or drastically changed in 
response to thwarted attacks such as the Flight 253 incident on 
Christmas day 2009 or the 2006 transatlantic aircraft plot; do violent 
extremists see this as a victory?
    Answer. Response was not received at the time of publication.
    Question 4a. In your report you state that terrorism is 
inexpensive. You note that the Times Square plot cost approximately 
$12,000 to undertake, with the funds being transferred from overseas 
bank accounts to Faisal Shahzad via locations in Massachusetts and New 
York State.\3\ Although we have made reforms after the 
9/11 attacks to monitor and punish financing of terrorist organizations 
and their operations, what can we do further to stem terrorists' 
financing?
---------------------------------------------------------------------------
    \3\ Bergen-Hoffman Assessment p. 25.
---------------------------------------------------------------------------
    Question 4b. In your report you address one of the prevailing 
thoughts by some in the intelligence community that the threat of al-
Qaeda is now low because its membership is currently in the range of 
around 50 to 300.\4\ From your testimony, you caution that focusing on 
the size of membership is a flawed way to look at the al-Qaeda threat. 
You explain that al-Qaeda remains a threat not because of the size of 
its membership--after all their core membership has always been small--
but because of it position as the ideological and military vanguard for 
jihadists around the world.
---------------------------------------------------------------------------
    \4\ Bergen-Hoffman Assessment p. 5.
---------------------------------------------------------------------------
    What, if anything, is wrong with the way that the intelligence 
community is assessing the threat that al-Qaeda presents?
    Question 4c. If their assessment is wrong, how does this influence 
resource allocation and investigations?
    Answer. Response was not received at the time of publication.
    Question 5a. The committee has received testimony from the WMD 
Commission that ``unless the international community acted decisively 
and with great urgency to counter this threat, the probability of using 
a weapon of mass destruction in a terrorist attack somewhere in the 
world by the end of 2013 is very likely.'' Your report, on the other 
hand, asserts that the threat of a terrorist being able to pull of a 
chemical, biological, radiological, or nuclear attack is remote.
    Can you expound on why you view the risk of an attack involving 
``true weapons of mass destruction'' unlikely to happen?
    Question 5b. What would you say to those that argue that the 
potential high consequences of a WMD attack overrides the doubts or 
limited evidence that terrorists are capable of successfully deploying 
such an attack?
    Answer. Response was not received at the time of publication.
         Questions From Hon. Yvette D. Clarke for Peter Bergen
    Question 1. In the wake of lapses in security, there is a tendency 
to throw the proverbial baby out with the bathwater with regards to the 
policies that we have implemented to keep our country safe. In light of 
the attempted shoe bomber Richard Reid and underwear bomber Umar Farouk 
Abdulmutallab, who have demonstrated the limitations in our homeland 
security, how can authorities be more proactive in our approach to what 
is possible, thereby enhancing our ability to not only eliminate 
sensational attacks such as 9/11 but also the attempts I just 
mentioned?
    Answer. Response was not received at the time of publication.
    Question 2. Globalization has created a world in which events 
overseas have an immediate impact back home and vice versa as the 
recent Koran burning controversy demonstrated. In the case where 
individuals in America are radicalized or arrive in America with a 
radical agenda, what are authorities doing to work with domestic groups 
and communities to identify these individuals before they can cause 
harm to America?
    Answer. Response was not received at the time of publication.
    Question 3. There is a fine line between keeping our country safe 
and staying true to our values as Americans. What are authorities doing 
to ensure that we are being proactive in identifying terrorist threats 
without racial profiling or zeroing in on a person due to national 
origin?
    Answer. Response was not received at the time of publication.
      Questions From Chairman Bennie G. Thompson for Bruce Hoffman
    Question 1. According to the ``Terrorist Trial Report Card,'' 
produced by NYU's School of Law and Security, ``[n]either Miranda 
requirements nor the challenges of preserving classified information 
have proven to be insurmountable obstacles in terrorism cases''\1\ 
insofar as nine out of 10 terrorism cases result in convictions.\2\ Do 
you agree with this assessment?
---------------------------------------------------------------------------
    \1\ ``Terrorist Trial Report Card: September 11, 2001 to September 
11, 2009,'' Center on Law and Security, New York University School of 
Law, (January 2010).
    \2\ Id.
---------------------------------------------------------------------------
    Answer. Response was not received at the time of publication.
    Question 2a. You recently observed that our Government is ``able to 
focus only on one enemy in one place at one time''.\3\ Last month, the 
CIA stated that AQAP\4\--the Al Qaeda offshoot in Yemen--rather than 
the core terrorist group that carried out the September 11 attacks--is 
the most urgent threat to U.S. security.\5\ A major factor contributing 
to this assessment was the incredible speed--just a few months' time--
that it took for them to plan and carry out the attempted Northwest 
Flight 253 bombing.
---------------------------------------------------------------------------
    \3\ Bruce Hoffman, ``American Jihad,'' The National Interest, (May-
June 2010), http://nationalinterest.org/article/american-jihad-3441.
    \4\ Al Qaeda in the Arabian Peninsula; pronounced ``A-Q-A-P''.
    \5\ Greg Miller, ``CIA Sees Increased Threat In Yemen,'' Washington 
Post, (August 25, 2010) http://www.washingtonpost.com/wp-dyn/content/
article/2010/08/24/AR2010082406763.html.
---------------------------------------------------------------------------
    Given your observations about how our Government carries out 
counter-terrorism efforts, would you expect that this recent CIA 
assessment will necessarily result in a diversion of priorities and 
resources away from other terrorist threats?
    Question 2b. Shouldn't one of the major takeaways be from the 
Christmas day attempted attack that the threat has evolved and now an 
attack can be planned from anywhere, in a very short amount of time?
    Question 2c. Does it not stand to reason that as long as we 
continue to focus on where the last attack came from, we risk missing 
where the next one is being plotted?
    Answer. Response was not received at the time of publication.
    Question 3a. According to your analysis of the 57 Americans whose 
ethnicities are known who have been charged or convicted of Islamist 
terrorism crimes in the United States or elsewhere since January 2009, 
the largest bloc were Somali-Americans at 31 percent. The next largest 
bloc was Caucasian-Americans at 21 percent, which underscores your 
argument that the threat has diversified and terrorists are not one 
color or ethnicity.\6\
---------------------------------------------------------------------------
    \6\ Bergen, Peter and Hoffman, Bruce, ``Assessing the Terror 
Threat'', September 10, 2010, p. 16.
---------------------------------------------------------------------------
    Would you elaborate further on how your statistical analysis 
discredited generalized stereotypes about the racial or ethnic make-up 
of a terrorist?
    Question 3b. To what degree does the the ``Americanization'' of the 
terrorist threat compel a rethinking of a terrorist stereotype?
    Answer. Response was not received at the time of publication.
    Question 4a. Over the past year, there have been numerous cases of 
concerned citizens reporting suspicious terrorist activity or suspected 
radicalization of members within their community to the authorities. 
Given that these actions have, in many cases, led to successful 
investigations and arrests, there is a growing perception among some 
that community engagement can be a critical counter-terrorism tactic. 
At the same time, there are those that view a closer relationship 
between the Government and community groups and leaders borders as 
tantamount to ``sleeping with the enemy''.
    What do you think about ``community engagement'' as a counter-
terrorism tactic?
    Question 4b. It seems today that engagement with the community 
remains on an ad hoc basis and a fully integrated relationship between 
communities of concerns and all levels of Government has not yet 
developed. Who, if anyone, do you think should be leading these efforts 
at the Federal level?
    Answer. Response was not received at the time of publication.
    Question 5a. Prisoners--especially those in gangs--have long 
recruited other inmates to act as their collaborators upon release. But 
there is some evidence that prisons may be particularly fertile ground 
for violent radicalization--think Richard Reid, Jose Padilla, and Kevin 
James.\7\ Many American have not heard of ``Kevin James.'' His is a 
particularly disturbing case insofar it is the first identified case of 
a gang member radicalizing inmates into joining a prison gang with a 
terrorist agenda in a U.S. prison. How much of the U.S.-base threat--
which you identify as ``embryonic''--would you say emanates from our 
prisons?
---------------------------------------------------------------------------
    \7\ On March 6, 2009, Kevin James was sentenced to 16 years in 
Federal prison after pleading guilty to ``conspiracy to levy war 
against the United States through terrorism.'' James and three other 
men were indicted on terrorism charges related to the 2005 Los Angeles 
bomb plot, a conspiracy to attack military and Jewish facilities in the 
Los Angeles area and of attempting to fund their campaign by robbing 
gas stations in Southern California over the previous 3 months. James, 
a Muslim convert, was accused of founding a radical Islamic group 
called J.I.S (Jam'iyyat Ul-Islam Is-Saheeh, Arabic for ``Assembly of 
Authentic Islam'') from his cell in Folsom Prison in California, and of 
recruiting fellow inmates to join his terrorist mission. http://
losangeles.fbi.gov/dojpressrel/pressrel09/la030609ausa.htm.
---------------------------------------------------------------------------
    Our intelligence collection capabilities in prisons appear to be 
limited, and we have little or no infrastructure in place to conduct 
deradicalization efforts in our prison system. Other countries have 
taken much more proactive steps. In Saudi Arabia, for instance, an 
extensive prison deradicalization program connects the inmates back 
with their families and provides religious and job education to provide 
a path back to the mainstream. Should the United States be considering 
similar deradicalization programs for our prisons?
    Question 5b. What, if anything else, can we do to address the 
threat of radicalization in prisons?
    Answer. Response was not received at the time of publication.
    Question 6. In your report, you list ``suicide operations'' as the 
most likely potential future terrorist tactic and note Americans have 
already been involved in suicide attacks--two of the Somali-American 
youths that left Minnesota for Somalia have blown themselves up.\8\ You 
recount how the British Security Service, months before the July 2005 
suicide attacks on the London transit system, concluded that ``suicide 
bombing would not be much of a concern in the United Kingdom 
itself.''\9\
---------------------------------------------------------------------------
    \8\ Bergen-Hoffman Assessment p. 3 and p. 26.
    \9\ Id at 26.
---------------------------------------------------------------------------
    I could not help but think that you shared that observation about 
the British to say something larger about this country. Is America 
``stubbornly wrapping itself in a false security blanket'' about the 
threat of suicide attacks in the United States, as you claim the 
country is doing respect to the homegrown terrorism threat?\10\
---------------------------------------------------------------------------
    \10\ Id. at 16.
---------------------------------------------------------------------------
    Answer. Response was not received at the time of publication.
         Questions From Hon. Yvette D. Clarke for Bruce Hoffman
    Question 1. In the wake of lapses in security, there is a tendency 
to throw the proverbial baby out with the bathwater with regards to the 
policies that we have implemented to keep our country safe. In light of 
the attempted shoe bomber Richard Reid and underwear bomber Umar Farouk 
Abdulmutallab, who have demonstrated the limitations in our homeland 
security, how can authorities be more proactive in our approach to what 
is possible, thereby enhancing our ability to not only eliminate 
sensational attacks such as 9/11 but also the attempts I just 
mentioned?
    Answer. Response was not received at the time of publication.
    Question 2. Globalization has created a world in which events 
overseas have an immediate impact back home and vice versa as the 
recent Koran burning controversy demonstrated. In the case where 
individuals in America are radicalized or arrive in America with a 
radical agenda, what are authorities doing to work with domestic groups 
and communities to identify these individuals before they can cause 
harm to America?
    Answer. Response was not received at the time of publication.
    Question 3. There is a fine line between keeping our country safe 
and staying true to our values as Americans. What are authorities doing 
to ensure that we are being proactive in identifying terrorist threats 
without racial profiling or zeroing in on a person due to national 
origin?
    Answer. Response was not received at the time of publication.
    Questions From Chairman Bennie G. Thompson for Stephen E. Flynn
    Question 1. Do you think that our extensive programs to push out 
the borders--like reforms to Visa Waiver Program, the Visa Security 
Program, etc.--naturally resulted in making terrorist organizations 
look to recruit U.S. citizens and legal permanent residents since they 
can move freely inside and outside the country? Do you think that these 
systems are operating adequately or do you think more reforms are 
needed?
    Answer. Response was not received at the time of publication.
    Question 2. You clearly articulate in your report that the threat 
is evolving from foreign-based to domestic, where U.S. citizens and 
residents play a prominent role in planning and operations either here 
in the United States or globally.
    In your opinion, given this shift, to what extent should we 
continue to invest resources and energy in the name-based watch-listing 
system, as managed by the National Counterterrorism Center?
    Question 2b. As the threat is evolving to more domestic and 
homegrown, in what way, if any, should our watch-listing systems be 
adapted to track individuals who pose a threat to our National 
security?
    Answer. Response was not received at the time of publication.
    Question 3a. Since Northwest Flight 253, there has been renewed 
interest in visa security. Not since after the September 11 terrorist 
attacks, when we took significant new steps to try and foster greater 
security in the visa process--given that all 19 terrorists entered the 
United States on valid visas--have we seen as much discussion about the 
vulnerabilities.
    Should we view the fact that Umar Farouk Abdulmutallab was able to 
travel to the United States on a valid visa even though he was 
identified as a ``known or suspected terrorist'' in the Terrorist 
Identities Datamart Environment (TIDE) as simply the result of a 
breakdown in our intelligence systems or do you believe that our visa 
system was exploited?
    Question 3b. How valuable is it for terrorist groups to recruit 
individuals with valid visas? Is there any indication that terrorists 
are actively recruiting these individuals?
    Answer. Response was not received at the time of publication.
    Question 4. Some have suggested that DHS take over the visa 
issuance process from the State Department. What do you think about 
such proposals?
    How important is intelligence-gathering and information-sharing 
within the intelligence community in preventing terrorists with valid 
visas from entering this country?
    Answer. Response was not received at the time of publication.
    Question 5. The Flight 253 incident illustrates aviation security 
is an international concern. In the wake of the attack, senior DHS 
officials engaged in a broad international outreach effort to meet with 
leaders from major international airports to review security 
procedures. What more should our Government do to engage our 
international partners in the interest of enhancing global aviation 
security and deny terrorists access into our country? What more should 
we expect of those international partners?
    Answer. Response was not received at the time of publication.
    Question 6. When the U.S. Nuclear Posture Review was released 
earlier this year, President Obama said: ``The greatest threat to U.S. 
and global security is no longer a nuclear exchange between nations but 
nuclear terrorism by violent extremists.'' Do you agree?
    Answer. Response was not received at the time of publication.
       Questions From Hon. Yvette D. Clarke for Stephen E. Flynn
    Question 1. In the wake of lapses in security, there is a tendency 
to throw the proverbial baby out with the bathwater with regards to the 
policies that we have implemented to keep our country safe. In light of 
the attempted shoe bomber Richard Reid and underwear bomber Umar Farouk 
Abdulmutallab, who have demonstrated the limitations in our homeland 
security, how can authorities be more proactive in our approach to what 
is possible, thereby enhancing our ability to not only eliminate 
sensational attacks such as 9/11 but also the attempts I just 
mentioned?
    Answer. Response was not received at the time of publication.
    Question 2. Globalization has created a world in which events 
overseas have an immediate impact back home and vice versa as the 
recent Koran burning controversy demonstrated. In the case where 
individuals in America are radicalized or arrive in America with a 
radical agenda, what are authorities doing to work with domestic groups 
and communities to identify these individuals before they can cause 
harm to America?
    Answer. Response was not received at the time of publication.
    Question 3. There is a fine line between keeping our country safe 
and staying true to our values as Americans. What are authorities doing 
to ensure that we are being proactive in identifying terrorist threats 
without racial profiling or zeroing in on a person due to national 
origin?
    Answer. Response was not received at the time of publication.
       Questions From Hon. William L. Owens for Stephen E. Flynn
    Question 1. DHS has deployed technology to capture biometric data 
of travelers entering the United States at air, land, and sea ports. 
What procedures, if any, are in place to track high-risk individuals 
who are departing the United States to receive training in countries 
like Pakistan and Yemen?
    Answer. Response was not received at the time of publication.
    Question 2. Can you point to any specific areas in security at the 
northern border that you think are in need of reform?
    What is your assessment of the TSA-run watch-listing system as it 
relates to the northern border?
    Answer. Response was not received at the time of publication.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
